No. _________
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------THE INCLUSIVE COMMUNITIES
PROJECT, INCORPORATED,
Petitioner,
v.
LINCOLN PROPERTY COMPANY; LEGACY
MULTIFAMILY NORTH III, L.L.C.; CPF PC
RIVERWALK, L.L.C.; HLI WHITE ROCK, L.L.C.;
BRICK ROW APARTMENTS, L.L.C.,
Respondents.
-----------------------------------------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
-----------------------------------------------------------------APPENDIX
-----------------------------------------------------------------MICHAEL M. DANIEL
Counsel of Record
LAURA B. BESHARA
DANIEL & BESHARA, P.C.
3301 Elm Street
Dallas, Texas 75226
(214) 939-9230
daniel.michael@att.net
Counsel of Record
for the Petitioner
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
APPENDIX
United States Court of Appeals for the Fifth Circuit, Opinion, April 9, 2019 .....................................1a
United States Court of Appeals for the Fifth Circuit, Judgment, April 9, 2019................................73a
United States District Court for the Northern
District of Texas, Memorandum Opinion and
Order, July 13, 2017 ..............................................75a
United States District Court for the Northern
District of Texas, Memorandum Opinion and
Order, August 16, 2017 .......................................108a
United States District Court for the Northern
District of Texas, Final Judgment, August 16,
2017 .....................................................................142a
United States Court of Appeals for the Fifth Circuit, Order Denying Petition for Rehearing,
July 16, 2019 .......................................................144a
Complaint, January 23, 2017 .................................161a

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
---------------------------------------------

No. 17-10943
---------------------------------------------

THE INCLUSIVE COMMUNITIES
PROJECT, INCORPORATED,
Plaintiff - Appellant
v.
LINCOLN PROPERTY COMPANY;
LEGACY MULTIFAMILY NORTH III, L.L.C.;
CPF PC RIVERWALK, L.L.C.; HLI WHITE
ROCK, L.L.C.; BRICK ROW APARTMENTS, L.L.C.,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
-----------------------------------------------------------------------

(Filed Apr. 9, 2019)
Before DAVIS, JONES, and ENGELHARDT, Circuit
Judges.
KURT D. ENGELHARDT, Circuit Judge:
With this appeal, we review the district court’s dismissal with prejudice, pursuant to Rule 12(b)(6) of the
Federal Rules of Civil Procedure, of Fair Housing Act
claims – including claims of “disparate treatment” and

2a
“disparate impact” – asserted against the owners and
management company of apartment complexes in the
greater Dallas, Texas area that decline to participate
in the federal “Section 8” Housing Choice Voucher Program. For the reasons stated herein, we affirm.
I.
The plaintiff, The Inclusive Communities Project
(“ICP”), “is a fair housing focused nonprofit organization
working with households seeking access to housing in
predominately non-minority locations in the Dallas
area.”1 In furtherance of its mission, ICP provides
“counseling, financial assistance, and other services to
Black or African American households participating in
the [federal] Section 8 Housing Choice Voucher (HCV
1

Paragraphs 7 and 13 of ICP’s complaint additionally state,
in pertinent part:
7. ICP is organized to work for the creation and
maintenance of thriving racially and economically inclusive communities, expansion of fair and affordable
housing opportunities for low-income families, and redress for policies and practices that perpetuate the
harmful effects of discrimination and segregation. ICP
operates to create and obtain affordable housing in nonminority concentrated areas within the Dallas metropolitan area for persons eligible for low income housing
including voucher households. This includes, among
other means, providing the counseling and other forms
of assistance to voucher households seeking to utilize
their housing choice voucher to move into those areas.
13. ICP’s mission is directly connected to the provision of racially integrated housing opportunities and
the elimination of racial segregation.

3a
or voucher) Program administered by the Dallas Housing Authority (DHA).” According to ICP, its voucher clients seek assistance in finding and obtaining “dwelling
units in safe and secure communities with higher median incomes, good schools, low poverty rates, and adequate public and private serve and facilities (high
opportunity areas).”
The financial assistance offered by ICP may include the payment of landlord incentives or bonus payments (to encourage leasing to voucher participant
households), application fees, and security deposits.
ICP also offers landlords in higher opportunity areas
the option of a contract with ICP as a guarantor for
voucher households or with ICP as the sub-lessor for
voucher households. ICP alleges that it proposed these
alternative contractual arrangements in response to
reasons stated by landlords and landlord associations
for refusing to negotiate with or rent to voucher households.
ICP identifies Defendants-Appellees Legacy Multifamily North III, LLC (“Legacy”), CPF PC Riverwalk,
L.L.C. (“Riverwalk”); HLI White Rock, L.L.C. (“White
Rock”); and Brick Row Apartments, L.L.C. (“Brick
Row”) (collectively, “Owners”) as owners of apartment
complexes in the “higher opportunity” or “high opportunity” areas identified by ICP. Defendant-Appellee
Lincoln Property Company (Lincoln) manages these
complexes in addition to managing or owning and

4a
operating numerous other properties in “the Dallas
metropolitan area.”2
ICP contends “its ability to assist its voucher clients in obtaining dwellings in high opportunity areas
is obstructed by Defendants’ discriminatory housing
practices.” ICP alleges that Lincoln has a general policy that it will not negotiate with, rent to, or otherwise
make units available in “White non-Hispanic areas”
to voucher households; moreover, Lincoln’s written advertisements state that housing vouchers, Section 8
vouchers, and any government-subsidized rent programs are not accepted. According to ICP, the only
apartment complexes for which Lincoln will negotiate
with and rent to voucher households are those in predominately minority locations. These apartment complexes include complexes required by law or contract
to not discriminate against voucher households based
on their status as voucher program participants.
Lincoln’s general “no vouchers” policy is applied
at approximately 43 apartment complexes, located in
2

In providing demographic statistics, ICP’s complaint and
the parties’ briefs reference a veritable smorgasbord of geographical areas, including the “Dallas-Plano-Irving Metropolitan Division,” “the Dallas metropolitan area,” the “Dallas metro area” the
“Dallas area,” the “Dallas area suburban cities” the Dallas Housing Market, the City of Dallas, the City of Richardson, “census
tracts,” “census tract block groups,” “neighborhoods,” and Defendant-Appellees’ apartment complexes. The complaint identifies the
“Dallas metropolitan area” as referring to Collin, Dallas, Denton
and Rockwall counties. Additionally, we understand a “metropolitan division” to be a United States Census Bureau term used to
refer to a county or group of counties that has a population core
of at least 2.5 million.

5a
majority white census tracts, that have at least some
units available at rents payable under the voucher program. These complexes include the units owned by
the Owners. ICP further contends that it has black
voucher clients who are otherwise eligible under Lincoln’s application criteria, and with whom ICP would
have entered into subleases, but for Lincoln’s policy
against voucher tenants.
ICP alleges that it has attempted, on several occasions, to negotiate with Lincoln on behalf of voucher
clients seeking rental units in properties that Lincoln
manages and/or owns in majority white areas. The
most recent requests, ICP reports, were letters that
ICP sent to Lincoln, in 2015 and 2016, asking that it
“reconsider” its policy of not accepting voucher families
as tenants at the aforementioned apartment complexes.3 According to ICP, neither Lincoln nor the Owners responded to ICP’s request to negotiate and rent
under the sublease/guarantor proposal. At least one
Defendant-Appellee notes, however, that ICP alleges
its transmittal of the letters but not their receipt. Nor
is it clear when the Owners, as opposed to Lincoln, the
manager, became aware of the letters and/or ICP’s requests to discuss the “no vouchers” policy.
ICP asserts that the “no vouchers” policy forces
voucher households in the Dallas metro area to seek
housing in areas where vouchers are accepted, which
3

ICP identifies McKinney Uptown Park, Park Central at
Flower Mound, Parkside at Legacy, White Rock Lake Apartment
Villas, and the Brick Row Urban Village as the Lincoln-managed
properties to whom it offered to negotiate for units.

6a
are “racially concentrated [predominately minority]
areas of high poverty that are marked by substantially
unequal conditions.” Further, ICP contends, Lincoln’s
refusal to negotiate with or rent to voucher holders disparately impacts black households in the Dallas area.
In short, ICP maintains that landlords who accept
vouchers are disproportionately located in minority areas of Dallas, and property management companies located in non-minority areas disproportionately refuse
vouchers. The waiting lists for the area voucher programs also are disproportionately black.
To support its disparate impact contentions, ICP
references the most recent United States Department
of Housing and Urban Development (HUD) “Picture
of Subsidized Housing” reporting a total of 30,745
voucher households in the Dallas-Irving-Plano Metropolitan Division. According to ICP, 90% of those households are minorities, with the total breakdown being
81% black, 6% Hispanic, and 10% white non-Hispanic
(white). Approximately 17,000 of the 30,745 voucher
households in the Dallas-Irving-Plano Metropolitan
Division participate in the program through the DHA,
which has a voucher population that is 86% black and
6% white. The voucher households in the City of Dallas
are 87% Black and 94% minority.
ICP likewise characterizes the voucher program
in the Dallas metro area as racially segregated into
predominantly minority census tracts. On average,
voucher households in the Dallas metro area are located
in 74% minority census tracts; voucher households in

7a
the City of Dallas are located in 88% minority and 33%
poverty census tracts.
ICP also alleges the following facts regarding individual apartment complexes that the DefendantsAppellees own or manage:
•

•

•

Park Central at Flower Mound Complex
○

No Black renters in the “small census
tract block group” containing this complex;

○

307 units in the complex; and

○

Zero voucher households in the census
tract containing this complex.

McKinney Uptown Complex
○

No Black renters in the “small census
tract block group” containing this complex;

○

144 units in the complex; and

○

No voucher households in the census
tract containing this complex.

Parkside at Legacy Complex
○

Black renters are 14% of the 630 renteroccupied units in the “small census tract
block group” containing this complex;

○

293 units in the complex; and

○

No voucher households in the census
tract containing this complex.

8a
•

•

White Rock Lake Apartment Villas
○

Black renters are 11% of the 1,022 renteroccupied units in the “small census tract
block group” containing this complex;

○

296 units in the complex; and

○

No voucher household in the census tract
containing this complex.

Brick Row Apartments, LLC
○

Black renters are 11% of the 532 renteroccupied units in the “small census tract
block group” containing this complex;

○

500 units in the complex;

○

45 voucher households in the census tract
containing this complex; and

○

Majority of the voucher households in the
census tract live in single family or semidetached structures.

Finally, ICP attaches city maps to its complaint showing that voucher households are concentrated in parts
of Dallas where minorities live, with few voucher households in the parts of Dallas where non-minorities live.
Alleging it received no responses from Lincoln or
the Owners to its latest letters, ICP filed a complaint
on January 23, 2017, seeking declaratory and injunctive relief from the district court. Specifically, ICP
seeks a declaration that Lincoln and the Owners have
violated 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982 by declining to participate in the federal “Section 8” Housing

9a
Choice Voucher Program. ICP also seeks a permanent
injunction compelling Lincoln and the Owners to accept Section 8 vouchers and requiring them to negotiate and contract with ICP under ICP’s sublease/
guarantor program.
In its complaint, ICP alleges a total of four claims.
Two claims – disparate impact and disparate treatment – are asserted against all Defendants-Appellees
(Lincoln and the Owners). Relative to disparate impact, ICP alleges that Defendants-Appellees’ policy of
declining to negotiate with or rent to voucher holders
disparately impacts black households as evidenced by
statistics establishing that more than 80% of the
voucher holders in the Dallas area are black.4 Relative
to disparate treatment, ICP alleges that DefendantsAppellees’ refusal to negotiate with or rent to ICP,
pursuant to ICP’s guarantor or sublease proposals,
constitutes disparate treatment based on race and
color, because ICP’s voucher clients are predominantly
black.
ICP also alleges two claims solely against Lincoln.
The first concerns Lincoln’s publication of its policy of
refusing to “negotiate with or rent to voucher households” by including the following statements in advertisements placed with apartment locator services:
Our community is not authorized to accept
housing vouchers.

4

See supra, page 897.

10a
Our community is not authorized to accept
Section 8 housing.
Our community is not authorized to accept
ANY government subsidized rent programs.
ICP maintain these advertisements “appeal to the
stereotype that because voucher holders are Black,
voucher tenants are undesirable as tenants . . . ” and,
thus, perpetuate racial stereotypes in violation of 42
U.S.C. § 3604(c).
The second claim against only Lincoln is for disparate treatment liability based on Lincoln’s alleged
refusal to negotiate with or rent to otherwise qualified
voucher households in predominately white areas
while, at the same time, negotiating with and renting
to voucher holders in predominately minority areas.
ICP argues Lincoln’s conduct violates the disparate
treatment standard of liability because the differing
policies regarding vouchers are based on the race and
color of the voucher holders.
In response to ICP’s claims, Lincoln and the Owners filed motions to dismiss, pursuant to Rule 12(b)(6)
of the Federal Rules of Civil Procedure, for failure to
state claims upon which relief can be granted. The district court granted the motions in two orders dated
July 13, 2017 (Brick Row’s motion) and August 16,
2017 (the remaining motions). The district court entered final judgment on August 16, 2017. This appeal
followed.

11a
II.
Appellate courts conduct a de novo review of a district court’s dismissal of a complaint under Federal
Rule of Civil Procedure 12(b)(6). See Clyce v. Butler,
876 F.3d 145, 148 (5th Cir. 2017). We may affirm the
district court’s dismissal on any basis supported by the
record. See, e.g., Torch Liquidating Tr. ex rel. Bridge
Assocs., L.L.C. v. Stockstill, 561 F.3d 377, 384 (5th Cir.
2009).
Rule 12(b)(6) authorizes the filing of motions to
dismiss asserting, as a defense, a plaintiff ’s “failure to
state a claim upon which relief can be granted.” See
Fed. R. Civ. P. 12(b)(6). Thus, claims may be dismissed
under Rule 12(b)(6) “on the basis of a dispositive issue
of law.” Neitzke v. Williams, 490 U.S. 319, 326 (1989).
Dismissal under Rule 12(b)(6) also is warranted if the
complaint does not contain sufficient factual matter,
accepted as true, to “state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). Where the well-pleaded facts of a complaint do not permit a court to infer more than the mere
possibility of misconduct, the complaint has alleged –
but it has not ‘show[n]’ – “that the pleader is entitled
to relief.” Iqbal, 556 U.S. at 678 (quoting Fed. Rule Civ.
P. 8(a)(2)). Thus, a complaint’s allegations “must make
relief plausible, not merely conceivable, when taken as
true.” United States ex rel. Grubbs v. Kanneganti, 565
F.3d 180, 186 (5th Cir. 2009); see also Twombly, 550 U.S.
at 555 (“Factual allegations must be enough to raise a
right to relief above the speculative level . . . on the

12a
assumption that all the allegations in the complaint
are true (even if doubtful in fact).”).
“The plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Id.
Factual allegations that are “merely consistent with a
defendant’s liability, stop short of the line between possibility and plausibility of entitlement to relief,” and
thus are inadequate. Id. (internal quotations omitted).
Accordingly, the requisite facial plausibility exists
“when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id.
(emphasis added). “Determining whether a complaint
states a plausible claim for relief ” is “a context-specific
task that requires the reviewing court to draw on its
judicial experience and common sense.” Iqbal, 556 U.S.
at 679 (internal citations omitted). See also Robbins v.
Oklahoma, 519 F.3d 1242, 1248 (10th Cir. 2008) (degree of required specificity depends on context, i.e., the
type of claim at issue).
In evaluating motions to dismiss filed under Rule
12(b)(6), the court “must accept all well-pleaded facts
as true, and . . . view them in the light most favorable
to the plaintiff.” Campbell v. Wells Fargo Bank, N.A.,
781 F.2d 440, 442 (5th. Cir.), cert. denied, 476 U.S. 1159
(1986). Further, “[a]ll questions of fact and any ambiguities in the controlling substantive law must be resolved in the plaintiff ’s favor.” Lewis v. Fresne, 252 F.3d
352, 357 (5th Cir. 2001). On the other hand, courts “are
not bound to accept as true a legal conclusion couched

13a
as a factual allegation.” Papasan v. Allain, 478 U.S. 265,
286 (1986); see also Iqbal, 556 U.S. at 678 (“tenet that
a court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions”). “Nor does a complaint suffice if it tenders
‘naked assertion[s]’ devoid of ‘further factual enhancement.’ ” Iqbal, 556 U.S. at 678 (quoting Twombly, 550
U.S. at 557); see also Christopher v. Harbury, 536 U.S.
403, 416 (2002) (elements of a plaintiff ’s claim(s) “must
be addressed by allegations in the complaint sufficient
to give fair notice to a defendant”).
In determining whether a plaintiff ’s claims survive a Rule 12(b)(6) motion to dismiss, the factual information to which the court addresses its inquiry is
limited to (1) the facts set forth in the complaint, (2) documents attached to the complaint, and (3) matters of
which judicial notice may be taken under Federal Rule
of Evidence 201. See Norris v. Hearst Trust, 500 F.3d
454, 461 n. 9 (5th Cir. 2007); R2 Invs. LDC v. Phillips,
401 F.3d 638, 640 n. 2 (5th Cir. 2005). When a defendant attaches documents to its motion that are referenced in the complaint and are central to the plaintiff ’s
claims, however, the court can also properly consider
those documents. Causey v. Sewell Cadillac-Chevrolet,
Inc., 394 F.3d 285, 288 (5th Cir. 2004); In re Katrina
Canal Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007).
“In so attaching, the defendant merely assists the plaintiff in establishing the basis of the suit, and the court
in making the elementary determination of whether a
claim has been stated.” Collins v. Morgan Stanley Dean
Witter, 224 F.3d 496, 499 (5th Cir. 2000).

14a
III.
The federal Housing Choice Voucher Program
pays rental subsidies to “aid[ ] low-income families in
obtaining a decent place to live” and to “promot[e] economically mixed housing.” 42 U.S.C. § 1437f(a). The
voucher program is funded by HUD and administered
by state and local public housing authorities (PHA’s)
in accordance with regulations promulgated by HUD.
When a rent payment exceeds a specified percentage
of a family’s monthly income, the federal program pays
the balance.
Landlord participation in the voucher program is
voluntary under both federal and Texas state law. See
42 U.S.C. § 1437f; 24 C.F.R. §§ 982.301(b)(11), 982.302(a),
982.307; TEX. LOCAL GOV’T CODE § 250.007(a); TEX.
GOV’T CODE. § 2306.269; Knapp v. Eagle Prop. Mgmt.
Corp., 54 F.3d 1272, 1280 (7th Cir. 1995) (“Owner participation in the section 8 program is voluntary and
non-participating owners routinely reject section 8
voucher holders.”); Salute v. Stratford Greens Garden
Apartments, 136 F.3d 293, 300 (2d Cir. 1998) (“We
think that the voluntariness provision of Section 8
reflects a congressional intent that the burdens of Section 8 participation are substantial enough that participation should not be forced on landlords, either as an
accommodation to handicap or otherwise.”).
Once admitted to the voucher program, program
participants are responsible for finding a landlord in
the private rental market willing to rent to them. 24
C.F.R. § 982.302(a). Landlords who participate in the

15a
program are responsible for screening prospective tenants and reject them if screening reveals red flags in
terms of paying rent and utility bills, caring for rental
housing, respecting neighbors, criminal activity, and
the like. Id. at § 982.307(a).
The Fair Housing Act (FHA), Title III of the Civil
Rights Act of 1968, 42 U.S.C. § 3601, et seq., prohibits
discrimination in the rental or sale of a dwelling based
on certain protected characteristics, including race. See
42 U.S.C. § 3604(a). That statute reflects “the policy
of the United States to provide within constitutional
limitations, for fair housing throughout the United
States.” 42 U.S.C. § 3604. Thus, the voluntary nature of
landlord participation in the voucher program does not
render it immune from liability if actionable discrimination under the FHA is established.
Pertinent here, § 3604(a) provides:
[I]t shall be unlawful to refuse to sell or
rent after the making of a bona fide offer, or to
refuse to negotiate for the sale or rental of, or
otherwise make unavailable or deny, a dwelling to any person because of race, color, religion, sex, familial status, or national origin.
42 U.S.C. § 3604(a). ICP’s advertisement liability claim
against Lincoln is governed by 42 U.S.C. § 3604(c),
which provides:
[I]t shall be unlawful to make, print, or
publish, or cause to be made, printed, or published any notice, statement or advertisements, with respect to the sale or rental of a

16a
dwelling that indicates any preference, limitation, or discrimination based on race, color,
religion, sex, handicap, familial status, or national origin, or an intention to make any such
preference, limitation, or discrimination.
A. Disparate Impact Liability
In Texas Department of Housing & Community Affairs v. Inclusive Communities Project, Inc., 135 S. Ct.
2507 (2015) (“ICP”), the Supreme Court, construing 42
U.S.C. §§ 3604(a) and 3605(a), determined that both
disparate treatment claims (claims asserting “discriminatory intent or motive”) and disparate impact claims
(“claims asserting an unjustified, disproportionally adverse effect on minorities”) are cognizable under the
FHA. ICP, 135 S. Ct. 2507, 2513, 2518.5 In recognizing the viability of disparate impact FHA claims,
the Supreme Court emphasized, inter alia, the inclusion of the “results-oriented” phrase – “or otherwise
make unavailable or deny” – in § 3604(a), reasoning that it “refers to the consequences of action rather
than the actor’s intent.” Id. at 2518, 2525. The Court
also found “[r]ecognition of disparate-impact claims [to
be] consistent with the FHA’s central purpose . . . [of ]
5

Section 3605(a) provides:
It shall be unlawful for any person or other entity
whose business includes engaging in real estate-related
transactions to discriminate against any person in making available such a transaction, or in the terms or conditions of such a transaction, because of race, color,
religion, sex, handicap, familial status, or national origin.
42 U.S.C. § 3605(a).

17a
eradicat[ing] discriminatory practices within a sector
of our Nation’s economy.” Id. at 2521.
1. FHA Disparate Impact Liability: ICP’s Test
To properly evaluate ICP’s claims, we must first
address, as a threshold matter, the applicable test for
determining disparate impact claims asserted under
the FHA. When ICP previously was before this court,
we adopted HUD’s burden-shifting approach for deciding disparate impact claims under the FHA. See 24
C.F.R. § 100.500; The Inclusive Communities Project,
Inc. v. Texas Dep’t of Hous. and Cmty. Affairs, 747 F.3d
275, 282 (5th Cir. 2014), aff ’d, 135 S. Ct. 2507 (2015).
Under the HUD regulation, a plaintiff must first prove
a prima facie case of discrimination by showing that
the challenged practice causes a discriminatory effect.
24 C.F.R. § 100.500(c)(1). If the plaintiff makes a prima
facie case, the defendant must then prove that the
challenged practice is necessary to achieve one or more
of the defendant’s substantial, legitimate, nondiscriminatory interests. Id. at § 100.500(c)(2). If the defendant meets its burden, the plaintiff must then show that
the defendant’s interests “could be served by another
practice that has a less discriminatory effect.” Id. at
§ 100.500(c)(3).
Although it affirmed our decision, the Supreme
Court never explicitly stated that it adopted the HUD
regulation’s framework. Because of this lack of clarity,
debate exists regarding whether, in ICP, the Supreme
Court adopted the regulation’s approach or modified it.

18a
The Fourth Circuit has noted that “[t]he HUD regulation is similar to the framework the Supreme Court ultimately adopted in [ICP], and indeed, some courts
believe the Supreme Court implicitly adopted the HUD
framework altogether.” Reyes v. Waples Mobile Home
Park Ltd. P’ship, 903 F.3d 415, 424 n.4 (4th Cir. 2018)
(citing Mhany Mgmt., Inc. v. Cty. of Nassau, 819 F.3d
581, 618 (2d Cir. 2016) (“The Supreme Court implicitly
adopted HUD’s approach. . . .”)). The Fourth Circuit
concluded, “[w]ithout deciding whether there are meaningful differences between the frameworks, . . . the
standard announced in [ICP], rather than the HUD
regulation[,] controls our inquiry.” Id.
We read the Supreme Court’s opinion in ICP to
undoubtedly announce a more demanding test than
that set forth in the HUD regulation. As noted by
a Minnesota district court: “the Supreme Court announced several ‘safeguards’ to incorporate into the
burden-shifting framework to ensure that disparate
impact liability does not ‘displace valid governmental
and private priorities.’ ” Crossroads Residents Organized for Stable & Secure Residencies v. MSP Crossroads Apartments LLC, No. 16-233, 2016 WL 3661146,
at *6 (D. Minn. 2016). “Those safeguards include a ‘robust causality requirement’ at the prima facie stage,
and, after the burden shifts to the defendant, ‘leeway
to state and explain the valid interest served by [the
defendant’s] policies.’ ” Id. (quoting ICP, 135 S. Ct. at
2522-23). In contrast, the HUD regulation contains
no “robust causation” requirement; rather it requires
only a showing that “a challenged practice caused

19a
or predictably will cause a discriminatory effect.” 24
C.F.R. § 100.500(c)(1).
A careful review of the Supreme Court’s analysis
in ICP, moreover, reveals its modification of HUD’s
test to be both purposeful and significant. Indeed, the
Court emphasizes:
[D]isparate-impact liability has always
been properly limited in key respects that
avoid the serious constitutional questions
that might arise under the FHA, for instance,
if such liability were imposed based solely on
a showing of a statistical disparity.
*

*

*

[A] disparate-impact claim that relies on
a statistical disparity must fail if the plaintiff
cannot point to a defendant’s policy or policies
causing that disparity. A robust causality requirement ensures that “[r]acial imbalance
. . . does not, without more, establish a prima
facie case of disparate impact” and thus protects defendants from being held liable for racial disparities they did not create. Wards
Cove Packing Co. v. Atonio, 490 U.S. 642, 653,
109 S.Ct. 2115, 104 L.Ed.2d 733 (1989), superseded by statute on other grounds, 42 U.S.C.
§ 2000e–2(k). Without adequate safeguards at
the prima facie stage, disparate-impact liability might cause race to be used and considered
in a pervasive way and would almost inexorably lead governmental or private entities to
use numerical quotas and serious constitutional questions then could arise.

20a
*

*

*

Courts must therefore examine with care
whether a plaintiff has made out a prima facie
case of disparate impact and prompt resolution of these cases is important. A plaintiff
who fails to allege facts at the pleading stage
or produce statistical evidence demonstrating
a causal connection cannot make out a prima
facie case of disparate impact.
ICP, 135 S. Ct. at 2522–23 (internal quotation marks
omitted) (emphasis added).
Other statements by the Court, regarding a defendant’s competing interests, dispel any remaining
doubt as to the limited nature of the disparate impact
claim that exists under the FHA. Indeed, citing HUD’s
then recent rulemaking, the Court emphasized that
disparate-impact liability “does not mandate that affordable housing be located in neighborhoods with any
particular characteristic.” ICP, 135 S. Ct. at 2523 (citing 78 Fed. Reg. 11476) (emphasis added). Likewise,
“[t]he FHA does not decree a particular vision of urban
development.” Id. (emphasis added). Rather, “entrepreneurs must be given latitude to consider market factors.” Id. The Court additionally cautions:
[A] plaintiff bringing a disparate-impact
claim challenges practices that have a “disproportionately adverse effect on minorities” and
are otherwise unjustified by a legitimate rationale. Ricci v. DeStefano, 557 U.S. 557, 577
(2009) (internal quotation marks omitted).
*

*

*

21a
An important and appropriate means of
ensuring that disparate-impact liability is
properly limited is to give housing authorities
and private developers leeway to state and
explain the valid interest served by their policies. Just as an employer may maintain a
workplace requirement that causes a disparate impact if that requirement is a reasonable
measurement of job performance, . . . so too
must housing authorities and private developers be allowed to maintain a policy if they
can prove it is necessary to achieve a valid interest.
*

*

*

Governmental or private policies are not
contrary to the disparate impact requirement,
unless they are “artificial, arbitrary and unnecessary barriers.” Difficult questions might
arise if disparate-impact liability under the
FHA caused race to be used and considered in
a pervasive and explicit manner to justify governmental or private actions that, in fact, tend
to perpetuate race-based considerations rather than move beyond them. Courts should
avoid interpreting disparate-impact liability
to be so expansive as to inject racial considerations into every housing decision.
Id. at 2513, 2522–24 (quoting Griggs v. Duke Power Co.,
401 U.S. 424, 431 (1971)).
Given the foregoing, we are convinced the Supreme Court’s language in ICP is stricter than the
regulation itself. Accordingly, as noted by the Fourth

22a
Circuit, we are bound to apply the stricter version of
the burden-shifting analysis. Reyes, 2018 WL 4344682,
at *5 n.4.6
2. Disparate Impact: Four Views of “Robust
Causation”
Although the Supreme Court’s opinion in ICP established “robust causation” as a key element of the
plaintiff ’s prima facie burden in a disparate impact
case, the Court did not clearly delineate its meaning or
requirements. Nor are we aware of any post-ICP Supreme Court or Fifth Circuit decisions clarifying the
standard. However, decisions from three other circuits
– the Fourth, Eighth and Eleventh – have considered
its application, yielding opinions reflecting varying
views of the prerequisites.
The first view is provided by Ellis v. City of Minneapolis, in which the Eighth Circuit construed ICP to
require that a plaintiff ’s allegations “point to an ‘artificial, arbitrary, and unnecessary’ policy causing the
problematic disparity,” in order to establish a prima facie disparate impact case. Ellis v. City of Minneapolis,
860 F.3d 1106, 1114 (8th Cir. 2017) (quoting ICP, 135
S. Ct. at 2524). In Ellis, the plaintiffs, low-income housing landlords, alleged that the city was targeting their
6

The Supreme Court’s modification of the HUD standard is
further evidenced by its omission of any discussion of deference,
pursuant to Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837 (1984), and its failure to explicitly adopt the HUD
regulation.

23a
properties with inspections, issuing citations for code
violations that did not exist, and threatening to revoke
their rental licenses. Id. at 1108–09. As a result, the
plaintiffs argued, the city’s actions displaced hundreds
of FHA-protected individuals from their homes. Id. at
1109. In denying the claim, the Eighth Circuit explained
that the plaintiffs’ complaint “must still allege facts
plausibly demonstrating that the housing-code standards complained of are arbitrary and unnecessary under the FHA.” Id. at 1112. The Ellis complaint fell
short, however, because it “suggest[ed] no more than
disagreement between the [plaintiffs] and the City on
the extent of deficiencies based on reasonable housingcode provisions.” Id. at 1113. Furthermore, “[t]o the extent their complaint mentions specific housing-code
provisions” it lacked “factually supported allegations
that those provisions are arbitrary or unnecessary to
health and safety.” Id. at 1112.
The second view is provided by the Fourth Circuit’s majority opinion in Reyes, in which “understanding [the] robust causality requirement [was] at the
crux of th[e] appeal.” Reyes, 903 F.3d at 425. In Reyes,
a mobile home park began enforcing a previously unenforced policy requiring all adult occupants to provide
documentation showing that they were legally present
in the United States in order to renew their leases, or
face eviction. Id. at 419–20, 428.7 The plaintiffs alleged
7

Prior to mid-2015, the requirement was enforced only
against the leaseholder. In mid-2015, the defendant began requiring all occupants over the age of eighteen to provide the necessary
documentation. Reyes, 903 F.3d at 419–20.

24a
that this policy disproportionately affected Latino families because Latinos comprised 64.6% of the undocumented immigrant population in Virginia and are “ten
times more likely than non-Latinos to be adversely affected by the Policy, as undocumented immigrants constitute 36.4% of the Latino population compared with
only 3.6% of the non-Latino population.” Id. at 428.
Noting “statistical disparities must be sufficiently
substantial that they raise [the necessary] inference of
causation,” the Fourth Circuit majority concluded the
plaintiffs had properly stated a prima facie disparate
impact case by alleging that the defendant’s first-time
enforcement of a previously unenforced policy (except
as to the leaseholder) “caused a disproportionate number of Latinos to face eviction from the Park compared
to the number of non-Latinos who faced eviction.” Id.
at 425, 428–29 (quoting Watson v. Fort Worth Bank &
Tr., 487 U.S. 977, 994–95 (1988)). The majority concluded the statistical evidence that the plaintiffs provided “satisfied the robust causality requirement”
when considered in the context of the newly enforced
policy.
The third construction of “robust causation” is provided by Judge Keenan’s dissenting opinion in Reyes.
In Judge Keenan’s view, the plaintiffs had not met this
requirement. Id. at *434–35. Rather, Judge Keenan
reasoned:
In my view, the plaintiffs have not adequately alleged that the defendants’ policy
caused the statistical disparity that they

25a
challenge. The plaintiffs rest their claim of
causality on statistics showing that Latinos
constitute the majority of undocumented aliens in the geographic area of the park, and
thus that Latinos are disproportionately impacted by a policy targeting undocumented
aliens. Despite this statistical imbalance,
however, all occupants of the park must comply with the policy addressing their immigration status, irrespective whether they are
Latino. Not all Latinos are impacted negatively by the policy, nor are Latino undocumented aliens impacted more harshly than
non-Latino undocumented aliens. Accordingly,
I would conclude that the defendants’ policy
disproportionately impacts Latinos not because they are Latino, but because Latinos
are the predominant sub-group of undocumented aliens in a specific geographical area.
Although Latinos constitute the majority
of the undocumented population in the park,
at different times and in different locales, the
disparate impact might have been on immigrant populations from many other parts of
the world. Such geographical happenstance
cannot give rise to liability against an entity
not responsible for the geographical distribution. Nor does linking disparate impact liability to the coincidental location of certain
undocumented aliens further the aim of the
FHA to avoid “perpetuating segregation.” Inclusive Cmtys., 135 S. Ct. at 2522. Thus, because
the defendants’ policy has not caused Latinos
to be the dominant group of undocumented

26a
aliens in the park, the policy has not “caused”
a disparate impact on Latinos.
Reyes, 903 F.3d at 434–35 (Keenan, J., dissenting) (emphasis added).
Thus, in the Reyes majority’s view, that the policy
impacted Latinos more than non-Latinos was enough
to show robust causation. In Judge Keenan’s dissenting view, however, robust causation was not satisfied by pre-existing conditions (Latinos status as the
predominant sub-group of undocumented aliens) not
brought about by the challenged policy.
The fourth view of robust causation is provided by
the Eleventh’s Circuit’s unpublished per curiam opinion in Oviedo Town Ctr, II, L.L.P. v. City of Oviedo, Florida, ___ Fed. Appx. ___, No. 17-14254, 2018 WL
6822693, *4 (Dec. 28, 2018), which describes ICP as
“promulgat[ing] detailed causation requirements as a
means of cabining disparate impact liability.” (Emphasis added.) Specifically, citing the Supreme Court’s
instruction to “avoid interpreting disparate impact liability to be so expansive to inject racial considerations
into every housing decisions,” the Eleventh Circuit
concluded: “The Supreme Court’s solution was to impose ‘[a] robust causality requirement ensur[ing] that
[r]acial imbalance . . . does not, without more, establish
a prima facie disparate impact.’ ” Id. (quoting ICP, 135
S. Ct. at 2523) (internal citations omitted). Otherwise,
“[i]f a disparate impact claim could be found on nothing more than a showing that a policy impacted more
members of a protected class that nonmembers of

27a
protected classes, disparate impact liability undeniably would overburden cities and developers.” Id. In
Oviedo, no prima facie case was established, the court
of appeals reasoned, because the submitted data “[did]
not establish a disparate impact let alone any causal
connection” with the policy at issue. Id. at *5.
3. FHA Disparate Impact Liability: Application
In the instant matter, the district court found ICP
had not adequately alleged facts demonstrating the necessary causation. Although acknowledging that ICP
had shown “a possible statistical imbalance with the
amount of voucher households in the census tract,” the
district court concluded that ICP had not provided
facts linking the “no vouchers” policy to the “possible
statistical disparity.” Further, the court found ICP’s
statistical information and arguments “conclusory rather than descriptive of how [the defendants’] policy
actually caused a disparate impact.”
The district court additionally determined that
“[e]ven if Plaintiff ICP met its burden to establish a
prima facie showing of disparate impact, Plaintiff ICP
does not establish a disparate impact claim” because of
the burden-shifting framework. Specifically, the district court identified business concerns referenced in
ICP’s complaint, such as increased costs, administrative delays, and other financial risks, as legitimate

28a
business reasons for not participating in the voucher
program.8
Proceeding to the third step of the burden-shifting
framework, the district court rejected the less discriminatory alternatives proposed by ICP, such as “the incentive payments, Sublease Program, and Third Party
Guarantor Program to alleviate Defendants’ anticipated business concerns.” The court reasoned: “ICP’s
proposals, while laudable, do not show how or if the
proposed programs have performed, or if Plaintiff ICP
can financially support the programs.” Thus, if ICP’s
programs were not successfully executed, Lincoln and
the Owners “could experience financial harm.”
Considering the instant record, we find no error in
the district court’s determination that the allegations
of ICP’s complaint regarding Lincoln’s and the Owners’
“no vouchers” policies fail to allege facts sufficient to
provide the robust causation necessary for an actionable disparate impact claim. Moreover, we find this
conclusion to be warranted under any of the analyses
of robust causation discussed above, i.e. that of the
Eighth Circuit in Ellis, the Fourth Circuit majority in
Reyes, Judge Keenan’s dissent in Reyes, or the Eleventh Circuit’s per curiam in Oviedo.
Focusing first on the Reyes majority, we note the
opinion arguably could be understood to support a
8

The district court also cited requirements of pertinent HUD
regulations, as well as federal and state statutes. See 24 C.F.R.
§§ 982.401, 982.405; 42 U.S.C. § 1437f; TEX. LOCAL GOV’T
CODE § 250.007.

29a
finding of robust causation any time that a defendant’s
policy impacts a protected class more than others. Nevertheless, absent a contrary ruling by the Fourth Circuit, we believe a narrower construction of the opinion
is warranted, given the stringent framework outlined
by the Supreme Court in ICP for evaluating disparate
impact claims. Thus, we find it significant that the
disproportionate impact upon Latinos that the Reyes
majority held satisfied robust causation was the consequence of a change in the defendant’s enforcement of
its policy that increased the number of Latinos facing
eviction from the park than before. And, as previously
stated, the Reyes dissent reasons that “geographical
happenstance cannot give rise to liability against an
entity not responsible for the geographical distribution.” 903 F.3d at 434. Thus, because the park’s policy
had not caused Latinos to be the dominant group of
undocumented aliens in the park, Judge Keenan, dissenting, found robust causation lacking in Reyes.
The logic of both the majority and dissenting
opinions in Reyes, as well as the Eleventh Circuit’s per
curiam in Oviedo, likewise applies here. Neither the
aforementioned “city-level data” nor the “census-level
data” cited by ICP supports an inference that the
implementation of Defendants-Appellees’ blanket “no
vouchers” policy, or any change therein, caused black
persons to be the dominant group of voucher holders in
the Dallas metro area (or any of the other census areas
discussed by ICP). Similarly, ICP alleges no facts
supporting a reasonable inference that DefendantsAppellees bear any responsibility for the geographic

30a
distribution of minorities throughout the Dallas area
prior to the implementation of the “no vouchers” policy.
Indeed, ICP pleads no facts showing Dallas’s racial
composition before the Defendants-Appellees implemented their “no vouchers” policy or how that composition has changed, if at all, since the policy was
implemented.
Thus, as the district court noted, none of these
factual allegations “show or infer that DefendantsAppellees’ policy diminished the amount of rental opportunities for African American or Black prospective
tenants previously available before Defendants’ policy
was implemented.” (Emphasis added.) Accordingly, it
is entirely speculative whether the “no vouchers” policy, as opposed to some other factor, not attributable
to Defendants-Appellees, caused there to be less minority habitation in individual census tracts after the
policy was implemented. Without that information,
any landlord who did not accept vouchers would be vulnerable to a disparate impact challenge any time a
less than statistically proportionate minority population lived in that landlord’s census tract.9 Because
9

As discussed in note 2, the parties’ submissions reference a
medley of geographical areas and rental markets in the Dallas
area. According to Brick Row, ICP “cherry-picked” its statistical
data by “mixing census data based on various sample sizes” from
differing locations to achieve the desired result. For purposes of
our discussion, we assume arguendo that ICP has identified relevant communities for comparison. Nevertheless, to the extent
that ICP’s complaint relies on “census tracts,” it is highly questionable whether such statistically pragmatic units have any relation to actual housing patterns. Census tracts are constructed
by the United States Census Bureau to accumulate population

31a
“disparate-impact liability has always been properly
limited,” see ICP, 135 S. Ct. at 2522, that cannot be the
correct result.
Finally, in the Eighth Circuit’s view, the “no vouchers” policy, even if causing a “problematic disparity,”
does not state an actionable FHA disparate treatment
claim unless the policy is “artificial, arbitrary, and unnecessary.” Ellis, 860 F.3d at 1112-1114. A private entity’s choice to opt out of participation in a government
program that is voluntary under both federal and
Texas law cannot be artificial, arbitrary, and unnecessary absent the existence of pertinent, contrary factual
allegations sufficiently rendering a plaintiff ’s claimed
entitlement to disparate impact relief plausible, rather
than merely conceivable or speculative. As we have explained, on the record before us, we find none.
The dissenting opinion objects to our treatment
of “robust causation,” contending that, in ICP, the Supreme Court simply “made clear that the plaintiff
must identify an offending policy in order to establish
a prima facie case” and, as evidenced by its citation to
Wards Cove, confirmed that standards for disparate
impact employment discrimination claims likewise apply to FHA disparate impact claims. We respectfully
disagree.

data, not necessarily to measure neighborhood or community cohesiveness or boundaries. Census tracts are not political subdivisions, nor do they comprise neighborhoods, communities, school
districts, gated subdivisions or any other potential boundary
markers useful in determining housing patterns.

32a
To the contrary, in ICP, the Supreme Court
stressed the need for both a policy attributable to the
defendant and the requisite causal connection, clarifying that a robust causality requirement “protects defendants from being held liable for racial disparities
they did not create.” ICP, 135 S. Ct. at 2523 (emphasis
added) (quoting Wards Cove, 490 U.S. at 653). Indeed,
the Court specifically stated: “If a statistical discrepancy is caused by factors other than the defendant’s policy, a plaintiff cannot establish a prima facie case, and
there is no liability.” ICP, 135 S. Ct. at 2514 (emphasis
added). The Supreme Court’s previous analysis in
Wards Cove, moreover, further supports this point:
[A plaintiff ] will also have to demonstrate that the disparity [at issue] is the result
of one or more of the employment practices
[under attack], specifically showing that each
challenged practice has a significantly disparate impact on employment opportunities for
whites and nonwhites. To hold otherwise
would result in [a defendant] being held liable
for the “myriad of innocent causes that may
lead to statistical imbalances in the composition of their work force.”
Wards Cove, 490 U.S. at 657 (quoting Watson v. Fort
Worth Bank & Trust, 487 U.S. 977, 992 (1988) (emphasis added)).
Lastly, the dissent looks to the Second Circuit’s
opinion in Huntington Branch, NAACP v. Town of Huntington, 844 F.2d 926 (2nd Cir. 1988), to support its contrary position regarding ICP’s disparate impact claim,

33a
essentially arguing that we and the district court overlooked ICP’s assertions of harm to the community by
perpetuation of segregation. Huntington Branch, however, is materially distinguishable. Importantly, like
the other decisions characterized by the Supreme Court
as “resid[ing] at the heartland of disparate-impact liability,” see ICP, 135 S. Ct. at 2522,10 Huntington Branch
addressed a public defendant’s prohibitory enforcement of a facially neutral zoning ordinance in such a
manner that restricted multi-family housing to a small
predominantly minority area of the city. Thus, the
Second Circuit simply employed the FHA to remove
indefensible government policies that operated to perpetuate segregation by unreasonably restricting private construction of multi-family housing that would
increase affordable housing options for minorities. Significantly, Huntington Branch did not impose affirmative housing obligations on private actors.11
10

The Court described these cases as involving “unlawful
practices includ[ing] zoning laws and other housing restrictions
that function unfairly to exclude minorities from certain neighborhoods without any sufficient justification.” ICP, 135 S. Ct. at
2521–22.
11
Although the Supreme Court affirmed the Second Circuit’s
judgment in Huntington, it did so “[w]ithout endorsing [its] precise analysis.” See Town of Huntington v. Huntington Branch,
NAACP, 488 U.S. 15 (1988). Notably, however, albeit in the context of addressing (and ultimately rejecting) the town’s defense,
rather than evaluating a plaintiff ’s prima facie case, the Second
Circuit itself distinguishes suits in which a plaintiff sues to compel a governmental defendant to build housing versus suits in
which a plaintiff merely seeks to eliminate some governmental obstacle to housing that the plaintiff would build. With the latter
type, the “[the government] defendant would normally have to

34a
To adopt the dissent’s position would effectively
mandate a landlord’s participation in the voucher program any time the racial makeup of multi-family
rental complex does not match the demographics of a
nearby metropolitan area. That result, however, would
be contrary to the cautionary standards that the Supreme Court has declared to be necessary both in evaluating a prima facie case and in ordering any remedial
action:
Were standards for proceeding with disparate-impact suits not to incorporate at least
the safeguards discussed here, then disparate-impact liability might displace valid governmental and private priorities, rather than
solely “remov[ing] . . . artificial, arbitrary, and
unnecessary barriers.” Griggs, 401 U.S., at
431, 91 S.Ct. 849. And that, in turn, would set
our Nation back in its quest to reduce the salience of race in our social and economic system.
*

*

*

Remedial orders in disparate-impact
cases should concentrate on the elimination of
the offending practice that “arbitrar[ily] . . .
operate[s] invidiously to discriminate on the
establish a somewhat more substantial justification for its adverse action” than it would be required if it were [merely] defending its decision not to build.” 844 F.2d at 936. Considered in the
context of this case, and having the benefit of the Supreme Court’s
interim decision in ICP, we think similar logic imposes a heavier
pleading burden on ICP’s efforts to require private defendants to
take similar affirmative action.

35a
basis of rac[e].” If additional measures are
adopted, courts should strive to design them
to eliminate racial disparities through raceneutral means. Remedial orders that impose
racial targets or quotas might raise more difficult constitutional questions.
ICP, 135 S. Ct. at 2524 (internal citations omitted). In
any event, if such a burdensome and extreme mandate
were to be attempted, it should be expressly legislated
by Congress, not this court. Accordingly, we affirm the
district court’s rejection of ICP’s disparate impact
claim–whether it is viewed as one alleging an adverse
impact on a particular minority group or, as discussed
in Huntington Branch, one asserting “harm to the community generally by the perpetuation of segregation.”
844 F.2d at 937.
B. Disparate Treatment Liability: Lincoln and
Owners
The district court concluded ICP’s disparate treatment claims asserted against all Defendants-Appellees
were essentially “mislabeled” disparate impact claims
that likewise should be dismissed. Specifically, the district court stated:
Defendants refuse[d] to rent to or negotiate with Section 8 voucher holders12 regardless

12

The district court issued two Memorandum Opinion and
Orders. The first deals only with Defendant Brick Row’s motion
to dismiss; the second addresses the claims asserted against the
other defendants. Because the district court’s analysis is nearly

36a
of race or color. There are no allegations made
against Defendants’ subjective application of
their policy to Section 8 voucher holders.
Plaintiff ICP’s issue is with the existence of
Defendants’ policy, which is indicative of disparate impact rather than disparate treatment.
Accordingly, having rejected ICP’s disparate impact
claims, the district court likewise dismissed ICP’s disparate treatment claims.
“Disparate treatment” is “deliberate discrimination.” Munoz v. Orr, 200 F.3d 291, 299 (5th Cir. 2000).
It refers to treating some people “less favorably than
others because of a protected trait.” Ricci v. DeStefano,
557 U.S. 557, 577 (2009) (internal citations omitted).
Such discrimination is shown by evidence of discriminatory action or by inferences from the fact of differences in treatment. L & F Homes & Dev., L.L.C. v. City
of Gulfport, Miss., 538 F. App’x 395, 401 (5th Cir. 2013)
(unpub.) (internal citations omitted). With discriminatory treatment claims, there can be no liability without
a finding that the protected trait (e.g., race) motivated
the challenged action. Greater New Orleans Fair Hous.
Action Ctr., Inc. v. Hotard, 275 F. Supp. 3d 776, 786
(E.D. La. 2017) (citing Simms v. First Gibraltar Bank,
83 F.3d 1546, 1556 (5th Cir. 1996) (evidence must create reasonable inference race was significant motivating factor); Woods-Drake v. Lundy, 667 F.2d 1198, 1202
(5th Cir. 1982) (“Plaintiff need only prove that race
identical regarding this issue in both opinions, the opinions are
referenced interchangeably.

37a
must have been a significant factor in defendant’s dealings)).
Although we find dismissal of the disparate treatment claims asserted collectively against DefendantsAppellees to have been warranted, the district court’s
finding that they were “mislabeled” was not, given
ICP’s contention that the true rationale for the facially
neutral “no vouchers” policies is the race of the voucher
tenants, not the means (vouchers) by which rent is
paid. As argued by the amicus curiae, the Lawyers’
Committee for Civil Rights Under Law, so long as the
requisite discriminatory intent is present, a seemingly
race-neutral policy can give rise to actionable disparate treatment. See, e.g., ICP, 135 S. Ct. at 2513, 2518
(distinguishing between the discriminatory intent or
motive required for disparate treatment liability and
the discriminatory effect or consequence required for a
disparate impact liability); Greater New Orleans Fair
Housing Action Center v. St. Bernard Parish, 641
F.Supp.2d 563 (E.D.La.2009) (parish council’s moratorium against construction of multi-family housing
gave rise to both disparate intent and impact FHA discrimination violations). Such is often the case in employment discrimination cases where the proffered
(neutral) rationale for an adverse employment action
allegedly is pretext for discrimination.
Further, that certain facts may be cited in support of both a disparate treatment and disparate impact claim does not automatically cause one claim to
supersede the other. Cf. Vill. of Arlington Heights v.
Metro. Hous. Dev. Corp., 429 U.S. 252, 265 (1977)

38a
(Disproportionate impact of facially neutral legislation
is not the “sole touchstone” of racially discriminatory
purpose but “is not irrelevant” and “may provide an important starting point”). In fact, in ICP, the Supreme
Court notes: “Recognition of disparate-impact liability
under the FHA also plays a role in uncovering discriminatory intent: It permits plaintiffs to counteract unconscious prejudices and disguised animus that escape
easy classification as disparate treatment.” 135 S. Ct.
at 2513.
In the absence of direct evidence, claims of disparate
treatment are evaluated utilizing the burden-shifting
evidentiary standard established for discrimination
cases based on circumstantial evidence. Petrello v.
Prucka, 484 Fed. Appx. 939, 942 (5th Cir. 2012) ((citing
Lindsay v. Yates, 498 F.3d 434, 438–39 (6th Cir. 2007)));
Mitchell v. Shane, 350 F.3d 39, 47 (2d Cir. 2003); Cox
v. Phase III, Invs. No. CIV.A. H-12-3500, 2013 WL
3110218, at *8 (S.D. Tex. June 14, 2013). Thus, to state
a claim for disparate treatment under § 3604(a), the
plaintiff must allege facts supporting a prima facie
case of (1) membership in protected class, (2) that the
plaintiff applied and was qualified to rent or purchase
housing; (3) that the plaintiff was rejected, and (4) that
the housing thereafter remained open to similarly situated applicants after the plaintiff was rejected. Petrello, 484 Fed. Appx. at 942; Graoch Assocs. #33, LP v.
Louisville/Jefferson Cty. Metro, 508 F.3d 366, 371 (6th
Cir. 1996). If a prima facie case is alleged, a defendant
may offer a legitimate, non-discriminatory reason for
the rejection. The burden then shifts back to the

39a
plaintiff to rebut the reason offered by the defendant
by showing it is a pretext for discrimination.
In this instance, the vague and conclusory allegations of disparate treatment that ICP asserts collectively
against Defendants-Appellees are legally insufficient
to support a reasonable inference of intentional race
discrimination. In short, ICP essentially asks the panel
to automatically view a “no voucher tenants” policy as
synonymous with a “no black tenants” policy without
providing adequate (well-pleaded) factual support for
that linkage (as opposed to conclusory statements and
assertions based on speculation, assumptions, and stereotypes). Defendants-Appellees’ presumed awareness
that the voucher population in the Dallas metro area
is disproportionately black cannot alone be enough.
The same is true of Defendants-Appellees’ alleged
failure to respond to ICP’s proposed financial incentive
(one month’s rent) and use of sublease and guarantor
provisions purportedly sometimes utilized under other
circumstances, e.g., students subsidized by parents,
first-time renters, and renters with low credit scores,
and corporations subleasing to employees. Such conclusory allegations are at most “merely consistent with
[ ] liability,” and lack the factual support necessary to
support a reasonable, rather than speculative, inference of intentional discrimination. For instance, ICP
includes no facts supporting the claimed general existence of an otherwise qualified pool of voucher recipient
applicants for Defendants-Appellees’ properties. Nor is
it plausible, based solely on ICP’s conclusory assertions,
that the proposed subleases and guarantees render ICP

40a
and its government voucher beneficiaries sufficiently similarly situated to business entities subleasing rental
units to their employees, and credit-worthy parents
serving as guarantors for students, such that DefendantsAppellees’ lack of response is indicative of intentional
race discrimination.
C. Disparate Treatment Liability: Lincoln
The disparate treatment asserted only against
Lincoln differs from that asserted collectively against
all Defendants-Appellees. Specifically, ICP contends
Lincoln’s alleged refusal to negotiate with or rent to
otherwise qualified voucher households in majority
white areas while, at the same time, negotiating with
and renting to voucher holders in majority minority areas, evidences intentional race discrimination for purposes of the disparate treatment standard of liability
under 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982.13
Although ICP’s complaint and briefs arguably intimate that Lincoln accepts vouchers at certain other
properties located in predominately minority areas
(as opposed to majority white areas), the pertinent allegations are insufficiently clear to provide the necessary certainty. Even after oral argument, it is unclear
whether Lincoln’s acceptance of vouchers is alleged to
occur at properties in minority areas other than those
13

Section 1982 provides “All citizens of the United States
shall have the same right, in every State and Territory, as is enjoyed by white citizens thereof to inherit, purchase, lease, sell,
hold, and convey real and personal property.” 42 U.S.C. § 1982.

41a
for which voucher acceptance is mandated by law (e.g.,
in exchange for low-income tax credits) or contract, and
thus is not the subject of Lincoln’s discretion. On such
a bare showing, we find no error in the district court’s
dismissal of the claim.
D. Advertising Liability: Lincoln
As its fourth claim under the FHA, ICP alleges
Lincoln’s advertisements violate 42 U.S.C. § 3604(c),
which “prohibits advertisements for rental dwellings
that show preference or discriminate based on race or
color.” 42 U.S.C. § 3604(c). Specifically, ICP contends
Lincoln’s statements of its “no vouchers” policy in the
advertisements “appeal to the stereotype that because
voucher tenants are Black, voucher tenants are undesirable as tenants and that the exclusion of voucher
households makes the complex a more desirable place
for White non-Hispanic tenants to live.” Additionally,
ICP contends “[t]he advertising injures ICP by perpetuating the stereotype that Black voucher households
are inferior and undesirable.” The advertisements
about which ICP complains include the following three
statements:
Our community is not authorized to accept
housing vouchers.
Our community is not authorized to accept
Section 8 housing.
Our community is not authorized to accept
ANY government subsidized rent programs.

42a
The district court rejected this claim, finding that
Lincoln’s advertisements “do not involve race or show
any sort of racial preference.” In making this determination, the district court concluded the advertisements
do not “suggest[ ] to an ‘ordinary reader’ that a particular race is preferred or not preferred,” and “[o]ne race
is not synonymous with the words ‘Section 8 housing’,
‘government subsidized rent program,’ or ‘housing
voucher.’ ” Citing Miami Valley Fair Housing Center,
Inc. v. Connor Group., 725 F.3d 571, 577 (6th Cir. 2013)
for the proposition that “ ‘[a]n ordinary reader’ is neither the most suspicious nor the most insensitive person in our society,” the district court concluded ICP had
failed to convince it that “an ordinary reader would automatically equate Section 8 housing with [black] applicants.”
On appeal, ICP emphasizes that Lincoln utilizes
these advertisements only in majority white census
tracts, and questions the necessity of using three different statements to state what ICP considers to be
the same single message, i.e. that vouchers are not accepted in the rental community. The advertisement,
however, contains no explicit reference to race; rather,
it simply states Lincoln’s policies regarding the acceptance of vouchers or other government rent subsidies. And, while an ordinary reader might think one
“no acceptance” statement is adequate, or question
whether all three statements are necessary, the supposition that that an ordinary reader would infer a
racial preference from them is entirely speculative
and unwarranted. Indeed, including all three explicit

43a
statements likely lessens confusion and streamlines
the rental process for prospective tenants and landlords. Furthermore, it is entirely logical that these advertisements would be utilized only where vouchers
are not accepted. Accordingly, on the record before us,
we likewise find no error in the district court’s dismissal of this claim.
IV.
Based on the foregoing, we find the district court
properly concluded that ICP’s allegations fail to state
claims upon which relief legally can be granted. Accordingly, the district court’s judgment of DISMISSAL
WITH PREJUDICE is AFFIRMED.

W. EUGENE DAVIS, Circuit Judge, concurring in part
and dissenting in part:
While I concur in the majority’s decision to affirm the dismissal of ICP’s disparate-treatment and discriminatory advertising claims, I strongly dissent from
the majority’s decision to affirm the dismissal of
ICP’s disparate-impact claim. The question presented
is whether ICP has alleged a plausible disparate-impact claim under the Fair Housing Act (“FHA”). Before
that question can be answered, the type of disparateimpact claim asserted must be identified. As ICP contends, and as explained below, there are two different
types of disparate-impact claims that may be asserted
under the FHA, requiring different elements for a prima

44a
facie case. The first type of disparate-impact claim is
like that recognized traditionally in the employment
discrimination context; i.e., the defendant’s faciallyneutral policy or practice has a disproportionately adverse effect on a protected group. The second type of
disparate-impact claim, not found in the employment
discrimination context, is that the defendant’s policy or
practice harms the community in general by perpetuating segregation.
ICP asserts both types of disparate-impact claims
in its complaint. In analyzing those claims under Rule
12(b)(6), however, the district court erred by failing to
distinguish these two claims, mixing up their prima
facie elements, and examining the alleged statistical
information under its distorted framework. The majority compounds the district court’s error by not only failing to differentiate the claims and their prima facie
elements, but also, in defining “robust causation,” creating new prima facie elements simply not found in
any controlling precedent. Moreover, the majority’s interpretation of “robust causation” threatens to eviscerate disparate-impact claims under the FHA altogether.
In my view, and for the following reasons, ICP has
set forth a plausible disparate-impact claim under the
FHA in this case. The district court’s decision dismissing the claim pursuant to Rule 12(b)(6) should be reversed, and ICP should be allowed to proceed.

45a
I.
ICP asserts that Defendants’ facially neutral “no
vouchers” policy excludes a disproportionately Black
population from housing at Defendants’ properties, in
violation of the FHA. As support for its disparate-impact claim, ICP alleged that the renter population in
the Dallas area is such that Defendants’ “no vouchers”
policy has a greater adverse impact on the Black renter
population than the White renter population. Specifically, ICP offered statistical information indicating
that the group of renter households that the policy excludes from Defendants’ apartment complexes (voucher
households in the Dallas area) is predominantly Black,
and the group of renter households that the policy does
not exclude (non-voucher households in the Dallas
area) is predominantly White. This statistical information, accepted as true at the Rule 12(b)(6) stage,1
makes plausible that, while neutral on its face, Defendants’ “no vouchers” policy operates to exclude more
Black renters from housing at Defendants’ properties
than White renters and, thus, has a discriminatory effect in violation of the FHA.
ICP also asserts that Defendants’ “no vouchers”
policy has the discriminatory effect of perpetuating racial segregation in the Dallas area by excluding predominantly Black voucher households from predominantly
1

See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)) (“To survive a
motion to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that is plausible
on its face.’ ”).

46a
White census tracts. However, because ICP’s traditional
disparate-impact claim is more straightforward, and
its segregative-effect claim is based on census-tract
data the majority finds problematic, the analysis that
follows is limited to ICP’s traditional disparate-impact
claim, which alone provides a basis for reversing the
district court’s Rule 12(b)(6) dismissal. The majority’s
decision today reflects a fundamental misunderstanding of disparate-impact liability under the FHA, rendering it unable to discern the significance of the
statistical data ICP alleged in support of its traditional
disparate-impact claim. Discussion of the development
of disparate-impact liability under Supreme Court jurisprudence, therefore, is in order. Moreover, analysis
of the Supreme Court’s precedents regarding disparate-impact liability is key to understanding what the
Supreme Court meant by “robust causation” in its decision in Texas Department of Housing & Community
Affairs v. Inclusive Communities Project, Inc., 135 S. Ct.
2507 (2015) (ICP), which governs this case.
II.
A. Overview of Disparate-Impact Liability
Under Supreme Court Jurisprudence.
“[A] plaintiff bringing a disparate-impact claim
challenges practices that have a ‘disproportionately adverse effect on minorities’ and are otherwise unjustified
by a legitimate rationale.” ICP, 135 S. Ct. at 2513 (citation omitted). In ICP, the Supreme Court determined,
as a matter of first impression, that disparate-impact

47a
claims are cognizable under the FHA. In doing so, the
Court relied on its prior precedents recognizing that
such claims could be asserted in the employment discrimination context.
1. Griggs v. Duke Power
As described in ICP, the Supreme Court first addressed disparate-impact liability in Griggs v. Duke
Power Co., 401 U.S. 424 (1971), where the plaintiffs asserted claims of racial discrimination in employment
under Title VII of the Civil Rights Act of 1964. See
ICP, 135 S. Ct. at 2516–20. In Griggs, the defendantemployer, a North Carolina power company, adopted a
policy requiring a high school education or the passing
of a standardized general intelligence test as a condition of employment in the company. 401 U.S. at 426–
28. However, the evidence showed that White people
“register[ed] far better on [these] requirements than”
Black people. Id. at 430 (citation omitted). In discussing the reasons why Whites fared better, the Supreme
Court noted: “In North Carolina, 1960 census statistics
show[ed] that, while 34% of [W]hite males had completed high school, only 12% of [Black] males had done
so.” Id. at 430 n.6. Moreover, with respect to the standardized tests required by the defendant-employer, the
Court noted evidence that “58% of [W]hites pass[ed]
the tests, as compared with only 6% of [B]lacks.” Id.
The plaintiffs in Griggs argued that “because the
two requirements operated to render ineligible a markedly disproportionate number of [Black people], they

48a
were unlawful under Title VII unless shown to be job
related.” Id. at 429. The Court agreed with the plaintiffs and determined that Title VII “proscribe[d] not
only overt discrimination but also practices that are
fair in form, but discriminatory in operation. The
touchstone is business necessity.” Id. at 431. Emphasizing that Title VII condemned discriminatory preference for any group, whether minority or majority, the
Court stated: “What is required by Congress is the removal of artificial, arbitrary, and unnecessary barriers
to employment when the barriers operate invidiously
to discriminate on the basis of racial or other impermissible classification.” Id. The Court held that “[i]f an
employment practice which operates to exclude [Black
people] cannot be shown to be related to job performance, the practice is prohibited.” Id. Because the
defendant-employer was unable to show that its requirements of a high school education and the passing
of standardized intelligence tests were related to job
performance, the Court held that the requirements
were unlawful under Title VII. Id. at 433–35.
2. Wards Cove v. Atonio
Approximately eighteen years after deciding Griggs,
the Supreme Court issued another important decision
regarding disparate-impact employment discrimination claims. In Wards Cove Packing Co. v. Atonio, 490
U.S. 642 (1989) (Wards Cove), the plaintiffs were employees of a company that operated salmon canneries
in Alaska. The plaintiffs sued their employer under
Title VII based on statistics showing that a high

49a
percentage of the skilled positions (noncannery jobs),
which garnered higher pay, were filled by predominantly White employees, while the unskilled positions
(cannery positions) with lower pay were filled by predominantly minority employees. Wards Cove, 490 U.S.
at 647. The plaintiffs alleged that a variety of the employer’s hiring and promotion practices, such as “nepotism, a rehiring preference, lack of objective hiring
criteria, separate hiring channels, and a practice of not
promoting within,” caused the racial stratification of
the work force. Id. at 647–48. The Ninth Circuit determined that the plaintiffs “had made out a prima facie
case of disparate impact . . . rel[ying] solely on respondents’ statistics showing a high percentage of [minority]
workers in the cannery jobs and a low percentage of
such workers in the noncannery positions.” Id. at 650
(footnote omitted).
The Supreme Court reversed. It held that the
Ninth Circuit’s ruling “misapprehend[ed] [the Court’s]
precedents and the purposes of Title VII.” Id. As the
Court explained, under the Ninth Circuit’s theory,
“simply because [minorities] comprised 52% of the cannery workers at the cannery in question, [plaintiffs]
would be successful in establishing a prima facie case
of racial discrimination under Title VII.” Id. at 652 (citation omitted). The Court further stated that the
Ninth Circuit’s “theory, at the very least, would mean
that any employer who had a segment of his work force
that was—for some reason—racially imbalanced could
be haled into court and forced to . . . defend[ ] the ‘business necessity’ of the methods used to select the other

50a
members of his work force.” Id. The Court noted that
such a theory would leave employers little choice but
to adopt racial quotas, which was “far from the intent
of Title VII.” Id. (citation omitted).
The Court then turned to “the question of causation in a disparate-impact case” and the “plaintiff ’s
burden in establishing a prima facie case.” Id. at 656.
The Court noted that, as stated in its prior cases, the
first step in establishing a prima facie case of disparate
impact is that the plaintiff must “identify[ ] the specific
employment practice that is challenged.” Id. at 655
(quoting Watson v. Fort Worth Bank & Trust, 487 U.S.
977, 994 (1988)). Second, the plaintiff “must demonstrate that it is the application of a specific or particular employment practice that has created the disparate
impact under attack.” Id. at 657. In proving such causation, “the plaintiff must offer statistical evidence of
a kind and degree sufficient to show that the practice
in question has caused the exclusion of applicants for
jobs or promotions because of their membership in a
protected group.” Watson, 487 U.S. at 994. The “statistical disparities must be sufficiently substantial that
they raise such an inference of causation.” Id. at 995.
As set forth above, Griggs and Wards Cove explained that disparate-impact claims under Title VII
involve challenges to facially neutral policies or practices that, in operation, have discriminatory effects on
minorities with respect to employment. The cases also
provided the standards for establishing a prima facie
case of disparate impact. Specifically, a plaintiff must
first identify the policy or practice being challenged,

51a
and next prove through statistical evidence that application of the policy or practice causes a disproportionate adverse effect on minorities with respect to
employment. As detailed below, the ICP Court relied
on these precedents in holding that the FHA encompasses disparate-impact claims and in indicating the
standards that should apply to such claims.
B. Development of Disparate-Impact Claims
under the FHA in the Courts of Appeals.
Although the Supreme Court had not held disparate-impact claims cognizable under the FHA prior to
its 2015 decision in ICP, all of the Courts of Appeals to
have addressed the question—including this court—
had concluded that the FHA encompassed such claims.
See ICP, 135 S. Ct. at 2519 (listing appellate court decisions). The Courts of Appeals determined that the
FHA encompassed not only disparate-impact claims of
the kind traditionally recognized in employment discrimination cases, but also “segregative-effect” claims.
As stated above, ICP asserts both types of claims in its
complaint herein. Understanding the difference between these claims and the type of statistical evidence
used to support them is key to determining whether
ICP has alleged a plausible disparate-impact claim under the FHA in this case.
One of the most significant appellate court cases,
described by the ICP Court as “resid[ing] at the heartland of disparate-impact liability [under the FHA],”
ICP, 135 S. Ct. at 2522, is the Second Circuit’s decision

52a
in Huntington Branch, NAACP v. Town of Huntington,
844 F.2d 926 (2d Cir. 1988). In that case, the plaintiffs
sued the Town of Huntington and members of its board
to challenge a zoning ordinance that restricted private
construction of multi-family housing to a small urban
renewal area that was 52% minority. Id. at 928. The
plaintiffs sought to construct an integrated, multifamily subsidized apartment complex in a part of the
town that was virtually all White. Id. When the town
refused to rezone the area where plaintiffs wished to
build the property, the plaintiffs sued under the FHA
to compel the town to amend its ordinance and rezone
the area to permit construction. Id.
In a matter of first impression, the Second Circuit
held that disparate-impact claims were cognizable under the FHA. The court stated: “[J]ust as the Supreme
Court held that Title VII is violated by a showing of
discriminatory effect, we hold that a [FHA] violation
can be established without proof of discriminatory
intent.” Id. at 935 (citing Griggs, 401 U.S. at 429–36).
Furthermore, the court determined that the FHA allowed for two types of discriminatory effect claims: (1)
“adverse impact on a particular minority group,” akin
to the disparate-impact claims traditionally recognized
in the employment discrimination context, and (2) “harm
to the community generally by perpetuation of segregation,” also known as “segregative-effect” claims. Id.
at 937 (citation omitted). The court stated that “recognizing this second form of effect advance[d] the principal purpose of [the FHA] to promote open, integrated
residential housing patterns.” Id. (citations omitted).

53a
The plaintiffs in Huntington Branch asserted both
types of claims under the FHA. As to their traditional
disparate-impact claim, the plaintiffs argued that the
town’s refusal to amend its restrictive zoning ordinance to permit construction of low-cost housing on the
desired site had a substantial adverse impact on minorities with respect to the availability of housing. Id.
at 938. In support of their claim, the plaintiffs submitted the following statistical information: (1) minorities
constituted a far greater percentage of the current occupants of subsidized rental projects compared to their
percentage in the town’s population; (2) 60% of Section
8 voucher holders consisted of minorities; (3) 61% of
those on the waiting list for Section 8 vouchers consisted of minorities; and (4) 7% of all Huntington families needed subsidized housing, while 24% of Black
families needed such housing. Id. Based on these statistics, the court concluded that the town’s failure to
amend its restrictive ordinance and rezone the land to
permit the construction of subsidized housing “had a
substantial adverse impact on minorities.” Id. (footnote
omitted).
As to their segregative-effect claim, the plaintiffs
asserted that allowing for construction of subsidized
housing, which had a goal of housing 25% minorities,
“would begin desegregating a neighborhood which
[was at that time] 98% [W]hite.” Id. at 937. Moreover,
by refusing to permit construction of the project outside the urban renewal area, which already had a high
concentration of minorities, the town “reinforced racial
segregation in housing.” Id. The evidence relating to

54a
the plaintiffs’ segregative-effect claim included the following census-tract data: (1) 43% of the total Black
population lived in four census tracts in one neighborhood; (2) 27% of the total black population lived in two
census tracts; (3) outside of those two neighborhoods,
the town’s population was overwhelmingly White; and
(4) of the forty-eight census tracts in the town, thirty
contained Black populations of less than 1%. Id. at 929.
Based on these statistics, the court determined the
plaintiffs proved that the town “significantly perpetuated segregation” by refusing to amend its ordinance
to permit construction of subsidized housing. Id. at
938.2
Thus, Huntington Branch established that the
FHA encompasses two types of discriminatory effect
claims: (1) claims alleging a disparate impact on minorities with respect to the availability of housing and
(2) claims alleging perpetuation of segregation. Huntington Branch also detailed the types of statistical
data that can be used to prove a prima facie case of
traditional disparate impact under the FHA and a
prima facie case of segregative effect under the FHA.
2

The Supreme Court, in a per curiam opinion, affirmed the
Second Circuit’s decision. Town of Huntington v. Huntington Branch,
NAACP, 488 U.S. 15 (1988). However, the Supreme Court did not
reach the question whether the “the disparate-impact test for
evaluating the zoning ordinance under [the FHA]” was appropriate because the appellants conceded the applicability of the test.
Id. at 18. “Without endorsing the precise analysis of the Court of
Appeals,” the Court was “satisfied on this record that disparate
impact was shown, and that the sole justification proffered to rebut the prima facie case was inadequate.” Id.

55a
Specifically, the data for a disparate-impact claim should
indicate that the group affected adversely by the challenged policy is predominantly comprised of minorities, while the group unaffected is predominantly
White. The data for a segregative-effect claim, which
may include census-tract data, should indicate the existing locations of the predominantly White and predominantly minority areas of the town or city and how
the policy or ordinance being challenged will continue
the existing segregation.
C. The Supreme Court’s Decision in ICP.
In ICP, the Supreme Court held that disparateimpact claims are cognizable under the FHA. The
Court determined that its prior precedents in the employment discrimination arena “instruct[ed] that antidiscrimination laws must be construed to encompass
disparate-impact claims when their text refers to the
consequences of actions and not just to the mindset of
actors, and where that interpretation is consistent with
statutory purpose.” ICP, 135 S. Ct. at 2518. The Court
determined that the FHA contained “results-oriented
language counsel[ing] in favor of recognizing disparateimpact liability.” Id. (citation omitted). It also concluded that such liability was “supported by amendments to the FHA that Congress enacted in 1988,”
which indicated that “Congress [had] accepted and ratified the unanimous holdings of the Courts of Appeals
finding disparate-impact liability [under the FHA].”
Id. at 2519.

56a
The Court additionally determined that disparateimpact claims are consistent with the FHA’s central
purpose, which like Title VII and the Age Discrimination in Employment Act, “was enacted to eradicate discriminatory practices within a sector of our Nation’s
economy.” Id. at 2521 (citations omitted). The Court explained that “[t]hese unlawful practices include zoning
laws and other housing restrictions that function unfairly to exclude minorities from certain neighborhoods
without any sufficient justification.” Id. at 2521–22.
The Court further stated that “[s]uits targeting such
practices reside at the heartland of disparate-impact
liability.” Id. at 2522 (citing, inter alia, Huntington, 488
U.S. at 16–18).
Although the Court held that disparate-impact
claims are cognizable under the FHA, it noted that
“disparate-impact liability has always been properly
limited.” Id. The Court explained, echoing the principles set forth in Griggs and Wards Cove, that such liability is not “imposed based solely on a showing of a
statistical disparity” and that it “mandates the ‘removal of artificial, arbitrary, and unnecessary barriers.’ ” Id. (quoting Griggs, 401 U.S. at 431). In a nod to
the appellate court decisions recognizing segregativeeffect claims, the Court noted that the FHA aims to ensure that the priorities of housing authorities, private
developers, and landlords “can be achieved without arbitrarily creating discriminatory effects or perpetuating segregation.” Id.
Furthermore, the Court emphasized that the plaintiff asserting a disparate-impact claim under the FHA

57a
must be able, as part of the prima facie case, to “point
to a defendant’s policy or policies causing” the disparity alleged. Id. at 2523. Citing Wards Cove, the Court
described this causality requirement as “robust” and
explained that such a requirement “protect[ed] defendants from being held liable for racial disparities they
did not create.” Id. (citing Wards Cove, 490 U.S. at 653).
The Court stated that such “safeguards at the prima
facie stage” were needed to prevent governmental or
private entities from believing numerical quotas were
required, which could raise “serious constitutional issues.” Id. (citations omitted).
Turning to the specific allegations of the complaint
in that case, however, the Court noted that ICP’s disparate-impact claim was based on a “novel theory of
liability.” Id. at 2522 (citing Stacey E. Seicshnaydre,
Is Disparate Impact Having Any Impact? An Appellate
Analysis of Forty Years of Disparate Impact Claims
Under the Fair Housing Act, 63 AM. U. L. REV. 357,
360–63 (2013)). Specifically, ICP alleged that the Texas
Department of Housing and Community Affairs (“Department”) “caused continued segregated housing patterns by its disproportionate allocation of [low-income
housing] tax credits.” Id. at 2514. ICP contended that
the Department “grant[ed] too many credits for housing in predominantly [B]lack inner-city areas and too
few in predominantly [W]hite suburban neighborhoods.” Id.
In support of its assertions, ICP submitted statistical evidence showing the location of low-income

58a
housing throughout the city of Dallas.3 Id. However,
much like the plaintiffs in Wards Cove, ICP did not
identify a specific Department policy or practice causing the segregated housing patterns. Foretelling the
district court’s ultimate decision on remand, the Court
noted that ICP’s claim “on remand, may be seen simply
as an attempt to second-guess which of two reasonable
approaches a housing authority should follow in the
sound exercise of its discretion in allocating tax credits
for low-income housing.” ICP, 135 S. Ct. at 2522.
On remand, the district court determined, as predicted by the Supreme Court, that ICP had failed to
identify a specific, facially neutral policy that caused
the disparity in the location of low-income housing. See
Inclusive Cmtys. Project, Inc. v. Tex. Dep’t of Hous. &
Cmty. Affairs, No. 3:08-CV-0546-D, 2016 WL 4494322,
*6 (N.D. Tex. Aug. 26, 2016). Instead, ICP relied simply
on the “cumulative effects” of the Department’s decision-making process over a multi-year period. Id. The
district court held that ICP could not rely on this generalized policy of discretion to prove disparate impact
under the FHA and determined that ICP, consequently,
3

ICP submitted statistical evidence showing that from 1999
to 2008, the Department approved tax credits for 49.7% of proposed non-elderly units in 0% to 9.9% White areas, but only approved 37.4% of proposed non-elderly units in 90% to 100% White
areas. In addition, ICP analyzed data produced by defendants in
discovery that indicated that 92.29% of low-income housing tax
credit units in Dallas were located in census tracts with less than
50% White residents. Inclusive Cmtys. Project, Inc. v. Texas Dep’t
of Hous. & Cmty. Affairs, 749 F. Supp. 2d 486, 499 (N.D. Tex.
2010).

59a
failed to prove a prima facie case of disparate impact
under the FHA. Id. at *7–8.
III.
Unlike its disparate-impact claim in ICP, in the
instant matter, ICP clearly challenges a policy—Defendants’ policy of not renting to voucher holders—and
asserts that this policy causes a disparate impact on
Black persons with respect to housing. Specifically, ICP
contends that Defendants’ policy causes the exclusion
of the predominantly Black voucher population in the
Dallas area from Defendants’ apartment complexes,
while the disproportionately White population without
vouchers is not excluded by the policy.
ICP alleges that the voucher population in the
Dallas area, the group affected by Defendants’ policy,
is over 80% Black and 10% or less White. The nonvoucher population in the Dallas area, the group unaffected by Defendants’ policy, is alleged to be 19% Black
and 53% White. Therefore, ICP contends that when Defendants apply their “no vouchers” policy, the Black
renter population is disproportionately and adversely
affected in violation of the FHA. The statistical information alleged by ICP is similar to the evidence offered
by the plaintiffs in Huntington Branch, which evidence
indicated, inter alia, that 60% of the Section 8 voucher
holders consisted of minorities. In this matter, the percentage is alleged to be even higher—over 80% of the
voucher holders are Black.

60a
Moreover, district court cases addressing similar
challenges to landlords’ “no vouchers” policies with similar statistical evidence have determined that such claims
demonstrate a disproportionate impact on Black persons in violation of the FHA. See, e.g., Nat’l Fair Hous.
All. v. Travelers Indem. Co., 261 F. Supp. 3d 20 (D.D.C.
2017) (holding that plaintiffs showed “robust causation”
under ICP in disparate-impact challenge to insurance
company’s policy of refusing to provide habitational insurance policies to landlords who rent to Section 8 tenants, where voucher population was 92% Black and
81.5% women); Bronson v. Crestwood Lake Section 1
Holding Corp., 724 F. Supp. 148, 154 (S.D.N.Y. 1989)
(finding that disparate impact of landlord’s “no Section
8” policy on minority persons in comparison to White
applicants was “not surprising,” given that 82.6% of
Section 8 voucher holders in the City of Yonkers were
minority persons).4

4

ICP has not alleged all of the data necessary to calculate
the exact statistical disparity, as was done in Bronson, resulting
from the defendants’ “no vouchers” policy. See 724 F. Supp. at 154
(noting, based on affidavit of expert, that “the odds of being excluded from [defendant’s apartment complex] on the basis of the
Section 8 policy [was] over 25 times greater for minority persons
than for non-minorities”). However, the district court in Bronson
was deciding the merits of the plaintiffs’ motion for preliminary
injunction after having conducted a hearing. See 724 F. Supp. at
152. ICP’s complaint contains enough factual allegations to make
its disparate-impact claim plausible and to permit an inference
that ICP will ultimately be able to show the exact disparity resulting from the Defendants’ policy through statistical analysis of
additional data. See Twombly, 127 S. Ct. at 1965 (stating that
plausibility standard “calls for enough fact to raise a reasonable

61a
Here, as ICP contends, the alleged causal connection between Defendants’ policy and the resulting disparate impact on the Black renter population is direct
and robust.5 Specifically, Defendants’ “no vouchers”
policy causes the total exclusion of voucher households
from Defendants’ apartment complexes. Taking ICP’s
statistical information as true under Rule 12, because
the voucher households in the Dallas area are disproportionately Black and the non-voucher households
are disproportionately White, ICP’s claim that application of Defendants’ “no vouchers” policy results in a
prohibited discriminatory effect under the FHA is
plausible.
IV.
In determining that ICP failed to state a disparateimpact claim, the district court did not distinguish ICP’s
traditional disparate-impact claim from its segregativeeffect claim. Furthermore, the district court mixed
up the prima facie elements of the different claims and
expectation that discovery will reveal evidence” supporting the
plaintiff ’s claim).
5
Professor Robert G. Schwemm, author of the treatise “Housing Discrimination Law and Litigation,” has even described the
causal connection between application of a “no Section 8” policy
and the resulting discriminatory effect on minorities as “obvious.”
See Robert G. Schwemm, Proving Disparate Impact in Fair Housing Cases After Inclusive Communities, 19 N.Y.U. J. LEGIS. &
PUB. POL’Y 685, 695 (2016) (noting that “causation is obvious
when a landlord denies a unit to the plaintiff based on its policy
of refusing to rent to tenants who, say, use government vouchers”).

62a
examined the alleged statistical information under
its distorted framework. For example, the district court
imposed the burden on ICP to show that the challenged policy caused the segregation existing in the
census-tract data. However, as detailed above, a segregative-effect claim does not require the plaintiff to
prove that the challenged policy caused the initial segregation, but that the policy will perpetuate it. Moreover, the district court also imposed the burden on ICP
to show that Defendants’ “no vouchers” policy “diminished the amount of rental opportunities for African
American or Black prospective tenants previously available before Defendants’ policy was implemented.” The
prima facie elements of a traditional disparate-impact
claim under the FHA do not require ICP to prove a “before-and-after” effect of the policy.
The majority, however, somehow affirms the district court through its strained reading of what the
Supreme Court meant by “robust causation” in ICP.
Tellingly, in its quest to find the meaning of ICP’s “robust causation” requirement, the majority does not
delve into the actual ICP decision, which provides the
answer. As discussed above, the Supreme Court’s discussion of “robust causation” was prompted by ICP’s
failure in that case to identify a policy or practice causing the alleged disparate impact on minorities. See
ICP, 135 S. Ct. at 2523. The Court’s discussion made
clear that the plaintiff first must identify an offending
policy in order to establish a prima facie case in an
FHA disparate-impact claim.

63a
If there were any doubt as to what the Supreme
Court meant by “robust causation,” its citation to
Wards Cove clarified that the Supreme Court was indicating that the standards it had previously set forth
for disparate-impact claims in the employment discrimination context should be applied equally to the
newly-recognized disparate-impact claims under the
FHA. See id. In fact, in Reyes v. Waples Mobile Home
Park Ltd. Partnership, upon which the majority relies,
the Fourth Circuit similarly recognized that the Supreme Court in “Inclusive Communities cited to Wards
Cove in explaining the robust causality requirement.”
903 F.3d 415, 426 n.6 (4th Cir. 2018). The Supreme
Court made no indication that, by describing the causation needed for a disparate-impact claim as “robust,”
it was ushering in a new requirement for disparateimpact claims under the FHA not required for disparate-impact claims in the employment discrimination
context.
The majority, instead, interprets “robust causation” to require the plaintiff in a disparate-impact
claim under the FHA to establish that the challenged
policy was previously unenforced or that the challenged policy caused a “pre-existing condition.” There
is no precedent requiring such elements as part of the
plaintiff ’s prima facie case in either type of disparateimpact claim under the FHA. The majority’s belief that
“robust causation” requires a previously unenforced
policy is based on its admitted “narrower construction”
of the Fourth Circuit’s decision in Reyes, which decision
nowhere mentions such a requirement as part of the

64a
plaintiff ’s prima facie case.6 See 903 F.3d at 415–33.
Moreover, the Reyes decision supports ICP’s traditional
disparate-impact claim here. The Fourth Circuit determined that the plaintiffs “satisfied the robust causality
requirement” by offering statistical evidence that the
challenged policy “was likely to cause Latino tenants
at [defendant’s property] to be disproportionately subject to eviction compared to non-Latinos at [defendant’s property].” Id. at 429. In this matter, ICP has
offered statistical information making plausible that
Defendants’ “no vouchers” policy excludes more Black
renters from housing at Defendants’ properties than
White renters.
The majority’s application of a “pre-existing condition” requirement is taken from the dissenting opinion
in Reyes. The majority applies this requirement to
ICP’s segregative-effect claim. See ante at p. 23. In
doing so, like the district court, the majority fails to
recognize that a segregative-effect claim requires a
plaintiff to show existing patterns of segregation and
that the challenged policy will perpetuate that segregation. Such a claim does not require that the policy
caused the initial segregation. See Huntington Branch,
844 F.2d at 938. The majority goes even further and
applies the same flawed reasoning to ICP’s traditional
6

Furthermore, the majority does not explain why enforcement of a previously unenforced policy is different from enforcement of a new policy in establishing the first element of the
plaintiff ’s prima facie case, which is to identify a specific, facially
neutral policy that, when applied, causes a disproportionate adverse effect on minorities. See ICP, 135 S. Ct. at 2523; Wards
Cove, 490 U.S. at 655–57.

65a
disparate-impact claim—the majority imposes the
burden on ICP to show that Defendants’ “blanket ‘no
vouchers’ policy, or any change therein, caused black
persons to be the dominant group of voucher holders in
the Dallas area.” See ante at p. 23. Imposing the burden
on ICP to make such a showing is akin to requiring the
plaintiffs in Griggs to show that their employer’s policy
caused Black persons not to have a high school education. Such a requirement turns disparate-impact liability on its head because it would compel the plaintiff
to establish that the offending policy not only had a
disparate impact on a protected group, but that somehow the policy also created the characteristics making
the protected group susceptible to the disparate impact.
Furthermore, the fact that the Section 8 program
is a voluntary government program does not foreclose
a finding that Defendants’ “no vouchers” policy is an
“artificial, arbitrary, and unnecessary” barrier to housing under the FHA.7 Contrary to the majority’s suggestion, the Eighth Circuit’s decision in Ellis v. City of
Minneapolis, 860 F.3d 1106 (8th Cir. 2017), does not
7

Moreover, it is arguable that the Supreme Court’s decision
in ICP implicitly overruled the appellate court cases mentioned
by the majority that allowed for a “voluntariness” defense to disparate-impact claims challenging “no vouchers” policies. See Maia
Hutt, This House Is Not Your Home: Litigating Landlord Rejections of Housing Choice Vouchers Under the Fair Housing Act, 51
COLUM. J.L. & SOC. PROBS. 391, 416–17 (2018) (noting that after
ICP, “Knapp and Salute’s conclusion that the disparate impact
burden-shifting framework is selectively applicable and linked to
the concept of ‘voluntariness’ is no longer good law”).

66a
support dismissal of ICP’s disparate-impact claim on
this basis. In Ellis, the plaintiffs alleged that the City’s
heightened enforcement of its housing code at for-profit,
low-income rental housing had a disparate impact on
the availability of housing for individuals protected
by the FHA. 860 F.3d at 1107. However, the plaintiffs
“mount[ed] no serious challenge to the housing code itself.” Id. at 1112. Additionally, the plaintiffs alleged
that the City had “adopted a policy to discourage rental
housing and effected such a policy through deliberate
or negligent misapplication of the housing code.” Id.
But, the plaintiffs did “not plead[ ] sufficient facts to
plausibly support the existence of such a policy.” Id.
at 1114. In contrast, in this matter, the existence of
Defendants’ “no vouchers” policy is undisputed—in
fact, as described above, the policy is advertised. Furthermore, ICP specifically alleges in its complaint that
Defendants’ policy is an “artificial, arbitrary, and unnecessary barrier” to housing that does not achieve any
legitimate interest. ICP contends that although landlord trade associations and other landlords have asserted various interests or concerns upon which their
refusal to negotiate with or rent to voucher holders is
allegedly based, those interests or concerns do not require the “no vouchers” policy. In sum, the inadequacies of the plaintiffs’ alleged disparate-impact claim in
Ellis are not present in this matter.
The Eleventh Circuit’s unpublished, per curiam
opinion in Oviedo Town Center II, L.L.L.P. v. City of
Oviedo, Florida ___ F. App’x ___, No. 17-14254, 2018
WL 6822693 (11th Cir. Dec. 28, 2018) (Oviedo), similarly

67a
involved inadequacies in an alleged disparate-impact
claim. However, the legal principles discussed in Oviedo
actually support ICP’s disparate-impact claim. In that
case, several real estate developers alleged that rate
increases in water and sewage services adopted by the
City of Oviedo caused a disparate impact on minorities,
in violation of the FHA. Id. at at *1. The district court
dismissed the claim on summary judgment; the Eleventh Circuit affirmed, determining that the appellants
“failed to establish a prima facie case of disparate impact under the [FHA].” Id. The court noted the Supreme Court’s decision in ICP, and stated that even
before the ICP decision, it “had arrived at similar conclusions . . . about the need for a relevant statistical
showing in order to support a disparate-impact claim
under the FHA.” Id. at *4 (citing Schwarz v. City of
Treasure Island, 544 F.3d 1201 (11th Cir. 2008)).
Specifically, the Eleventh Circuit had previously
held in Schwarz that “in order to show disparate impact, the plaintiff must provide evidence comparing
members of the protected class affected by the [policy]
with non-members affected by the [policy].” Id. (citing
Schwarz, 544 F.3d at 1217). The court explained: “If the
percentage of members of the protected class . . . affected was higher than the percentage of nonmembers
impacted, this disproportionality could form the basis
for a prima facie case of disparate impact.” Id. However, in Schwarz, the plaintiff presented “no comparative data at all,” and consequently the plaintiff failed
to establish a prima facie case. Id. (citing Schwarz,
544 F.3d at 1217-18). The court determined that the

68a
plaintiffs’ claim in Oviedo was similarly deficient. The
only statistical data submitted by the plaintiffs showed
that more racial minorities lived in the plaintiffs’ lowincome housing complex than lived in the rest of the
City of Oviedo. Id. at *5. The court determined that
such information “[did] not establish a disparate impact, let alone any causal connection between the [policy] and the disparate impact.” Id. The court further
stated that relying on such inadequate statistical data
“to make a prima facie showing” was “precisely the circumstances the [Supreme] Court sought to avoid in Inclusive Communities.”8 Id.
In this case, the statistical data submitted by ICP
would satisfy the standards set forth by the Eleventh
Circuit in Oviedo and Schwarz. Specifically, ICP included comparative data regarding the makeup of
voucher households in the Dallas area (the group
which is excluded by Defendants’ “no vouchers” policy)
versus non-voucher households (the group unaffected
by the policy) in the Dallas area. As explained above,
this statistical information makes plausible that Defendants’ “no vouchers” policy operates to exclude more
Black renters from housing at Defendants’ properties
8

The Eleventh Circuit’s jurisprudence would require dismissal of ICP’s complaint if the only statistical data ICP submitted
was that found on pages five and six of the majority opinion,
which information shows that Defendants’ apartment complexes
are occupied by zero to 14% Black renters. ICP, however, submitted much more statistical information specifically addressing how
Defendants’ “no vouchers” policy operates to exclude more Black
renters than White renters from housing at Defendants’ properties.

69a
than White renters. Under the Eleventh Circuit’s jurisprudence, this disproportionality forms the basis for
a prima facie case of disparate impact. Thus, in actuality, Oviedo shows that the majority’s analysis of ICP’s
claim is misguided.
Finally, the majority submits that the relief ICP
seeks—elimination of Defendants’ “no vouchers” policy—would impose a “burdensome and extreme mandate” on Defendants that only Congress could grant
through express legislation. However, Congress has
had the opportunity to exempt landlords from disparate-impact liability under the FHA for discriminating
against potential tenants based on their status as
voucher holders, but Congress has not done so. As described in ICP, the FHA contains some exemptions
from disparate-impact liability. 135 S. Ct. at 2520–21.
For instance, the FHA does not prohibit discrimination
against a person “because such person has been convicted by any court of competent jurisdiction of the illegal manufacture or distribution of a controlled
substance.” See 42 U.S.C. § 3607(b)(4). And a landlord
may impose reasonable restrictions regarding the
maximum number of occupants permitted to occupy a
dwelling. See id. § 3607(b)(1). A landlord’s refusal to
negotiate or rent to a tenant based on his or her status
as a voucher holder, however, is not listed as an exemption. Therefore, under ICP, if such a policy results in a
disparate impact on a protected group, then the policy
may be subject to challenge under the FHA.9 The
9

This does not mean that ICP is automatically entitled to
the relief it seeks. What it does mean, however, is that ICP’s

70a
majority cannot carve out this exemption on Congress’
behalf.
*

*

*

Despite ICP’s clear allegations that, based on statistical evidence, Black persons are disproportionately
and adversely impacted by Defendants’ “no vouchers”
policy, the majority says the complaint fails to state a
claim. This conclusion is based on the majority’s view
of the pleading and proof necessary to establish “robust
causation” between Defendants’ policy and the effect of
that policy.
To sum up, the majority offers two primary reasons for its position. First, based on the dissent in the
Fourth Circuit’s Reyes opinion, the majority concludes
that robust causation is not alleged because ICP failed
to state that Defendants were responsible for the fact
that Black renters in Dallas hold a disproportionate
number of vouchers for low-income housing. Since obtaining a voucher requires a showing of limited financial resources, presumably the majority would require
ICP to show why a disproportionate number of Black
renters in Dallas had more limited financial resources
than White renters and that defendants were responsible for this fact. The majority states: “Neither the
aforementioned ‘city-level data’ nor the ‘census-level
data’ cited by ICP supports an inference that the implementation of Defendants-Appellees’ blanket ‘no
vouchers’ policy, or any change therein, caused black
complaint cannot be dismissed under 12(b)(6) solely because it
challenges a “no vouchers” policy.

71a
persons to be the dominant group of voucher holders in
the Dallas metro area (or any of the other census areas
discussed by ICP).”
To require such proof for a plaintiff to establish
causation would render disparate-impact liability under the FHA a dead letter. This was certainly not the
model of a disparate-impact case adopted by the Supreme Court in Griggs under Title VII. The Court in
that case held that the employer’s policy of requiring
an applicant for employment to have a high school education and to pass a standardized general intelligence
test had an adverse impact on Black applicants. The
Court did not require proof that the employer was responsible for the disproportionately lower educational
levels and test scores for Blacks as compared to
Whites.
Second, the majority contends that ICP is required
to show that Defendants’ “no vouchers” policy was “previously unenforced” or “newly enforced.” In doing so,
the majority misconstrues the carefully reasoned
Reyes opinion. The Fourth Circuit in Reyes held that
the plaintiffs stated a claim for disparate impact under
the FHA when they alleged that the landlord’s policy
requiring all adult occupants to provide documentation evidencing legal status in the United States in order to renew their leases had an adverse impact on
Latinos. This policy was challenged after the landlord
began enforcing it not only against the leaseholder,
but also against all occupants over the age of eighteen.
The majority contends that the fact that this was a
“change” in enforcement of a policy distinguishes it

72a
from today’s case, where the challenged policy had
always been enforced. No explanation is given why
the consequences of a changed discriminatory policy
should be viewed differently from a discriminatory policy implemented from the outset. Enforcement of a policy is always required in a disparate-impact claim; if a
policy is not enforced, it has no impact.
For these reasons, I respectfully dissent.

73a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
---------------------------------------------

No. 17-10943
---------------------------------------------

D.C. Docket No. 3:17-CV-206
THE INCLUSIVE COMMUNITIES
PROJECT, INCORPORATED,
Plaintiff - Appellant
v.
LINCOLN PROPERTY COMPANY;
LEGACY MULTIFAMILY NORTH III, L.L.C.;
CPF PC RIVERWALK, L.L.C.; HLI WHITE
ROCK, L.L.C.; BRICK ROW APARTMENTS, L.L.C.,
Defendants - Appellees
Appeal from the United States District Court
for the Northern District of Texas
Before DAVIS, JONES, and ENGELHARDT, Circuit
Judges.
JUDGMENT
(Filed Apr. 9, 2019)
This cause was considered on the record on appeal
and was argued by counsel.

74a
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that plaintiff-appellant pay to defendants-appellees the costs on appeal to
be taxed by the Clerk of this Court.
W. EUGENE DAVIS, Circuit Judge, concurring in part
and dissenting in part.

75a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
THE INCLUSIVE
COMMUNITIES
PROJECT, INC.,
Plaintiff,
v.
LINCOLN PROPERTY
COMPANY, et. al.,
Defendants.

§
§
§
§
§
§
§
§
§

Civil Action No.
3:17-CV-206-K

MEMORANDUM OPINION AND ORDER
(Filed Jul. 13, 2017)
Before the Court are Defendant Brick Row Apartments LLC’s Motion to Take Judicial Notice of Certain
Data Produced by the U.S. Census Bureau (Doc. No.
14), and Defendant Brick Row Apartments LLC’s Rule
12(b)(6) Motion to Dismiss (Doc. No. 15). Plaintiff The
Inclusive Communities Project, Inc. (“ICP”) brought
this lawsuit against Defendant Brick Row Apartments
LLC (“Brick Row”) and other Defendants – Defendant
Lincoln Property Company, Defendant Legacy Multifamily North III, LLC, Defendant CPF PC Riverwalk
LLC, and Defendant HLI White Rock LLC – alleging
that Defendants’ practice of refusing to rent to or negotiate with Section 8 housing voucher holders constitute violations of the disparate impact and disparate
treatment standard under the Fair Housing Act, 42

76a
U.S.C. 3601, et. seq. Defendant Brick Row contends
that this Court should dismiss Plaintiff ICP’s Complaint as to Defendant Brick Row.
After careful consideration of the motions, the response to Defendant Brick Row’s motion to dismiss, the
reply to Plaintiff ICP’s response to Defendant Brick
Row’s motion to dismiss, the supporting appendices,
and the applicable law, the Court GRANTS (1) Defendant Brick Row Apartments LLC’s Motion to Take
Judicial Notice of Certain Data Produced by the U.S.
Census Bureau, and (2) Defendant Brick Row Apartments LLC’s Rule 12(b)(6) Motion to Dismiss. Plaintiff
ICP’s disparate impact and disparate treatment claims
against Defendant Brick Row are dismissed. Plaintiff
ICP’s Complaint is dismissed as to Defendant Brick
Row.
I.

Factual Background

This case is about Defendant Brick Row’s and the
other Defendants’ practice of refusing to participate in
the federal Housing Choice Voucher Program, commonly known as the “Section 8” housing voucher program. This practice of refusing to rent to or negotiate
with Section 8 housing voucher holders is alleged to be
implemented by Defendants in high opportunity, predominantly White, non-minority areas of the Dallas,
Texas metropolitan area. Defendant Lincoln Property
Company manages all of the Defendants’ rental properties, including Defendant Brick Row’s apartment complex in Richardson, Texas, Brick Row Urban Village.

77a
Plaintiff ICP asserts in its Complaint (Doc. No. 1) Defendants’ practice of refusing to rent to or negotiate
with Section 8 housing voucher holders is discriminatory since African American or Black families are the
predominant participants in the Section 8 housing
voucher program.
a. Plaintiff ICP and the Section 8 Housing
Voucher Program
Plaintiff ICP is a nonprofit organization that seeks
to create and maintain racially and economically inclusive communities. Plaintiff ICP pursues expansion of
fair and affordable housing for low income families and
attempts to remedy harmful practices that perpetuate
discrimination and segregation in the community. As
part of Plaintiff ICP’s fair housing focused initiative,
Plaintiff ICP provides counseling, financial assistance,
and other services for low income families. Plaintiff
ICP helps low income families obtain housing in higher
opportunity areas that have lower poverty rates, higher
median family incomes, and higher ranking public
schools.
One of the main tools that Plaintiff ICP helps its
client use to achieve housing equality is the federal
Section 8 housing voucher program. Plaintiff ICP’s
Section 8 housing voucher clients are predominantly
African American or Black families. The Section 8 housing voucher program is a subsidy provided to landlords
who are willing to rent dwelling units to low income
households. The Section 8 housing voucher program is

78a
the largest national rent assistance program for low
income households. The subsidy from the program
given to the landlords pays the difference between the
rental amount and the amount that the voucher household is required to pay under the Section 8 housing
voucher program, which ranges between 30% and 40%
of the household’s income. Landlord participation in
the Section 8 housing voucher program is voluntary rather than mandatory.
Predominantly African American or Black families obtain and use Section 8 housing vouchers. The
Dallas Housing Authority administers the largest number of Section 8 housing vouchers of any agency in the
Dallas, Texas metropolitan area. Out of the 17,000 plus
vouchers Dallas Housing Authority issues, 86% of the
voucher holders are alleged to be African American or
Black families, and 6% are non-minority families. According to the U.S. Housing & Urban Development
Department (“HUD”) 2015 statistics, of the 30,745 Section 8 housing voucher population served by all of the
housing authorities in the Dallas-Plano-Irving TX
Metropolitan Division, African American or Black families are alleged to make up 81% of the voucher population, Hispanic families are alleged to make up 6% of
the voucher population, and White non-Hispanic families are alleged to make up 10% of the voucher population. According to the U.S. Office of Management and
Budget, the city of Richardson, Texas, where Brick Row
Urban Village is located, is included in the DallasPlano-Irving TX Metropolitan Division.

79a
Plaintiff ICP advises, counsels, and seeks to provide financial assistance to African American or Black
families that participate in the Section 8 housing
voucher program administered by the Dallas Housing
Authority. For example, Plaintiff ICP provides mobility
assistance to all Section 8 voucher households that
want to move to higher opportunity communities in
the Dallas area. Mobility assistance involves Plaintiff
ICP negotiating with landlords on behalf of its Section
8 voucher clients, if necessary.
Plaintiff ICP also provides financial assistance to
its Section 8 housing voucher clients. Plaintiff ICP offers incentive payments, to serve as a sublessor, or to
serve as a third party guarantor to encourage landlords to participate in the Section 8 housing voucher
program. The incentive payments Plaintiff ICP offers
to landlords are for the purpose of alleviating possible
business concerns that landlords might have when
renting to Section 8 housing voucher households.
Plaintiff ICP sent letters to Defendant Lincoln Property Company attempting to encourage Defendant
Lincoln Property Company to accept Section 8 housing
vouchers for properties it manages – Parkside at Legacy, Park Central at Flower Mound, White Rock Lake
Apartment Villas, McKinney Uptown, and Brick Row
Urban Village (owned by Defendant Brick Row). In the
letters to Defendant Lincoln Property Company, Plaintiff ICP proposed participation in Plaintiff ICP’s Third
Party Guarantor Program or Sublease Program.

80a
b. The Brick Row Urban Village Apartment
Complex and Its Section 8 Policy
Defendant Brick Row owns the Brick Row Urban
Village apartment complex in Richardson, Texas. Tenants began to be occupy Brick Row Urban Village in
April 2010. Defendant Brick Row’s apartment complex
is located in one of eight census tracts in the 75081 zip
code. Brick Row Urban Village has 500 rental units.
Plaintiff ICP alleges that black renters entail 11% of
the 532 rental dwelling units in the census tract where
the Brick Row Urban Village apartment complex is
located. In the census tract where Brick Row Urban
Village is located, there are 45 voucher households
available according to the HUD 2015 statistics. The
majority of Section 8 voucher households in the census
tract where Brick Row Urban Village is located are alleged to be in single family or semi-detached structures, and not in apartment complexes. In the 75081
zip code, which has eight different census tracts, there
are 301 Section 8 housing voucher households available, according to the HUD 2015 statistics. In the city of
Richardson, Texas there are 376 Section 8 housing
voucher households available, according to HUD 2015
statistics. The HUD user dataset, provided by Defendant Brick Row in the appendix to its motion to dismiss
(Doc. No. 17), which Plaintiff ICP does not object to the
Court considering (Doc. No. 21), conveys the usage and
availability of subsidized housing in the city of Richardson. The HUD dataset reflects that as of April, 17,
2017, 376 Section 8 housing units were available in the
city of Richardson and that 90 percent of the available

81a
Section 8 voucher households in the city of Richardson
were occupied. The HUD dataset also reflects that 68
percent of voucher holders in the city of Richardson are
Black or African American households.
Defendant Lincoln Property Company manages
the Brick Row Urban Village apartment complex for
Defendant Brick Row. Defendant Lincoln Property Company is the property manager for all of the Defendants
that are parties to this lawsuit. The Defendants’ properties, which are alleged to be in high opportunity, predominantly White non-minority, areas, are alleged to
have adopted and implemented the practice of their
property manager Defendant Lincoln Property Company of refusing to participate in the Section 8 housing
voucher program. Plaintiff ICP alleges that Defendant
Lincoln Property Company states in its advertisements in a variety of ways that its communities, including Brick Row Urban Village, will not accept
Section 8 housing vouchers. The advertisements by Defendant Lincoln Property Company state that
•

Our community is not authorized to accept
housing vouchers;

•

Our community is not authorized to accept
Section 8 housing;

•

Our community is not authorized to accept
any government subsidized rent programs;

•

No 2nd chance leasing, and no vouchers accepted.

82a
In March 2016, Defendant Lincoln Property Company’s President and Chief Executive Officer received
a letter regarding the Brick Row Urban Village apartment complex from Plaintiff ICP encouraging Defendant Lincoln Property Company to reconsider its
position of not accepting Section 8 housing vouchers.
Plaintiff ICP noted in the letter that it “is a local nonprofit entity that works with families using a housing
voucher to rent housing in high opportunity areas of
the Dallas Metroplex.” The letter also described how
Plaintiff ICP offers incentive payments to encourage
landlords to rent to its Section 8 voucher clients, and
Plaintiff ICP’s Third Party Guarantor Program and
Sublease Program.
For the Third Party Guarantor Program that
Plaintiff ICP offered, Plaintiff ICP proposed to serve as
the third-party guarantor for its Section 8 voucher clients using the standard Texas Apartment Association
Lease Contract Guaranty Form. Plaintiff ICP represented that it would be willing to add provisions to the
Lease Contract Guaranty form to cover any losses due
to possible housing authority delays in processing the
Section 8 housing voucher of the voucher household.
An incentive payment of one month’s rent for each Section 8 housing voucher tenant selected to be a tenant
at Brick Row Urban Village was also offered to Defendant Brick Row if it participated in the Third Party
Guarantor Program.
Plaintiff ICP alternatively offered a Sublease Program to try to entice Defendant Brick Row to rent to
its Section 8 voucher clients. Plaintiff ICP began the

83a
proposal by stating that the President of the Apartment Association of Greater Dallas endorses the merit
of the Sublease Program and has offered to work with
Plaintiff ICP. Defendant Brick Row would still ultimately make the decision of whether to rent to the Section 8 housing voucher tenant. The responsibility of
finding and proposing qualified Section 8 voucher tenants to Defendant Brick Row would fall solely on Plaintiff ICP. For the Sublease Program, Plaintiff ICP would
lease three to five units in the Brick Row Urban Village
apartment complex. As a sublessor, similar to the role
of a corporate entity, Plaintiff ICP would pay the
agreed lease amount in a timely manner, respond to all
tenant issues, and, if necessary, evict the respective
Section 8 housing voucher tenants. If the Section 8
Voucher Program tenant, or the housing authority responsible for the subsidy to the landlord was late or
delinquent on the rent payment, Plaintiff ICP offered
to cover the unpaid portion of the payment under the
lease contract. Plaintiff ICP also offered a financial incentive of one month’s contract rent for each unit that
Defendant Brick Row would agree to lease to a Section
8 Housing Voucher tenant.
Defendant Brick Row contends that it did not
know of the contents contained in this letter or receive
any communications from Plaintiff ICP until the filing
of this lawsuit in January 2017. In its motion to dismiss, Defendant Brick Row states that, “Brick Row
never received any communications from ICP prior to
January 23, 2017 when the lawsuit was filed.” Defendant Brick Row’s agent, Defendant Lincoln Property

84a
Company, however, received the letter regarding the
Brick Row Urban Village apartment complex from
Plaintiff ICP. Neither Defendant Lincoln Property
Company nor Defendant Brick Row responded to
Plaintiff ICP’s March 2016 letter proposing the Third
Party Guarantor Program and Sublease Program.
c. Plaintiff ICP’s Discrimination Claims
Against Defendant Brick Row
Because of the policy implemented at Brick Row
Urban Village of refusing to negotiate with or rent
to Section 8 housing voucher holders, Plaintiff ICP
brought this lawsuit in January 2017 against Defendant Brick Row and other Defendants alleging violations of the disparate treatment and disparate impact
standard. Under federal law and Texas law, landlords
have the right to participate in or not to participate in
the Section 8 housing voucher program. See 42 U.S.C.
§ 1437f(o)(6)(B); TEX. LOCAL GOV’T CODE § 250.007; see
also Austin Apartment Ass’n v. City of Austin, 89
F. Supp. 3d 886, 890 (W.D. Tex. 2015) (“Federal law
does not require landlords to accept housing vouchers,
and landlords who do accept vouchers are not required
to approve tenants merely because they are voucher
holders”); Salute v. Stratford Greens Garden Apartments, 136 F.3d 293, 300 (2d Cir. 1998) (“We think that
the voluntariness provision of Section 8 reflects a congressional intent that the burdens of Section 8 participation are substantial enough that participation should
not be forced on landlords”). The optional nature of the
Section 8 housing voucher program, however, does not

85a
automatically make a landlord immune from violating
the Fair Housing Act. See Graoch Assocs. #33, L.P.
v. Louisville/Jefferson Cty. Metro Human Relations
Comm’n, 508 F.3d 366, 377 (6th Cir. 2007) (“The mere
fact that a landlord often can withdraw from Section 8
without violating the terms of Section 8 or [sic] the
FHA does not mean that withdrawal from Section 8
never can constitute a violation of the FHA.”) (emphasis in original).
Plaintiff ICP asserts that Defendant Brick Row’s
policy achieves no legitimate interests and violates the
disparate impact standard under the Fair Housing
Act, 42 U.S.C. § 3604(a). In Plaintiff ICP’s Complaint,
Plaintiff ICP alleges that Defendant Brick Row’s policy
causes a disproportionate harm to African American or
Black households because the vast majority of Section
8 housing voucher families are African American or
Black. The allegations of Plaintiff ICP point to a limited amount of places where Section 8 vouchers are accepted in the census tract where Brick Row Urban
Village is located as proof of the adverse impact that
Defendant Brick Row’s policy has on African American
or Black families. In Plaintiff ’s Response Brief (Doc.
No. 22) to Defendant Brick Row’s Motion to Dismiss
(Doc. No. 15), Plaintiff ICP states that “[t]he policy perpetuates racial segregation in the neighborhood.”
Plaintiff ICP asserts that Defendant Brick Row’s
failure to accept and respond to Plaintiff ICP’s proposal of the Third Party Guarantor Program and Sublease Program insures the merit of Plaintiff ICP’s
disparate impact claim. Plaintiff ICP states that both

86a
the Third Party Guarantor Program and Sublease Program constitute less discriminatory alternatives that
Defendant Brick Row could have considered to rent to
Section 8 voucher holders. The rejection of these proposed less discriminatory alternatives, Plaintiff ICP
contends, serves as proof of Defendant Brick Row’s violation of the disparate impact standard.
In Plaintiff ICP’s Complaint, Plaintiff ICP also
claims that Defendant Brick Row’s refusal to negotiate
with or rent to Plaintiff ICP constitutes disparate
treatment under 42 U.S.C. § 3604(a) and 42 U.S.C.
§ 1982. Plaintiff ICP alleges that Defendant Lincoln
Property Company’s policy, implemented by Defendant
Brick Row, is because of race or color of Plaintiff ICP’s
voucher clients rather than being related to legitimate
business concerns of Defendant Brick Row.
Plaintiff ICP also claims that Defendant Lincoln
Property Company’s advertisements that state Defendant Lincoln Property Company’s refusal to negotiate with or rent to Section 8 families are racially
discriminatory and violate 42 U.S.C. § 3604(c). Section
3604(c) of the Fair Housing Act prohibits advertisements for rental dwellings that show preference or discriminate based on “race, color, religion, sex, handicap,
familial status, or national origin.” Plaintiff ICP alleges that Defendant Lincoln Property Company violated 42 U.S.C. § 3604(c) of the Fair Housing Act
because Defendant Lincoln Property Company caused
the following advertisements to be made that showed
hostility to Section 8 voucher holders that state:

87a
•

Our community is not authorized to accept
housing vouchers;

•

Our community is not authorized to accept
Section 8 housing;

•

Our community is not authorized to accept
any government subsidized rent programs;
and

•

No 2nd chance leasing, and no vouchers accepted.

Plaintiff ICP also brings a disparate treatment
claim under 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982
against Defendant Lincoln Property Company. Plaintiff ICP alleges this second disparate treatment claim
solely against Defendant Lincoln Property Company.
Plaintiff ICP contends that Defendant Lincoln Property Company’s policy of refusing to rent to or negotiate with Section 8 voucher holders is because of the
race or color of the Section 8 voucher holders, which
would violate the disparate treatment standard under
the Fair Housing Act.
Defendant Brick Row’s motion to dismiss moved to
dismiss two of the four claims against alleged in Plaintiff ICP’s Complaint which include: (1) the refusal to
negotiate with or rent to voucher households under the
disparate impact standard of 42 U.S.C. § 3604(a), and
(2) the refusal to negotiate with or rent to Plaintiff ICP
under the disparate treatment standard of 42 U.S.C.
§ 3604(a) and 42 U.S.C. § 1982. The two claims that Defendant Brick Row moved to dismiss are the two claims
against Defendant Brick Row in this lawsuit.

88a
The Court GRANTS Defendant Brick Row’s motion to dismiss and dismisses Plaintiff ICP’s Complaint
as to Defendant Brick Row only. Defendant Brick
Row’s motion to dismiss only pertains to the Complaint
being dismissed for the two claims against Defendant
Brick Row. Plaintiff ICP’s disparate impact claims
against the other Defendants, disparate treatment
claims against the other Defendants, and claim that
Defendant Lincoln Property Company violated 42
U.S.C. § 3604(c) of the Fair Housing Act alleged in
Plaintiff ICP’s Complaint still remain.
II.

Legal Standard for a Rule 12(b)(6) Motion to
Dismiss

A complaint should be dismissed under Rule
12(b)(6) only where it appears that the facts alleged
fail to state a “plausible” claim for relief. Bell Atlantic
v. Twombly, 127 S. Ct. 1955, 1964–65 (2007); FED. R.
CIV. P. 12(b)(6). The plaintiff need only give the defendant fair notice of the plaintiff ’s claim and the grounds
upon which it rests. See Erickson v. Pardus, 127 S. Ct.
2197, 2200 (2007) (citing Twombly, 127 S. Ct. 1955);
FED. R. CIV. P. 8(a). In ruling on a motion to dismiss,
the Court must accept the facts alleged in the complaint as true and construe them in the light most favorable to the plaintiff. See Ferrer v. Chevron Corp., 484
F.3d 776, 780 (5th Cir. 2007).
A claim is plausible where the plaintiff alleges factual content that “allows the court to draw the reasonable inference that the defendant is liable for the

89a
misconduct alleged.” Ashcroft v. Iqbal, 129 S. Ct. 1937,
1940 (2009). A plaintiff is not required to provide “detailed factual allegations” to survive dismissal, but the
“obligation to provide the ‘grounds’ of his ‘entitle[ment]
to relief ’ requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of
action will not do.” Twombly, 127 S. Ct. at 1964–65. The
plausibility standard requires that a plaintiff allege
sufficient facts “to raise a reasonable expectation that
discovery will reveal evidence” that supports the plaintiff ’s claim. Id. at 1965. A complaint may survive a motion to dismiss for failure to state a claim even if it is
“improbable” that a plaintiff would be able to prove
those facts and even if the possibility of recovery is extremely “remote and unlikely.” Id.
III. Plaintiff ICP’s Standing and Defendant Brick
Row’s Vicarious Liability
Defendant Brick Row does not raise in its motion
to dismiss that it disputes Plaintiff ICP’s standing to
bring this lawsuit against Defendants. Plaintiff ICP alleges that it devotes significant resources to achieve its
mission of racially integrating housing and eliminating racial segregation. Fair housing organizations have
been deemed by the Supreme Court in Havens Realty
Corp. v. Coleman, 102 S. Ct. 1114, 1124–25 (1982) to
have standing to sue under the Fair Housing Act when
it devotes significant resources to identify and counteract a defendant’s unlawful practices. 42 U.S.C. § 3602(i)
(stating the aggrieved person standard); Havens Realty Corp. v. Coleman, 102 S. Ct. at 1124–25. Plaintiff

90a
ICP further alleges that Defendants’ alleged discriminatory practices require Plaintiff ICP to devote more
time and resources to help its Section 8 voucher clients
find housing units. At the pleading stage, general factual allegations of injury may suffice to establish
standing. Lujan v. Defs. of Wildlife, 112 S. Ct. 2130,
2137 (1992). At this stage of the proceedings, Plaintiff
ICP has established that it has standing to sue Defendant Brick Row in this case.
Defendant Brick Row also does not dispute Plaintiff ICP’s assertion that Defendant Brick Row is vicariously liable for the alleged discriminatory actions of
Defendant Lincoln Property Company. “It is well established that the [Fair Housing Act] provides for vicarious liability.” 24 C.F.R. § 100.7 (“A person is vicariously
liable for a discriminatory housing practice by the person’s agent or employee. . . .”); see also Meyer v. Holley,
123 S. Ct. 824, 829 (2003). A defendant can also be vicariously liable for claims brought under 42 U.S.C.
§ 1982. See Dillon v. AFBIC Dev. Corp., 597 F.2d 556,
562–63 (5th Cir. 1979). Defendant Brick Row can be vicariously liable for possible Fair Housing Act and 42
U.S.C. § 1982 violations made by Defendant Lincoln
Property Company.
IV. Plaintiff ICP’s Disparate Treatment Claim is
Dismissed.
The Court holds that Plaintiff ICP’s disparate
treatment claim against Defendant Brick Row is dismissed. Plaintiff ICP states that it “pleaded the facts

91a
of a claim of disparate treatment for Defendants’ refusal to negotiate with or enter into leases with ICP
based on the race and color of ICP’s voucher clients,
Black or African American.” Defendant Brick Row asserts that this Court should dismiss Plaintiff ICP’s
claim for disparate treatment against Defendant Brick
Row.
“Disparate treatment is deliberate discrimination.” Munoz v. Orr, 200 F.3d 291, 299 (5th Cir. 2000).
A claim of disparate treatment is “shown by evidence
of discriminatory action or by inferences from the ‘facts
of differences in treatment.’ ” L & F Homes & Dev.,
L.L.C. v. City of Gulfport, Miss., 538 F. App’x 395, 401
(5th Cir. 2013) (citing Int’l Bhd. of Teamsters v. United
States, 97 S. Ct. 1843, 1855 n.15 (1977)). Defendant
Brick Row’s refusal to negotiate with or rent to voucher
households stems from Defendant Lincoln Property
Company’s policy implemented by Defendant Brick
Row refusing to accept Section 8 housing vouchers. Defendant Brick Row’s policy does not indicate that
Defendant Brick Row only refuses Section 8 housing
vouchers from African American or Black voucher
holders.
Plaintiff ICP’s claim of disparate treatment should
be labeled as a disparate impact claim. Although Plaintiff ICP asserts that its claim of disparate treatment is
based on how Defendant Brick Row uses discretion to
not lease to Plaintiff ICP based on the color and race of
ICP’s clients, which resembles disparate treatment,
Plaintiff ’s claim should be labeled as a disparate impact claim. See Inclusive Communities Project, Inc. v.

92a
Texas Dep’t of Hous. & Cmty. Affairs, No. 3:08-CV-0546D, 2016 WL 4494322, at *7 (N.D. Tex. Aug. 26, 2016)
(“Where the plaintiff establishes that a subjective policy, such as the use of discretion, has been used to
achieve a racial disparity, the plaintiff has shown disparate treatment.”). Defendant Brick Row is following
its policy of refusing to accept any Section 8 housing
vouchers by not leasing to Plaintiff ICP.
Because Defendant Brick Row uniformly applies
its policy to all Section 8 voucher holders, there is no
discretionary method of how Defendant Brick Row applies its policy for the Court to analyze for a possible
violation of the disparate treatment standard. Defendant Brick Row is not using its discretion in applying its
policy to accept some Section 8 voucher holders from
certain groups of color or race while rejecting Section
8 voucher holders of a another color or race that it does
not prefer. Plaintiff ICP’s actual issue is with the existence of Defendant Brick Row’s policy so this claim
should be labeled as a disparate impact claim. Id.
(“Where the plaintiff establishes that the existence of
the policy itself, rather than how the policy is applied,
resulted in racial disparity, the plaintiff has shown disparate impact.”).
Plaintiff ICP’s disparate treatment claim is mislabeled. The Court dismisses the alleged disparate treatment claim brought against Defendant Brick Row.

93a
V.

Plaintiff ICP’s Disparate Impact Claim is
Dismissed.

Defendant Brick Row asserts that this Court
should dismiss Plaintiff ICP’s claim for disparate impact against Defendant Brick Row. Defendant Brick
Row argues that its practice of refusing to accept Section 8 housing vouchers does not constitute a “policy”
that creates an artificial barrier to fair housing resulting in disparate impact. Even if the Court determines
that Defendant Brick Row’s practice is a “policy” or a
specific enough practice to be analyzed for a violation
of the disparate impact standard, Defendant Brick
Row further asserts that a prima facie case of disparate impact is not established. Defendant Brick Row
contends Plaintiff ICP failed to provide facts that
demonstrate a causal link between Defendant Brick
Row’s challenged policy and the alleged statistical disparity of availability of Section 8 households in the
community of Brick Row Urban Village. Lastly, if the
Court determines that Plaintiff ICP has established a
prima facie disparate impact claim, Defendant Brick
Row argues that Plaintiff ICP’s disparate impact claim
fails because Plaintiff ICP did not present viable less
discriminatory alternatives. Even if a prima facie case
of disparate impact is shown, Defendant Brick Row asserts Plaintiff has not provided a less discriminatory
alternative to address Defendant Brick Row’s business
concerns.
Plaintiff ICP contends that Defendant Brick Row’s
policy of refusing to negotiate with or rent to Section 8
housing voucher households disproportionately impacts

94a
African American or Black families. Plaintiff ICP further argues that because Defendant Brick Row’s policy
has an adverse effect on the amount of availability of
Section 8 voucher households in Brick Row Urban Village’s community, Defendant Brick Row violated the
disparate impact standard of the Fair Housing Act.
Plaintiff ICP contends that it adequately addressed
Defendant Brick Row’s business concerns related to
renting to Section 8 families by providing the options
of the incentive payments, the Sublease Program, and
the Third Party Guarantor Program.
Disparate impact claims are cognizable under the
Fair Housing Act. Texas Dep’t of Hous. & Cmty. Affairs
v. Inclusive Communities Project, Inc., 135 S. Ct. 2507,
2521 (2015) (“Recognition of disparate-impact claims
is consistent with the FHA’s central purpose.”). A burden shifting approach has been adopted for disparate
impact claims under the Fair Housing Act. See 24
C.F.R. § 100.500; Inclusive Communities Project, Inc.,
2016 WL 4494322, at *8 (stating that the burden-shifting approach under 24 C.F.R. § 100.500 has been determined by the Supreme Court to be adopted for
disparate impact claims under the Fair Housing Act).
First, a plaintiff must prove a prima facie case of discrimination by showing that challenged practice causes
a discriminatory effect. See 24 C.F.R. § 100.500(c)(1). If
the plaintiff makes a prima facie case, the defendant
must then prove that the challenged practice is necessary to achieve one or more of defendant’s substantial,
legitimate, nondiscriminatory interests. See 24 C.F.R.
§ 100.500(c)(2). If the defendant meets its burden, the

95a
plaintiff must then show that the defendant’s interests
“could be served by another practice that has a less discriminatory effect.” 24 C.F.R. § 100.500(c)(3).
a. Requirements for a prima facie claim of
disparate impact
Disparate impact claims permit the plaintiff “to
counteract unconscious prejudices and disguised animus that escape easy classification as disparate treatment.” Id. at 2522. Liability for disparate impact,
however, is limited and should not be imposed based
solely on a showing of statistical disparity. Id.; see also
Inclusive Communities Project, Inc., 2016 WL 4494322,
at *4. “Courts must therefore examine with care
whether a plaintiff has made out a prima facie case of
disparate impact and prompt resolution of these cases
is important.” Id. at 2523. If the plaintiff cannot show
a causal connection between the defendant’s policy and
a disparate impact, a prima facie claim for disparate
impact is not shown and plaintiff ’s disparate impact
claim should be dismissed. Id. at 2524 (citing Inclusive
Communities Project, Inc. v. Texas Dep’t of Hous. &
Cmty. Affairs, 747 F.3d 275, 283 (5th Cir. 2014), aff ’d
and remanded, 135 S. Ct. 2507 (2015) (Jones, J. concurring)).

96a
b. Defendant Brick Row’s practice of not renting to Section 8 housing voucher families
is a specific, facially neutral, “policy” or
practice.
The first element required for a prima facie disparate impact claim to be asserted, is that Plaintiff
ICP must identify a specific, facially neutral, policy or
practice of Defendant Brick Row that resulted in disparate impact. Inclusive Communities Project, Inc.,
2016 WL 4494322, at *6 (citing Texas Dep’t of Hous. &
Cmty. Affairs, 135 S. Ct. at 2521 (the plaintiff must
point to “a defendant’s policy or policies causing that
disparity”). “Disparate impact claims seek to remove
impermissible barriers; therefore, ICP must identify a
specific policy that has created barriers to fair housing.” Id. This is not a trivial burden and the plaintiff
needs to point to more than a generalized policy that
allegedly leads to disparate impact. Meacham v. Knolls
Atomic Power Lab., 554 U.S. 84, 100 (2008) (citing
Smith v. City of Jackson, Miss., 544 U.S. 228, 241
(2005)); see also Inclusive Communities Project, Inc.,
2016 WL 4494322, at *6 (“If the plaintiff does not identify a specific policy or practice, the court cannot determine whether that policy or practice has created a
barrier to fair housing or resulted in a statistical disparity.”).
Plaintiff ICP’s claim that Defendant Brick Row’s
practice of refusing to negotiate with or rent to Section
8 housing voucher holders, is sufficient to be a specific
“policy” or practice for disparate impact purposes. Plaintiff ICP asserts that Defendant Brick Row’s policy of

97a
not accepting Section 8 housing vouchers creates a statistical disparity in the availability of voucher householders in Brick Row Urban Village’s community. The
result of this statistical disparity, Plaintiff ICP alleges,
is that African American or Black families have diminished opportunities to live in Brick Row Urban Village’s community. Plaintiff ICP’s Complaint shows how
Defendant Lincoln Property Company on behalf of
Defendant Brick Row defines the policy. The policy
specifically states: Our community is not authorized
to accept housing vouchers; Our community is not authorized to accept Section 8 housing; Our community
is not authorized to accept any government subsidized
rent programs; No 2nd chance leasing, and no vouchers
accepted. The terms of Defendant Brick Row’s policy
are clear and are sufficient to be defined as a specific,
facially neutral, “policy” or practice to be analyzed for
a possible violation of the disparate impact standard.
See, e.g., Graoch Assocs. #33, L.P., 508 F.3d at 377–78
(stating that for purposes of plaintiff ’s prima facie case
of disparate impact, defendant’s practice of no longer
accepting Section 8 vouchers constituted a specific
practice).
c. Defendant Brick Row’s policy caused no
statistical disparity, thus Plaintiff ICP
did not allege a prima facie claim of disparate impact.
Defendant Brick Row alleges that Plaintiff ICP
has not adequately alleged facts that demonstrate its
policy regarding Section 8 housing voucher holders

98a
caused a statistical disparity. Defendant Brick Row
contends that the statistical analysis of Plaintiff ICP
uses to prove disparate impact is flawed. Defendant
Brick Row further asserts that even if there are statistical disparities in the availability of Section 8 voucher
households in Brick Row Urban Village’s community,
no statistical imbalance can be linked to its policy.
i. Plaintiff ICP’s theory that a “census
tract” defines the parameters of the
area to evaluate for a statistical disparity is unsupported.
The parties dispute how the geographical area to
determine if Defendant Brick Row’s policy actually
caused a statistical disparity should be measured.
Plaintiff ICP asserts that Defendant Brick Row’s policy perpetuates segregation in the “neighborhood” of
Brick Row Urban Village. Plaintiff ICP contends that
a census tract can be used to represent the geography
of a “neighborhood” or “community,” which in turn can
be used as the area to evaluate data and determine if
there is a statistical disparity from Defendant Brick
Row’s policy. Defendant Brick Row asserts Plaintiff
ICP’s theory is unsupported and that different geographical parameters can be used to define the “community” or “neighborhood” that encompasses Brick
Row Urban Village.
To support the argument for a statistical disparity
being felt in Defendant Brick Row’s community, Plaintiff ICP noted that “there are only 45 voucher households

99a
in [Brick Row Urban Village’s] entire census tract.”
Plaintiff ICP provided in the appendix to its response
to Defendant Brick Row’s motion to dismiss, a publication from the United States Census Bureau describing
how the parameters of a “neighborhood” or “community” can be defined. In the “Defining my Neighborhood
and/or Community” section of the publication, the U.S.
Census Bureau states that there are “several options
for finding data for your neighborhood and community
using census geography.” The publication went on to
provide options for finding data for your neighborhood,
which includes: (1) incorporated places, (2) census designated places, (3) county subdivisions/minor civil divisions (4) census tracts, (5) census block groups, and
(6) census blocks.
A census tract is one of various options that the
U.S. Census Bureau suggests for finding data for a
“neighborhood” or “community” using census geography. Plaintiff ICP states in its response to Defendant
Brick Row’s motion to dismiss that “[c]ensus tracts and
block groups are often used to represent the geography
of a neighborhood” – however, this subtle manipulation
of language to conceal truth by saying true things fails
to paint a complete picture of how the U.S. Census Bureau suggests how a “neighborhood” or “community”
should be defined.
The U.S. Census Bureau states that, “[t]he most
common geography for defining communities is Place,”
rather than a census tract. (Doc. No. 23) (emphasis in
original). The U.S. Census Bureau states that “[t]here
are two types of places the Census Bureau tabulates

100a
data for: incorporated places and census designated
places.” (emphasis in original). “Incorporated places
are legal entities such as cities, towns, villages, or boroughs.” Census designated places are identifiable by
name and cannot exist within incorporated places. Under the U.S. Census Bureau’s definition, China Spring,
Texas is an example of a census designated place since
it is identifiable by name and does not exist within an
incorporated place. County subdivisions/minor civil divisions are then offered as the next alternative to define a “community” or “neighborhood.” The U.S. Census
Bureau publication, provided by Plaintiff ICP to the
Court, then states, “[i]f your community or neighborhood cannot be defined at the place or county subdivision levels, you can define the area using the smallest
levels of geographies offered by the Census Bureau:
census tracts, block groups, and census blocks.” (emphasis in original). Using a census tract as the geographical area to measure for statistical purposes is one of
many options, and is not even offered as the first option
to use to define a “neighborhood” or “community.”
Plaintiff ICP also did not provide any case law to
add to its already tenuous, at best, assertion that a census tract should be the geographical parameter used to
see if Defendant Brick Row’s policy caused a statistical
disparity. There are a variety of ways that the geographical area for statistical purposes can be evaluated by the Court. If the Court uses Plaintiff ICP’s
suggestion by using the census tract where Brick Row
Urban Village is located, then there are just 45 Section
8 Voucher households available in the census tract. If

101a
the Court uses the 75081 zip code where Brick Row
Urban Village is located as the proper area to use when
analyzing the potential effect of Defendant’s policy,
then there are eight more census tracts that are added
to the Court’s analysis. In the 75081 zip code there are
301 Section 8 voucher households available according
to HUD 2015 census tract data, instead of just 45
voucher households in the one census tract Plaintiff
ICP provided. If the Court uses the city of Richardson,
Texas where Brick Row Urban Village is located, which
has additional zip codes located in it, then there are
376 Section 8 Voucher households available according
to HUD 2015 statistics. The parameters that the Court
uses in its analysis of whether a statistical disparity
exists because of Defendant Brick Row’s policy makes
a difference. Plaintiff ICP did not provide adequate
support for its assertion that the Court should only analyze the census tract where Brick Row Urban Village
is located to determine if there was a statistical disparity felt by Defendant Brick Row’s policy of refusing to
accept Section 8 vouchers.
ii. Plaintiff ICP did not show that Defendant Brick Row’s policy caused a disparate impact.
Even if the Court uses the census tract where
Brick Row Urban Village is located, Plaintiff ICP did
not allege facts that show that Defendant Brick Row’s
policy caused a disparate impact. The Court finds no
causal link between Defendant’s policy and the alleged
disparate impact that was felt. Plaintiff also did not

102a
provide support for why its assertion about the majority of the voucher households in Brick Row Urban
Village’s census tract being in single family or semidetached structures is significant to the Court’s analysis.
The plaintiff has the burden of proving that a challenged practice caused or predictably will cause a discriminatory effect. 24 C.F.R. § 100.500(c)(1); see also
Texas Dep’t of Hous. & Cmty. Affairs, 135 S. Ct. at 2514.
“A robust causality requirement ensures that racial
imbalance . . . does not without more, establish a prima
facie case of disparate impact and thus protects defendants from being held liable for racial disparities
they did not create.” Texas Dep’t of Hous. & Cmty. Affairs, 135 S. Ct. at 2523 (quoting Wards Cove Packing
Co. v. Atonio, 109 S. Ct. 2115 (1989)) (quotation marks
omitted). The causality requirement is required to be
“robust” to make sure that “defendants do not resort to
the use of racial quotas to avoid liability for statistical
disparities.” Id.; see also Inclusive Communities Project, Inc., 2016 WL 4494322, at *8 (quotation marks
omitted). If there are not safeguards at the prima facie
stage for analyzing possible disparate impact liability,
“disparate impact liability might cause race to be used
and considered in a pervasive way and would almost
inexorably lead governmental or private entities to use
numerical quotas and serious constitutional questions
then could arise.” Texas Dep’t of Hous. & Cmty. Affairs,
135 S. Ct. at 2523 (quoting Wards Cove Packing Co.,
109 S. Ct. 2115) (quotation marks omitted).

103a
Plaintiff ICP has not proved that Defendant Brick
Row’s policy caused a “robust” statistical disparity,
much less any statistical disparity. Plaintiff ICP asserts that the lack of available voucher households in
Brick Row Urban Village’s census tract amounts to an
adverse impact on African American or Black families,
since African American or Black families predominantly hold Section 8 housing vouchers in the Dallas
metropolitan area. Plaintiff stated that “[t]here are
only 45 voucher holders in the entire census tract.” By
presenting this information to the Court, Plaintiff
shows that there is a possible statistical imbalance
with the amount of voucher households in the census
tract. Plaintiff ICP, however, does not provide facts to
link Defendant Brick Row’s policy to the possible statistical disparity. Merely showing a statistical imbalance, without providing a bridge to how Defendant
Brick Row’s policy caused the imbalance is not sufficient.
In the city of Richardson, Texas the amount of
available Section 8 Housing Voucher households has
increased since April 2010, when Brick Row Urban Village began to be occupied by tenants. According to
the HUD statistics, the number of available voucher
households has increased from 280 in 2009 to 376 in
2015. The Section 8 voucher population was 68% African American or Black in 2009 and in 2015. Plaintiff
also did not provide any information to the Court that
noted approximately how many African American or
Black voucher holders were denied Section 8 housing
in Brick Row Urban Village’s census tract, the 75081

104a
zip code, or the city of Richardson, Texas. The statistics
provided by Plaintiff ICP failed to establish a causal
link between Defendant Brick Row’s policy and the alleged disparate impact.
Plaintiff ICP did not allege a prima facie disparate
impact claim. The Court dismisses Plaintiff ICP’s disparate impact claim.
d. Plaintiff ICP’s disparate impact claim
also fails because Plaintiff did not propose viable less discriminatory alternatives.
Even if Plaintiff ICP met its burden to establish a
prima facie showing of disparate impact, Plaintiff ICP
did not establish a disparate impact claim. For a disparate impact claim under the Fair Housing Act, there
is a burden-shifting framework that must be met. If
the plaintiff meets the burden of establishing a prima
facie case, the defendant must then prove that the
challenged practice is necessary to achieve one or more
substantial, legitimate, nondiscriminatory interests of
the defendant. See 24 C.F.R. § 100.500(c)(2); Inclusive
Communities Project, Inc., 2016 WL 4494322, at *8
(adopting the burden-shifting framework under 24
C.F.R. § 100.500). If the defendant meets its burden,
the plaintiff must then show that the defendant’s interests could be served by another practice that has a
less discriminatory alternative. 24 C.F.R. § 100.500(c)(3).
Defendant Brick Row met its burden of proving that the Section 8 housing voucher policy was

105a
implemented for “substantial, legitimate, nondiscriminatory interests.” The regulatory requirements that
Defendant Brick Row states that it would be subjected
to by participating in the Section 8 voucher program
are sufficient. If Defendant Brick Row participated in
the Section 8 voucher program, which is voluntary at
the state and federal level, Defendant Brick Row could
be subjected to increased costs, administrative delays
for payment, and various other financial risks. See
24 C.F.R. §§ 982.308(2), 982.401, 982.405; 42 U.S.C.
§ 1437f; TEX. LOCAL GOV’T CODE § 250.007. Defendant
Brick Row also notes that it chooses not to participate
in the Section 8 housing voucher program because of
the possibility of increased litigation. Defendant Brick
Row satisfied its burden.
Plaintiff ICP offered incentive payments, its Sublease Program, and its Third Party Guarantor Program as possible less discriminatory alternatives to
satisfy Defendant Brick Row’s anticipated business
concerns. Plaintiff ICP’s Sublease Program and Third
Party Guarantor Program are not adequate. For the
Third Party Guarantor Program, Plaintiff ICP proposed to serve as a third-party guarantor for its Section 8 voucher clients that were permitted to be tenants.
For the Sublease Program, Plaintiff ICP would lease
three to five units in Brick Row Urban Village. Plaintiff
ICP proposed that it would pay the agreed lease
amount in a timely manner, respond to all tenant issues, and if the Section 8 voucher program tenant was
late or delinquent on the rent payment, Plaintiff ICP
would cover the payment. An incentive payment of one

106a
month’s rent for each Section 8 housing voucher tenant
was also offered to Defendant Brick Row if they participated in the Sublease Program or Third Party Guarantor Program.
Although Plaintiff ICP proposed the Sublease Program and Third Party Guarantor Program to alleviate
anticipated business concerns of Defendant Brick Row,
the programs are not adequate to serve as less discriminatory alternatives that address Defendant Brick
Row’s business interests. Plaintiff ICP has not shown
that its proposed programs have been successfully implemented in the past, or even that Plaintiff ICP can
financially support the programs. If Plaintiff ICP’s programs are not successfully executed, then Defendant
Brick Row could be exposed to potential financial harm
and litigation.
Defendant Brick Row could also be subject to further litigation for deciding to participate in Plaintiff
ICP’s programs because it could result in favoritism of
Section 8 voucher holders that Plaintiff ICP represents. Participation in Plaintiff ICP’s programs would
create legitimate issues that Defendant Brick Row has
pointed out. “Can the ICP seriously contend that Brick
Row can continue [to] refus[e] to accept vouchers from
White, Hispanic and handicapped tenants, if Brick
Row begins accepting vouchers from Black tenants under ICP’s programs, without increasing the risk of litigation?” Plaintiff ICP’s programs were legitimately
refused by Defendant Brick Row and are not less
discriminatory alternatives that can adequately serve
Defendant Brick Row’s business interests. Even if

107a
Plaintiff ICP proved a prima facie case of disparate impact, the Court finds that Plaintiff ICP’s disparate impact claim fails.
VI. Conclusion
The Court GRANTS Defendant Brick Row Apartments LLC’s Motion to Take Judicial Notice of Certain
Data Produced by the U.S. Census Bureau. The Court
also GRANTS Defendant Brick Row’s Rule 12(b)(6)
Motion to Dismiss. The Court dismisses Plaintiff ICP’s
alleged disparate impact and disparate treatment
claims as to Defendant Brick Row. Plaintiff ICP’s Complaint is dismissed as to Defendant Brick Row.
SO ORDERED.
Signed July 13th, 2017
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES
DISTRICT JUDGE

108a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
THE INCLUSIVE
COMMUNITIES
PROJECT, INC.,
Plaintiff,
v.
LINCOLN PROPERTY
COMPANY, et. al.,
Defendants.

§
§
§
§
§
§
§
§
§

Civil Action No.
3:17-CV-206-K

MEMORANDUM OPINION AND ORDER
(Filed Aug. 16, 2017)
Before the Court are Defendants Legacy Multifamily North III LLC and HLI White Rock LLC’s Motion to Dismiss Complaint for Failure to State a Claim
and Brief in Support (Doc. No. 32), Defendant Lincoln
Property Company’s Motion to Dismiss Pursuant to
Federal Rule 12(b)(6) (Doc. No. 33), Defendant Lincoln
Property Company’s Motion to Adopt Defendants
Brick Row Apartments LLC’s Rule 12(b)(6) Motion to
Dismiss and Legacy Multifamily North III LLC and
HLI White Rock LLC’s Rule 12(b)(6) Motion to Dismiss
(Doc. No. 34), and CPF PC Riverwalk, LLC’s Motion to
Dismiss ICP’s Complaint for Failure to State a Claim
and Supporting Brief (Doc. No. 42).
Plaintiff The Inclusive Communities Project, Inc.
(“ICP”) brought this lawsuit against Defendant Brick

109a
Row Apartments LLC (“Brick Row”), Defendant Lincoln Property Company, Defendant Legacy Multifamily North III, LLC (“Legacy”), Defendant CPF PC
Riverwalk LLC (“CPF PC Riverwalk”), and Defendant
HLI White Rock LLC (“HLI White Rock”) alleging that
Defendants’ practice of refusing to rent to or negotiate
with Section 8 housing voucher holders violates the
Fair Housing Act, 42 U.S.C. § 3601, et. seq. The Court
previously dismissed Plaintiff ICP’s Complaint as to
Defendant Brick Row in its Memorandum Opinion and
Order on July 13, 2017 (Doc. No. 55). Defendants Legacy, CPF PC Riverwalk, HLI White Rock, and Lincoln
Property Company assert that Plaintiff ICP’s claims
alleged in its Complaint should be dismissed as to each
of them as well.
The Court GRANTS Defendant Lincoln Property
Company’s Motion to Adopt Defendants Brick Row
Apartments LLC’s Rule 12(b)(6) Motion to Dismiss and
Legacy Multifamily North III LLC and HLI White
Rock LLC’s Rule 12(b)(6) Motion to Dismiss (Doc. No.
34). The Court takes into consideration Plaintiff ICP’s
responses to Defendant Brick Row’s motion to dismiss,
and Defendants Legacy and HLI White Rock’s motion
to dismiss and incorporates Plaintiff ICP’s arguments
into Plaintiff ICP’s response to Defendant Lincoln
Property Company’s motion to dismiss.
After careful consideration of Defendants’ motions
to dismiss Plaintiff ICP’s Complaint, Plaintiff ICP’s responses to Defendants’ motions to dismiss, Defendants’ replies to Plaintiff ICP’s responses to Defendants’
motions to dismiss, and the applicable law, the Court

110a
GRANTS each of the Defendants’ motions to dismiss
Plaintiff ICP’s Complaint (Doc. Nos. 32, 33, and 42).
Plaintiff ICP’s Complaint against all Defendants is dismissed.
I.

Factual Background

Defendants’ refusal to rent to or negotiate with
households that participate in the federal Housing
Choice Voucher Program, commonly known as the
“Section 8” housing voucher program is the driving
force behind this lawsuit. Plaintiff ICP alleges that Defendants instituted a policy or practice of refusing Section 8 housing vouchers in “high opportunity” areas
within the Dallas metropolitan area. Plaintiff ICP contends that the “high opportunity” areas where Defendants refuse to rent to or negotiate with Section 8
voucher holders are predominantly White, non-minority areas. The “high opportunity” areas are described
by Plaintiff ICP as being safe and secure communities
with higher median incomes, good schools, and lower
poverty rates. Plaintiff ICP further alleges that Defendants do not have this policy in majority minority
areas and that Defendants rent to or negotiate with
Section 8 voucher households in majority minority areas.
Plaintiff ICP asserts four claims. Two of the claims
asserted by Plaintiff ICP are asserted against all Defendants – Defendants Legacy, HLI White Rock, CPF
PC Riverwalk, and Lincoln Property Company. Plaintiff ICP contends that all Defendants violated the

111a
disparate impact standard under the Fair Housing Act
because their policy of not renting to or negotiating
with Section 8 voucher holders causes a racially discriminatory effect. All Defendants are also alleged by
Plaintiff ICP to have violated the disparate treatment
standard under the Fair Housing Act, 42 U.S.C. § 3604(a),
and 42 U.S.C. § 1982, because of refusing to negotiate
with or enter into leases with Plaintiff ICP based on
the race and color of Plaintiff ICP’s Section 8 voucher
clients.
Plaintiff ICP additionally brings two claims solely
against Defendant Lincoln Property Company. Plaintiff ICP asserts that Defendant Lincoln Property Company’s advertisements violate 42 U.S.C. § 3604(c) of the
Fair Housing Act because Defendant Lincoln Property
Company’s advertisements show racial preference or
discriminate based on race or color.
Plaintiff ICP alleges an additional disparate treatment claim against Defendant Lincoln Property Company. Plaintiff ICP contends that Defendant Lincoln
Property Company’s policy of refusing to negotiate
with or rent to Section 8 voucher households violates
the disparate treatment standard under 42 U.S.C.
§ 3604(a) and 42 U.S.C. § 1982 because Defendant Lincoln Property Company’s refusal is based on the race
or color of the voucher households.

112a
a. Plaintiff ICP and the Section 8 Housing
Voucher Program
Plaintiff ICP is a nonprofit organization that seeks
to create and maintain racially and economically inclusive communities. Plaintiff ICP pursues expansion of
fair and affordable housing for low income families and
attempts to remedy harmful practices that perpetuate
discrimination and segregation in the community. As
part of Plaintiff ICP’s fair housing focused initiative,
Plaintiff ICP provides counseling, financial assistance,
and other services for low income families.
One of the main tools that Plaintiff ICP helps its
client use to achieve housing equality is the federal
Section 8 housing voucher program. Plaintiff ICP’s
Section 8 housing voucher clients are predominantly
African American or Black families. The Section 8
housing voucher program is a subsidy provided to
landlords who are willing to rent dwelling units to low
income households. The subsidy from the program
given to the landlords pays the difference between the
rental amount and the amount that the voucher household is required to pay under the Section 8 housing
voucher program, which ranges from 30% to 40% of
the household’s income. Participation in the Section 8
housing voucher program is voluntary rather than
mandatory. See 42 U.S.C. § 1437f(o)(6)(B); TEX. LOCAL
GOV’T CODE § 250.007; Austin Apartment Ass’n v. City
of Austin, 89 F. Supp. 3d 886, 890 (W.D. Tex. 2015)
(“Federal law does not require landlords to accept
housing vouchers, and landlords who do accept vouchers are not required to approve tenants merely because

113a
they are voucher holders.”); Salute v. Stratford Greens
Garden Apartments, 136 F.3d 293, 300 (2d Cir. 1998)
(“We think that the voluntariness provision of Section
8 reflects a congressional intent that the burdens of
Section 8 participation are substantial enough that
participation should not be forced on landlords. . . .”).
African American or Black families are the largest
demographic group in the Dallas area that participate
in the Section 8 housing voucher program. The Dallas
Housing Authority administers the largest number
of Section 8 housing vouchers of any agency in the Dallas, Texas metropolitan area. Out of the 17,000 plus
vouchers Dallas Housing Authority issues, 86% of the
voucher holders are alleged to be African American or
Black families, and 6% are non-minority families. According to the U.S. Housing & Urban Development
Department (“HUD”) 2015 statistics, of the 30,745 Section 8 housing voucher population served by all of the
housing authorities in the Dallas-Plano-Irving TX
Metropolitan Division, African American or Black families are alleged to make up 81% of the voucher population, Hispanic families are alleged to make up 6% of
the voucher population, and White non-Hispanic families are alleged to make up 10% of the voucher population.
Plaintiff ICP provides mobility assistance to all
Section 8 voucher households that want to move to
higher opportunity communities in the Dallas area.
Mobility assistance involves Plaintiff ICP negotiating with landlords on behalf of its Section 8 voucher
clients, if necessary. Plaintiff ICP offers incentive

114a
payments, to serve as a sublessor, or to serve as a third
party guarantor to encourage landlords to participate
in the Section 8 housing voucher program. The different programs and incentive payments offered by Plaintiff ICP are designed in a way to address possible
business concerns a landlord may have when renting
to a Section 8 voucher household.
On five occasions from August 2015 to May 2016,
Plaintiff ICP sent letters to Defendant Lincoln Property Company attempting to encourage Defendant
Lincoln Property Company to accept Section 8 housing
vouchers for properties it manages – Parkside at Legacy (owned by Defendant Legacy), Park Central at
Flower Mound (owned by Defendant CPF PC Riverwalk), White Rock Lake Apartment Villas (owned by
Defendant HLI White Rock), McKinney Uptown, and
Brick Row Urban Village (owned by Defendant Brick
Row). In the letters to Defendant Lincoln Property
Company, Plaintiff ICP proposed participation in
Plaintiff ICP’s Third Party Guarantor Program or Sublease Program to address possible business concerns
Defendants could have.
For the Third Party Guarantor Program that
Plaintiff ICP offered, Plaintiff ICP proposed to serve as
the third-party guarantor for its Section 8 voucher clients using the standard Texas Apartment Association
Lease Contract Guaranty Form. Plaintiff ICP represented that it would be willing to add provisions to the
Lease Contract Guaranty form to cover any losses due
to possible housing authority delays in processing the
Section 8 housing voucher of the voucher household.

115a
An incentive payment of one month’s rent for each Section 8 housing voucher tenant selected to occupy Defendants’ apartment complexes was also offered if they
participated in the Third Party Guarantor Program.
Plaintiff ICP alternatively offered a Sublease Program to try to entice Defendants to rent to its Section
8 voucher clients. Plaintiff ICP stated that, “ICP has
its own experience as a landlord dealing with Dallas
Housing Authority and other voucher agencies in the
area and understands some of the concerns. However,
we believe, based on that experience, that such concerns can be effectively addressed in a way that works
for everyone involved.”
Plaintiff ICP began the proposal by stating that
the President of the Apartment Association of Greater
Dallas endorses the merit of the Sublease Program and
has offered to work with Plaintiff ICP. The responsibility of finding and proposing qualified Section 8 voucher
tenants to Defendants would fall solely on Plaintiff
ICP. For the Sublease Program, Plaintiff ICP would
lease three to five units in the Defendants’ apartment
complexes that participated in the program. As a sublessor, similar to the role of a corporate entity, Plaintiff
ICP would pay the agreed lease amount in a timely
manner, respond to all tenant issues, and, if necessary,
evict Section 8 housing voucher tenants. If the Section
8 housing voucher tenant, or the housing authority responsible for the subsidy to the landlord was late or
delinquent on the rent payment, Plaintiff ICP offered
to cover the unpaid portion of the payment under the
lease contract. Plaintiff ICP also offered a financial

116a
incentive of one month’s contract rent for each unit
that Defendants would agree to lease to Section 8
housing voucher tenants.
Neither Defendants Legacy, HLI White Rock, and
CPF PC Riverwalk, nor Defendants’ agent, Defendant
Lincoln Property Company, responded to Plaintiff ICP’s
letters proposing the Third Party Guarantor Program
and Sublease Program.
b. Defendant Lincoln Property Company
Defendant Lincoln Property Company manages
residential rental properties of Defendants Legacy,
HLI White Rock, and CPF PC Riverwalk. As the manager or owner of apartment complexes, Defendant Lincoln Property Company is alleged to have implemented
a policy of refusing to rent to Section 8 voucher holders
for 54 of its apartment complexes. Plaintiff ICP contends that this policy or practice is implemented in
majority White non-Hispanic census tracts that have
lower poverty rates, higher median family incomes,
and higher ranking public schools.
Apartment locator services offering Defendant
Lincoln Property Company’s rental units to prospective tenants advertise Defendant Lincoln Property
Company’s policy in various ways:
•

Our community is not authorized to accept
housing vouchers.

•

Our community is not authorized to accept
Section 8 housing.

117a
•

Our community is not authorized to accept
any government subsidized rent programs.

•

No 2nd chance leasing, and no vouchers accepted.

Plaintiff ICP alleges that Defendant Lincoln Property Company publishes these advertisements for apartment complexes in the Dallas metropolitan area that
are located in census tracts that are less than thirty
percent Black or African American.
c. Defendants Legacy, HLI White Rock, and
CPF PC Riverwalk
Defendants Legacy, HLI White Rock, and CPF
PC Riverwalk are alleged to have implemented Defendant Lincoln Property Company’s policy of refusing
to rent to or negotiate with Section 8 housing voucher
holders at their apartment complexes. Plaintiff ICP alleges that there were no Section 8 housing voucher
households or housing voucher households available in
census tracts where Defendant Legacy’s Parkside at
Legacy complex, HLI White Rock’s White Rock Lake
Apartment Villas complex, and CPF PC Riverwalk’s
Park Central at Flower Mound complex are located as
of the HUD 2015 Picture of Subsidized Housing Report.
Defendant Legacy owns the Parkside at Legacy
apartment complex in Plano, Texas 75024. The Parkside
at Legacy apartment complex is alleged to have 293
rental units. Plaintiff ICP alleges that in the census tract
block group where the Parkside at Legacy complex is

118a
located, Black or African American renters are alleged
to occupy 14 percent of the 630 renter occupied units
based on the American Community Survey 2014 5year estimates.
Defendant HLI White Rock owns the White Rock
Lake Apartment Villas apartment complex located in
Dallas, Texas 75218. There are 296 rental units in the
White Rock Lake Apartment Villas complex. Plaintiff
ICP alleges that according to the American Community Survey 2014 5-year estimates, 11 percent of the
1,022 renter units in the census tract block group
where the White Rock Lake Apartment Villas apartment is located are Black or African American renters.
Defendant CPF PC Riverwalk owns the Park Central at Flower Mound apartment complex in Flower
Mound, Texas 75028. There are 307 rental units at the
Park Central at Flower Mound apartment complex.
Plaintiff ICP alleges that there are no Black or African
American renters in the census tract block group
where the Park Central at Flower Mound complex is
located based on the American Community Survey
2014 5-year estimates.
Because of Defendants Legacy, HLI White Rock,
CPF PC Riverwalk, and Lincoln Property Company’s
refusal to rent to or negotiate with Section 8 voucher
households, Plaintiff ICP brought four claims in its
Complaint against Defendants: (1) All Defendants violated the disparate impact standard of the Fair Housing
Act; (2) All Defendants violated the disparate treatment standard of the Fair Housing Act; (3) Defendant

119a
Lincoln Property Company violated 42 U.S.C. § 3604(c)
of the Fair Housing Act because its advertisements
showed racial preference for tenants; and (4) Defendant Lincoln Property Company violated the disparate
treatment standard of the Fair Housing Act.
II.

Legal Standard for a Rule 12(b)(6) Motion to
Dismiss

A complaint should be dismissed under Rule
12(b)(6) only where it appears that the facts alleged
fail to state a “plausible” claim for relief. Bell Atlantic
v. Twombly, 127 S. Ct. 1955, 1964–65 (2007); FED. R.
CIV. P. 12(b)(6). The plaintiff need only give the defendant fair notice of the plaintiff ’s claim and the grounds
upon which it rests. Erickson v. Pardus, 127 S. Ct. 2197,
2200 (2007) (citing Twombly, 127 S. Ct. 1955); FED. R.
CIV. P. 8(a). In ruling on a motion to dismiss, the court
must accept the facts alleged in the complaint as true
and construe them in the light most favorable to the
plaintiff. Ferrer v. Chevron Corp., 484 F.3d 776, 780 (5th
Cir. 2007).
A claim is plausible where the plaintiff alleges factual content that “allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 129 S. Ct. 1937,
1940 (2009). A plaintiff is not required to provide “detailed factual allegations” to survive dismissal, but the
“obligation to provide the ‘grounds’ of his ‘entitle[ment]
to relief ’ requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause of

120a
action will not do.” Twombly, 127 S. Ct. at 1964–65.
The plausibility standard requires that a plaintiff allege sufficient facts “to raise a reasonable expectation
that discovery will reveal evidence” that supports the
plaintiff ’s claim. Id. at 1965. “[C]onclusory allegations
or legal conclusions masquerading as factual conclusions will not suffice to prevent a motion to dismiss.”
S. Christian Leadership Conference v. Supreme Court
of State of La., 252 F.3d 781, 786 (5th Cir. 2001) (quoting Fernandez-Montes v. Allied Pilots Ass’n, 987 F.2d
278, 284 (5th Cir. 1993)) (quotation marks omitted).
III. Plaintiff ICP has standing and Defendants
Legacy, HLI White Rock, and CPF PC Riverwalk are subject to vicarious liability.
Defendants do not dispute whether Plaintiff ICP
has standing to bring the claims that Plaintiff ICP
brings against them. Fair housing organizations have
been determined by the Supreme Court in Havens Realty Corp. v. Coleman, 102 S. Ct. 1114, 1124–25 (1982)
to have standing to sue under the Fair Housing Act
when the organization devotes significant resources to
identify and counteract a defendant’s unlawful practices. 42 U.S.C. § 3602(i) (stating the aggrieved person
standard); Havens Realty, 102 S. Ct. at 1124–25. Plaintiff ICP alleges that it devotes significant resources to
eliminate segregation and integrate housing throughout the Dallas metropolitan area. Plaintiff ICP further
alleges that Defendants’ alleged discriminatory practices require Plaintiff ICP to devote more time and
resources to help its Section 8 voucher clients find

121a
housing units. Plaintiff ICP has standing to bring this
lawsuit against Defendants.
Defendants Legacy, HLI White Rock, and CPF PC
Riverwalk also do not dispute Plaintiff ICP’s assertion
that Defendants are vicariously liable for the actions
of Defendant Lincoln Property Company. Defendant
Lincoln Property Company is the property manager for
the apartment complexes owned by Defendants Legacy, HLI White Rock, and CPF PC Riverwalk. “It is well
established that the [Fair Housing Act] provides for vicarious liability.” 24 C.F.R. § 100.7 (“A person is vicariously liable for a discriminatory housing practice by
the person’s agent or employee. . . .”); see also Meyer v.
Holley, 123 S. Ct. 824, 829 (2003). A defendant can also
be vicariously liable for claims brought under 42 U.S.C.
§ 1982. Dillon v. AFBIC Dev. Corp., 597 F.2d 556, 562–
63 (5th Cir. 1979). Defendant Lincoln Property Company’s implementation of the alleged policy of refusing
to rent to or negotiate with Section 8 housing voucher
holders as the agent of Defendants Legacy, HLI White
Rock, and CPF PC Riverwalk is enough to subject Defendants to vicarious liability.
IV. Plaintiff ICP’s disparate treatment claims
against Defendants are dismissed.
The Court holds that Plaintiff ICP’s disparate
treatment claims against Defendants are dismissed.
Plaintiff ICP first asserts that all Defendants violated
the disparate treatment standard under 42 U.S.C.
§ 3604(a) and 42 U.S.C. § 1982 because of Defendants’

122a
refusal to negotiate with or enter into leases with
Plaintiff ICP. Plaintiff ICP also brought a disparate
treatment claim against Defendant Lincoln Property
Company because of Defendant Lincoln Property Company’s policy of refusing to negotiate with or rent to
Section 8 voucher households. The Court dismisses
both of Plaintiff ICP’s disparate treatment claims.
A disparate treatment claim is shown when one
group is treated less favorably than another because of
their race, color, or other protected characteristic. Raytheon Co. v. Hernandez, 124 S. Ct. 513, 519 (2003). Disparate treatment is deliberate discrimination. Munoz
v. Orr, 200 F.3d 291, 299 (5th Cir. 2000). A claim of disparate treatment is “shown by evidence of discriminatory action or by inferences from the fact of differences
in treatment.” L & F Homes & Dev., L.L.C. v. City of
Gulfport, Miss., 538 F. App’x 395, 401 (5th Cir. 2013)
(quoting Int’l Bhd. of Teamsters v. United States, 97
S. Ct. 1843, 1855 n.15 (1977)). When a subjective policy,
such as the use of discretion, has been used to achieve
a racial disparity, the plaintiff has shown disparate
treatment. Inclusive Communities Project, Inc. v. Texas
Dep’t of Hous. & Cmty. Affairs, No. 3:08-CV-0546-D,
2016 WL 4494322, at *7 (N.D. Tex. Aug. 26, 2016). A
disparate impact claim, in contrast, is shown when the
plaintiff seeks to establish that the existence of the policy itself, rather than how the policy is applied, is the
cause of the alleged racial disparity. Id.
Plaintiff ICP’s disparate treatment claims against
Defendants are mislabeled and are essentially disparate impact claims. The reason that Defendants refuse

123a
to enter into leases with Plaintiff ICP is because Plaintiff ICP is seeking to enter into leases with Defendants
on behalf of its Section 8 voucher household clients. Defendant Lincoln Property Company refuses to rent to
or negotiate with Section 8 voucher holders, regardless
of race or color. There are no allegations made against
Defendants’ subjective application of their policy to
Section 8 voucher holders. Plaintiff ICP’s issue is with
the existence of Defendants’ policy, which is indicative
of disparate impact rather than disparate treatment.
Plaintiff ICP’s disparate treatment claim against
Defendant Lincoln Property Company because of Defendant Lincoln Property Company’s refusal to negotiate with or rent to voucher households also fails. There
is nothing alleged as to how Defendant Lincoln Property Company applies its policy of refusing Section 8
housing vouchers as a means of intentional discrimination based on race or color. There is no discretionary
method of how Defendant Lincoln Property Company
applies its policy for the Court to analyze for a possible
violation of the disparate treatment standard. No facts
are alleged to show that Defendant Lincoln Property
Company implements its policy in a way where it considers the race or color of the Section 8 voucher holder.
The root of Plaintiff ICP’s alleged discrimination is in
Defendants’ policy itself rather than how the policy is
subjectively being implemented, which amounts to a
claim of disparate impact. Id. (“[W]here the plaintiff
establishes that the existence of the policy itself, rather
than how the policy is applied, resulted in racial disparity, the plaintiff has shown disparate impact.”).

124a
Plaintiff ICP’s disparate treatment claims are mislabeled. The Court dismisses the alleged disparate treatment claims brought against Defendants Legacy, CPF
PC Riverwalk, HLI White Rock, and Lincoln Property
Company.
V.

Plaintiff ICP’s disparate impact claims are
dismissed.

Plaintiff ICP additionally asserts that Defendants
Lincoln Property Company, Legacy, HLI White Rock,
and CPF PC Riverwalk violate the disparate impact
standard under the Fair Housing Act. Plaintiff ICP
contends that Defendants’ facially neutral policy or
practice has an adverse effect on Black or African
American families and perpetuates segregation in
communities, which indicates disparate impact.
Disparate impact claims are cognizable under the
Fair Housing Act. Texas Dep’t of Hous. & Cmty. Affairs
v. Inclusive Communities Project, Inc., 135 S. Ct. 2507,
2521 (2015). A burden shifting approach has been
adopted for disparate impact claims under the Fair
Housing Act. See 24 C.F.R. § 100.500; Inclusive Communities Project, Inc., 2016 WL 4494322, at *4. First, a
plaintiff must prove a prima facie case of discrimination by showing that the challenged practice causes
a discriminatory effect. 24 C.F.R. § 100.500(c)(1). If
the plaintiff makes a prima facie case, the defendant
must then prove that the challenged practice is necessary to achieve one or more of defendant’s substantial, legitimate, nondiscriminatory interests. 24 C.F.R.

125a
§ 100.500(c)(2). If the defendant meets its burden, the
plaintiff must then show that the defendant’s interests
“could be served by another practice that has a less discriminatory effect.” 24 C.F.R. § 100.500(c)(3).
a. Requirements for a prima facie claim of
disparate impact
“Courts must . . . examine with care whether a
plaintiff has made out a prima facie case of disparate
impact and prompt resolution of these cases is important.” Texas Dep’t of Hous. & Cmty. Affairs, 135
S. Ct. at 2523. Disparate impact claims permit the
plaintiff “to counteract unconscious prejudices and disguised animus that escape easy classification as disparate treatment.” Id. at 2522. Liability for disparate
impact, however, is limited and should not be imposed
based solely on a showing of statistical disparity. Id. at
2524; see also Inclusive Communities Project, Inc., 2016
WL 4494322, at *4–5. If the plaintiff cannot show a
causal connection between the defendants’ policy and
a disparate impact, a prima facie claim for disparate
impact is not shown and plaintiff ’s disparate impact
claim should be dismissed. Texas Dep’t of Hous. &
Cmty. Affairs, 135 S. Ct. at 2524 (citing Inclusive Communities Project, Inc. v. Texas Dep’t of Hous. & Cmty.
Affairs, 747 F.3d 275, 283 (5th Cir. 2014) (Jones, J. concurring), aff ’d and remanded, 135 S. Ct. 2507 (2015)).

126a
b. Plaintiff ICP did not plead a prima facie
disparate impact claim.
Defendants assert that Plaintiff ICP does not
show a prima facie case for disparate impact liability
because Plaintiff ICP fails to show how Defendants’
policy caused the statistical disparities that Plaintiff
ICP alleges in its Complaint. This Court agrees. There
is no causal link between Defendants’ policy and the
alleged disparate impact.
Defendants’ policy of refusing to rent to or negotiate with Section 8 voucher holders is considered to be
a “policy” or “practice” that can be scrutinized when
evaluating if there is disparate impact liability. See,
e.g., Graoch Assocs. # 33, L.P. v. Louisville/Jefferson Cty.
Metro Human Relations Comm’n, 508 F.3d 366, 377–
78 (6th Cir. 2007) (stating that for purposes of analyzing plaintiff ’s prima facie case of disparate impact, defendant’s practice of no longer accepting Section 8
vouchers constituted a specific practice).
The plaintiff has the burden of proving that a challenged practice caused or predictably will cause a discriminatory effect. 24 C.F.R. § 100.500(c)(1); see also
Texas Dep’t of Hous. & Cmty. Affairs, 135 S. Ct. at 2514.
“A robust causality requirement ensures that racial
imbalance . . . does not without more, establish a prima
facie case of disparate impact and thus protects defendants from being held liable for racial disparities
they did not create.” Texas Dep’t of Hous. & Cmty.
Affairs, 135 S. Ct. at 2523 (quoting Wards Cove Packing Co. v. Atonio, 109 S. Ct. 2115, 2122–23 (1989))

127a
(quotation marks omitted). The causality requirement
is required to be “robust” to make sure that “defendants do not resort to the use of racial quotas to avoid
liability for statistical disparities.” Inclusive Communities Project, Inc., 2016 WL 4494322, at *8 (quoting
Texas Dep’t of Hous. & Cmty. Affairs, 135 S. Ct. at 2523)
(quotation marks omitted).
Plaintiff ICP has not proved that Defendants’ policy caused a “robust,” or any statistical disparity. Plaintiff ICP presents to the Court a sequence of events in
an attempt to show how Defendants’ policy caused a
statistical disparity for a prima facie disparate impact
claim. Plaintiff ICP states that the following events
show how Defendants’ policy caused a disparate impact:
•

Defendant Lincoln Property Company has a
general policy that it will not negotiate with
or rent to households with vouchers. Lincoln
Property Company applies this policy in White
non-Hispanic areas. Lincoln Property Company applies this policy even when the combined income of the family and the voucher
subsidy meet or exceed the contract rent for
the unit.

•

Defendant Lincoln Property Company has a
general policy that it will not negotiate with,
rent to, or make units available to voucher
holders . . . Defendant Lincoln Property Company applies this policy to the multifamily
units it manages for the other Defendants.

128a
•

Defendant Lincoln Property Company advertises its policy of refusing to negotiate with or
rent to voucher households. Defendant Lincoln
Property Company places the advertisements
with internet apartment locators seeking applicants for vacant Lincoln Property Company
units.

•

Defendant Lincoln Property Company and
the other multifamily property management
companies with rental units available at
voucher program rents consistently refuse to
rent to voucher families.

•

Defendant Lincoln Property Company’s policy
to not negotiate with or rent to voucher households is implemented at its multifamily rental
projects located in majority White non-Hispanic
census tracts in the Dallas metropolitan area
focusing on Collin, Dallas, Denton, and Rockwall counties.

•

Defendant Lincoln Property Company’s policy
makes Defendant Lincoln Property Company’s
managed multifamily units unavailable to a
population that is disproportionately Black or
African American based on the percent of the
Black or African American renter households
that are income eligible for vouchers compared to the percent of the White population
that is income eligible for vouchers.

•

Plaintiff ICP’s voucher clients are predominantly Black. Plaintiff ICP has Black voucher
clients who are eligible under Defendant Lincoln Property Company’s Application Criteria
and with whom Plaintiff ICP would have

129a
entered into subleases for available units. Defendants had units available in non-minority
concentrated, high opportunity areas for which
the contract rent was within the amount that
could have been paid under the voucher program. Defendants refused to either negotiate
or enter into leases pursuant to Plaintiff ICP’s
offer. Units continue to be available at the
contract rents that could be paid under the
voucher program.
•

The Dallas area voucher households are predominantly African American or Black. There
are African American or Black voucher clients
who are eligible under Defendant Lincoln
Property Company’s Application Criteria and
who would have entered into leases for available units. Defendants had units available in
non-minority concentrated, high opportunity
areas for which the contract rent was within
the amount that could have been paid under
the voucher program. Defendants refuse to
either negotiate or enter into leases with
voucher households unless required to do so
by law or other government requirement.
Units continue to be available at the contract
rents that could be paid under the voucher
program.

(Doc. No. 39 at 7–9).
The existence of statistical disparities in the census tracts where Defendants’ apartment complexes are
located are also presented by Plaintiff ICP. Black or African American renters are alleged to occupy 14 percent of the 630 rental units in the small census tract

130a
block group where Defendant Legacy’s Parkside at
Legacy apartment complex is located. Black or African
American renters are also alleged to occupy 11 percent
of 1,022 rental units in the small census tract block
group where the White Rock Lake Apartment Villas
complex is located. No Black or African American
renters are alleged to be in the small census tract block
group where the Park Central at Flower Mound apartment complex is located. It is also alleged that no Section 8 voucher households are in the small census
tracts where the Park Central at Flower Mound, White
Rock Apartment Villas, and Parkside at Legacy apartment complexes are located.
The statistical information and arguments presented by Plaintiff ICP is conclusory rather than descriptive of how Defendants’ policy actually caused a
disparate impact. “A plaintiff who fails to allege facts
at the pleading stage or produce statistical evidence
demonstrating a causal connection cannot make out a
prima facie cause of disparate impact.” Texas Dep’t of
Hous. & Cmty. Affairs, 135 S. Ct. at 2523.
The Court finds no causal connection. Plaintiff
ICP contends that Defendants’ policy perpetuates segregation and made rental units disproportionately
unavailable to African American or Black voucher
holders. Plaintiff ICP provides no information to show
how Defendants’ policy has caused the racial disparity,
or resulted in an increased amount of African American or Black prospective renters being rejected in each
of the Defendants’ census tracts.

131a
Plaintiff ICP also fails to show how Defendants’
policy adversely effected Black or African American
prospective renters. None of the allegations show or infer that Defendants’ policy diminished the amount of
rental opportunities for African American or Black
prospective tenants previously available before Defendants’ policy was implemented. There is no way for
the Court to link Defendants’ policy with the alleged
statistical disparities in Plaintiff ICP’s allegations.
“[R]acial imbalance . . . does not, without more, establish a prima facie case of disparate impact.” Texas Dep’t
of Hous. & Cmty. Affairs, 135 S. Ct. at 2523 (quoting
Wards Cove Packing Co. v. Atonio, 109 S. Ct. at 2122–
23). Plaintiff ICP’s disparate impact claims against Defendants are dismissed.
c. Plaintiff ICP’s disparate impact claims
also fail because Plaintiff’s less discriminatory alternatives are inadequate.
Even if Plaintiff ICP met its burden to establish a
prima facie showing of disparate impact, Plaintiff ICP
does not establish a disparate impact claim. For a disparate impact claim under the Fair Housing Act, there
is a burden-shifting framework that must be met. If
the plaintiff meets the burden of establishing a prima
facie case, the defendant must then prove that the
challenged practice is necessary to achieve one or more
substantial, legitimate, nondiscriminatory interests
of the defendant. See 24 C.F.R. § 100.500(c)(2); Inclusive Communities Project, Inc., 2016 WL 4494322, at *4
(adopting the burden-shifting framework under 24

132a
C.F.R. § 100.500). If the defendant meets its burden,
the plaintiff must then show that the defendant’s interests could be served by another practice that has a
less discriminatory alternative. 24 C.F.R. § 100.500(c)(3).
Defendants Section 8 housing voucher policy was
implemented for “substantial, legitimate, nondiscriminatory interests.” Business concerns such as increased
costs, administrative delays in receiving payment, and
other financial risks are all reasons why landlords
choose not to participate in the Section 8 housing
voucher program. See 24 C.F.R. §§ 982.401, 982.405; 42
U.S.C. § 1437f; TEX. LOCAL GOV’T CODE § 250.007. Defendants have similar concerns.
The proposals of the Third Party Guarantor Program and Sublease Program acknowledge Defendants’
legitimate business concerns of increased costs, administrative delays for payment, and other financial risks.
For the Third Party Guarantor Program, Plaintiff ICP
offered to provide incentive payments and to serve
as a third party guarantor to eliminate any economic
business concerns Defendants could have. For the Sublease Program, Plaintiff ICP shows that Plaintiff ICP
seeks to address Defendants’ economic or administrative concerns by offering to serve as a corporate entity
subleasing to Section 8 voucher holders. Describing the
Sublease Program Plaintiff ICP states, “ICP has its
own experience as a landlord dealing with Dallas
Housing Authority and other voucher agencies in the
area and understands some of the concerns.” Because of
business concerns that are acknowledged by Plaintiff,

133a
Defendants’ Section 8 policy was implemented for legitimate, nondiscriminatory business interests.
“Before rejecting a business justification . . . a
court must determine that a plaintiff has shown that
there is an available alternative . . . practice that has
less disparate impact and serves the [defendants’] legitimate needs.” Texas Dep’t of Hous. & Cmty. Affairs,
135 S. Ct. at 2518 (quoting Ricci v. DeStafano, 129
S. Ct. 2658, 2673 (2009)) (quotation marks omitted).
Although Plaintiff ICP proposed the incentive
payments, Sublease Program, and Third Party Guarantor Program to alleviate Defendants’ anticipated
business concerns, the programs are not adequate to
serve as less discriminatory alternatives. Plaintiff ICP’s
proposals, while laudable, do not show how or if the
proposed programs have performed, or if Plaintiff ICP
can financially support the programs. If Plaintiff ICP’s
programs are not successfully executed, then Defendants could experience financial harm.
Defendants could also be subject to litigation for
deciding to participate in Plaintiff ICP’s programs because it could result in favoritism of Section 8 voucher
holders that Plaintiff ICP represents. Participation in
Plaintiff ICP’s programs could create legitimate issues.
Defendant Brick Row posed a fair question which is
also applicable to the other Defendants, “Can the ICP
seriously contend that [Defendants] can continue [to]
refus[e] to accept vouchers from White, Hispanic and
handicapped tenants, if [Defendants] begin[ ] accepting
vouchers from Black tenants under ICP’s programs,

134a
without increasing the risk of litigation?” Plaintiff
ICP’s programs were legitimately refused by Defendants and are not less discriminatory alternatives that
can adequately serve Defendants’ business interests.
Even if Plaintiff ICP proved a prima facie case of disparate impact, Plaintiff ICP’s disparate impact claims
against Defendants Legacy, CPF PC Riverwalk, HLI
White Rock, and Lincoln Property Company are dismissed.
VI. Plaintiff ICP fails to plead facts that show
that Defendant Lincoln Property Company’s
advertisements violate 42 U.S.C. § 3604(c).
Plaintiff ICP alleges that Defendant Lincoln Property Company’s advertisements are racially discriminatory and violate 42 U.S.C. § 3604(c) of the Fair
Housing Act. Defendant Lincoln Property Company’s
advertisements state
•

Our community is not authorized to accept
housing vouchers.

•

Our community is not authorized to accept
Section 8 housing.

•

Our community is not authorized to accept
any government subsidized rent programs.

•

No 2nd chance leasing, and no vouchers accepted.

Section 3604(c) of the Fair Housing Act prohibits advertisements for rental dwellings that show preference

135a
or discriminate based on race or color. 42 U.S.C.
§ 3604(c) states that
it shall be unlawful . . . [t]o make, print, or
publish, or cause to be made, printed, or published any notice, statement, or advertisement, with respect to the sale or rental of a
dwelling that indicates any preference, limitation, or discrimination based on race, color,
religion, sex, handicap, familial status, or national origin, or an intention to make any such
preference, limitation, or discrimination.
42 U.S.C. § 3604(c).
This Court must analyze whether Defendants violated § 3604(c) using precedents from other circuits
since it has not been established how this Court should
analyze this issue by the Fifth Circuit. The standard
that is applied to determine if the advertisement violates § 3604(c) is if the advertisement suggests to an
“ordinary reader” that a particular race is preferred or
not preferred for the housing in question. See, e.g.,
Ragin v. New York Times Co., 923 F.2d 995, 999 (2d Cir.
1991) (adopting this standard when analyzing a possible § 3604(c) violation); Spann v. Colonial Vill., Inc.,
899 F.2d 24, 29 (D.C. Cir. 1990) (same standard);
United States v. Hunter, 459 F.2d 205, 215 (4th Cir.
1972), cert. denied, 93 S. Ct. 235 (1972) (same standard). An “ordinary reader” is neither the most suspicious nor the most insensitive person in our society.
Miami Valley Fair Hous. Ctr., Inc. v. Connor Grp., 725
F.3d 571, 577 (6th Cir. 2013) (quotation marks omitted); Jancik v. Dep’t of Hous. & Urban Dev., 44 F.3d 553,

136a
556 n.4 (7th Cir. 1995); Ragin, 923 F.2d at 1002. “[Section 3604(c)] prohibits all ads that indicate a racial
preference to an ordinary reader whatever the advertiser’s intent.” Ragin, 923 F.2d at 1000. See also Jancik,
44 F.3d at 556.
A split among the circuits exists as to what constitutes showing racial “preference” under the “ordinary
reader” standard for § 3604(c). The Second and the
Seventh Circuits have interpreted showing “preference” to mean that the policy could possibly “discourage” an ordinary reader from considering to rent or buy
a dwelling. See Jancik, 44 F.3d at 556; Ragin, 923 F.2d
at 999–1000 (“[W]e read the word ‘preference’ to describe any ad that would discourage an ordinary
reader of a particular race from answering it.”). The
Sixth and Fourth Circuits, however, choose not to incorporate the “discourage” language into its analysis of
whether something violates § 3604(c). The Fourth Circuit and the Sixth Circuit analyze whether “preference” is shown by simply analyzing whether the policy
indicates any type of racial preference. See Miami
Valley Fair Hous. Ctr., 725 F.3d at 578 (“We decline to
incorporate the discourage language into our ordinaryreader analysis”); Hous. Opportunities Made Equal,
Inc. v. Cincinnati Enquirer, a Div. of Gannett Co., 943
F.2d 644, 646 (6th Cir. 1991); Hunter, 459 F.2d at 215.
This difference of opinion between the circuits, however, does not impact this Court’s analysis. If the Court
used either description of “preference,” Defendant Lincoln Property Company’s Section 8 policy does not
show racial preference.

137a
This Court will analyze whether Plaintiff ’s
§ 3604(c) claim should be dismissed at the motion to
dismiss stage by using a case that involved a similar
allegation of a subtle presence of racial preference in
defendant’s advertisements.
At the motion to dismiss stage, a racial preference
can be shown that would deny dismissal of a plaintiff ’s
complaint if race is used, even subtly, to show racial
preference in a defendant’s advertisements. Ragin, 923
F.2d at 999. In Ragin v. New York Times Co., the Second
Circuit affirmed the district court’s denial of the defendant, The New York Times’ motion to dismiss plaintiffs’ § 3604(c) claim. Id. at 998. The plaintiffs were
readers of The New York Times that were African American or Black prospective renters and home buyers
seeking housing in the New York metropolitan area.
Id. The plaintiffs did not allege that any words included in the advertisements showed racial preference,
but only that the mere depictions of the human models
of particular races were enough to show a possible
§ 3604(c) violation. Id. For twenty years, The New York
Times was alleged to have published real estate advertisements featuring human models that represented
potential home buyers that were almost always White,
and never Black. Id. The few Black models included in
the real estate advertisements were alleged to depict
either potential renters or home buyers in predominantly Black communities or individuals such as building maintenance employees, doormen, entertainers,
sports figures, or small children. Id.

138a
The plaintiffs’ allegations stated that The New
York Times’ use of models of particular races in real
estate advertisements amounted to a violation of
§ 3604(c) and conveyed an illegal racial message. Id. at
1000. The repeated publishing of White models and noticeable absence of Black models in the advertisements
allegedly indicated the preferred race of the occupants
of the building. Id. at 998.
The court rejected the argument made by The New
York Times that only advertisements published that
include provocative or blatant expressions of a racial
preference are capable of violating § 3604(c). Id. at 999.
The court held that plaintiffs’ complaint could not be
dismissed for failure to state a claim because it could
potentially be revealed that the usage of certain models of certain races indicated a racial preference. Id. at
1001. Racial preference was held by the court to be
shown in an advertisement if the advertisement would
discourage an ordinary reader of a particular race from
answering it. Id. at 999–1000. The court stated that a
trier of fact may conclude that in some circumstances
a twenty year pattern of using models of a particular
race for advertisements can be perceived by an ordinary reader as showing a racial preference. Id. at
1000–02. The subtle usage of race when using models
of a particular race for real estate advertisements was
enough to deny the dismissal of plaintiffs’ § 3604(c)
claim. Id.
Unlike the advertisements in Ragin, Defendant
Lincoln Property Company’s advertisements do not
involve race or show any sort of racial preference.

139a
Defendant Lincoln Property Company simply put in
writing its refusal to participate in the voluntary Section 8 housing voucher program. The advertisements
in Ragin, which are interwoven with signals of possible
racial preference because of the race of the models, are
unlike Defendant Lincoln Property Company’s advertisements that do not incorporate race in any way.
Plaintiff ICP asserts that Defendant’s advertisements mentioning “housing vouchers,” “Section 8
housing,” and “government subsidized rent programs”
signal a reference to Black or African American rental
applicants. Plaintiff ICP contends that Defendant’s advertisements “encourage White non-Hispanic or other
non-Black tenants who want to avoid living with Black
neighbors to apply for housing” and discourage Black
or African American rental applicants from applying
for housing. The Court disagrees with Plaintiff ICP.
The population of Section 8 voucher holders in
the Dallas, Texas metropolitan area is composed of individuals of different races and colors. One race is
not synonymous with the words “Section 8 housing,”
“government subsidized rent program,” or “housing
voucher.” Defendant Lincoln Property Company’s advertisements do not single out a race and state that it
rejects housing vouchers or government subsidized
rent only from individuals that are of a certain race or
color, which would show racial preference or discrimination. See, e.g., Hunter, 459 F.2d at 215–16 (holding
that an advertisement for a “white home” showed preference and violated § 3604(c)).

140a
Plaintiff ICP also does not provide support to show
the advertisements would create the perception to an
ordinary reader that African American or Black rental
applicants are discouraged to apply for housing or that
White rental applicants are encouraged to apply for
housing. Plaintiff ICP attempts to support its assertion
that a reference to “Section 8” is equivalent to referencing Black or African American rental applicants by
alleging that White residents at a McKinney pool incident “taunted the Blacks as being ‘Section 8’ and needing to leave the pool . . . and go back to their ‘Section 8’
homes.” This “Section 8” classification during this isolated incident, assuming it is true, could have been
made for a variety of reasons besides race. Plaintiff
ICP fails to convince the Court that an ordinary reader
would automatically equate Section 8 housing with
Black or African American rental applicants.
Nothing in Defendant Lincoln Property Company’s advertisements of its Section 8 policy indicate
an underlying racial preference or that race is involved
in any way. Unlike the court in Ragin that had a subtle,
yet unmistakable, racial link because of the particular
races of the models in the advertisements for the court
to consider when deciding to deny the dismissal of
plaintiffs’ § 3604(c) claim, Defendant Lincoln Property
Company’s advertisements have no hidden or facially
present racial element. See Ragin, 923 F.2d at 999–
1002.
Because Defendant Lincoln Property Company’s
advertisements do not show racial preference, intent to

141a
show racial preference, or discriminate based on race,
the Court dismisses Plaintiff ICP’s § 3604(c) claim.
VII. Conclusion
The Court GRANTS Defendant Lincoln Property
Company’s Motion to Adopt Defendants Brick Apartments LLC’s Rule 12(b)(6) Motion to Dismiss and Legacy Multifamily North III LLC and HLI White Rock
LLC’s Rule 12(b)(6) Motion to Dismiss (Doc. No. 34).
The Court also GRANTS Defendants Legacy and HLI
White Rock’s Motion to Dismiss Complaint for Failure
to State a Claim and Brief in Support (Doc. No. 32),
Defendant Lincoln Property Company’s Motion to Dismiss Pursuant to Federal Rule 12(b)(6) (Doc. No. 33),
and CPF PC Riverwalk’s Motion to Dismiss ICP’s Complaint for Failure to State a Claim and Supporting
Brief (Doc. No. 42). The Court dismisses Plaintiff ICP’s
Complaint against Defendants Legacy, HLI White
Rock, CPF PC Riverwalk, and Lincoln Property Company.
SO ORDERED.
Signed August 16th, 2017
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES
DISTRICT JUDGE

142a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
THE INCLUSIVE
§
COMMUNITIES PROJECT, INC., §
§
Plaintiff,
§ Civil Action No.
v.
§ 3:17-CV-206-K
§
LINCOLN PROPERTY
§
COMPANY, et. al.,
§
Defendants.
§
FINAL JUDGMENT
(Filed Aug. 16, 2017)
This Judgment is entered pursuant to the Court’s
Memorandum Opinion and Order of this same date, in
which the Court GRANTED Defendants’ Motions to
Dismiss.
It is ORDERED, ADJUDGED and DECREED
that Plaintiff takes nothing by its suit against Defendants and that Plaintiff ’s claims are DISMISSED with
prejudice. All parties shall bear their own costs and
attorneys’ fees.

143a
SO ORDERED.
Signed August 16th, 2017.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT
JUDGE

144a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-10943
-----------------------------------------------------------------------

THE INCLUSIVE COMMUNITIES PROJECT, INCORPORATED,
Plaintiff - Appellant
v.
LINCOLN PROPERTY COMPANY; LEGACY MULTIFAMILY NORTH III, L.L.C.; CPF PC RIVERWALK,
L.L.C.; HLI WHITE ROCK, L.L.C.; BRICK ROW
APARTMENTS, L.L.C.,
Defendants - Appellees
----------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
----------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Opinion 04/09/2019, 5 Cir., 920 F.3d 890)
(Filed Jul. 16, 2019]
Before DAVIS, JONES, and ENGELHARDT, Circuit
Judges.
PER CURIAM:
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on

145a
Rehearing En Banc (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is DENIED.
(🗸) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is DENIED. In the poll, 7 judges voted in favor of rehearing (Chief Judge Stewart and Judges Dennis,
Southwick, Haynes, Graves, Higginson, and
Costa) and 9 judges voted against rehearing
(Judges Jones, Smith, Owen, Elrod, Willett, Ho,
Duncan, Engelhardt, and Oldham).
ENTERED FOR THE COURT:
/s/ Kurt D. Engelhardt
KURT D. ENGELHARDT
UNITED STATES CIRCUIT
JUDGE

-----------------------------------------------------------------------

No. 17-10943
-----------------------------------------------------------------------

HAYNES, Circuit Judge, joined by STEWART, Chief
Judge, and DAVIS, DENNIS, SOUTHWICK, GRAVES,
and HIGGINSON, Circuit Judges, dissenting from the
denial of rehearing en banc:

146a
Our court previously determined that the Fair
Housing Act (“FHA”) allows for disparate impact
claims.1 Inclusive Cmtys. Prof., Inc. v. Tex. Dep’t of Hous.
& Cmty. Affairs, 747 F.3d 275 (5th Cir. 2014) (Texas v.
ICP I). The Supreme Court affirmed. Tex. Dep’t of Hous.
& Cmty. Affairs v. Inclusive Communities Proj., Inc.,
135 S. Ct. 2507, 2515–16 (2015) (Texas v. ICP II). Yet
the panel majority opinion now renders that decision
almost meaningless by crafting an impossible pleading
standard. Inclusive Cmtys. Prof. v. Lincoln Prop. Co.,
920 F.3d 890 (5th Cir. 2019) (Lincoln). This case involves an important statute in a large city within a circuit full of large cities that contain numerous locations
housing large, minority populations. The case is thus
worthy of rehearing en banc. Unfortunately, a majority
of our court disagrees, so en banc rehearing of this important, incorrectly-decided case has been denied.
From that denial, I respectfully dissent.
It is unnecessary to repeat the excellent dissenting opinion. Lincoln, 920 F.3d at 912–25. I write to
highlight a few points. The majority opinion incorrectly
affirmed the district court’s Rule 12(b)(6) dismissal of
Plaintiff ’s disparate impact claim under the FHA. I
have two main concerns with the majority opinion.
First, it expands and overstates the Supreme Court’s
requirement of “robust causation,” as set forth in its
1

There are two kinds of disparate impact claims: those “alleging a disparate impact on minorities with respect to the availability of housing” and “claims alleging perpetuation of
segregation.” Inclusive Cmtys. Prof. v. Lincoln Prop. Co., 920 F.3d
890, 917 (5th Cir. 2019) (Davis, J., dissenting). I conclude that
ICP has properly pleaded both.

147a
decision in Texas v. ICP II. Second, it makes a plaintiff ’s burden nearly insurmountable at the initial
pleading stage in litigation by requiring immutable
proof rather than plausible allegations. See Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007).
The FHA prohibits refusing “to sell or rent after
the making of a bona fide offer, or to refuse to negotiate
for the sale or rental of, or otherwise make unavailable
or deny, a dwelling to any person because of race . . . ”
42 U.S.C. § 3604(a). The federal Housing Choice
Voucher program, known as Section 8, pays rental subsidies to assist “low-income families in obtaining a decent place to live” in order to promote “economically
mixed housing.” 42 U.S.C. § 1437f(a). Landlord participation in the voucher program is voluntary under both
federal and Texas state law. Id.; see also 24 C.F.R.
§ 982.301(b)(11). The majority opinion provides a detailed description of the allegations set forth in Plaintiff ’s complaint. See Lincoln, 920 F.3d at 895–99.
Briefly, ICP describes itself as a “fair housing focused
nonprofit organization working with households seeking access to housing in predominately non-minority
locations in the Dallas area.” ICP’s mission includes
“counseling, financial assistance, and other services to
Black or African American households participating in
the Section 8 Housing Choice Voucher Program administered by the Dallas Housing Authority (DHA).” ICP’s
housing mobility assistance to its DHA voucher clients
is part of the relief recommended by this court to remedy the intentional segregation of public housing by
the federal government, the City of Dallas, and the

148a
DHA, as described in Walker v. City of Mesquite, 169
F.3d 973, 984–88 (5th Cir. 1999). ICP pleaded that it
had been “providing housing mobility services to its
DHA voucher clients since 2005.”
ICP provides guarantor services to facilitate the
voucher program. But, contrary to the goals of the
FHA, landlords in predominantly white areas often refuse vouchers. Specifically here, ICP identifies various
high-opportunity apartment complexes managed by
Defendant Lincoln Property Company2 in the Dallas
metropolitan area and alleges Lincoln has a policy that
it will not negotiate with, rent to, or otherwise make
units available in predominantly white, non-Hispanic
areas to voucher households.3 Lincoln’s policy applies
to apartment complexes located in majority white census tracts that have units available at rents payable
under the voucher program. ICP notes that it attempted to negotiate with Lincoln on behalf of voucher
clients to no avail. ICP asserts that Lincoln’s policy,
which Lincoln advertises, causes voucher households
in the Dallas area to live in racially concentrated and
predominantly minority areas of high poverty that
are marked by substantially unequal conditions. ICP
thus alleged that this policy disparately impacts
African-American households in the Dallas area and
2

ICP names several other defendants who own apartment
complexes managed by Lincoln. Because Lincoln manages all the
other defendants’ complexes, and the “no voucher” policy is theirs,
the only defendant we refer to is Lincoln.
3
Specifically, ICP alleges that the defendants have a general
policy, which they advertise, “of refusing to negotiate with or rent
to voucher households.”

149a
perpetuates segregation—ICP asserts the group affected by Lincoln’s policy is over 80% African-American
and 10% or less white, while the non-voucher population, the group unaffected by Defendants’ policy, is allegedly 19% African-American and 53% white.
ICP alleged that its ability to assist its voucher clients in obtaining housing in high-opportunity areas is
“obstructed by Defendants’ discriminatory housing
practices,” ICP argued that this “no vouchers” policy violates the disparate impact standard of liability under
the FHA, 42 U.S.C. § 3604(a), in two ways: (1) by causing the perpetuation of segregation (segregative-effect
claim) and (2) by causing disproportionate harm to African-American households (traditional disparate impact claim).
With this factual summary in mind, we turn to the
law. Both the majority and dissenting opinions agree
that the key case to be applied here is Texas v. ICP II,
where the Supreme Court interpreted § 3604 of the
FHA to include disparate impact claims. It defined
such claims as asserting an unjustified and disproportionately adverse effect on minorities in the context of
claims against a Texas governmental entity. Texas v.
ICP II, 135 S. Ct. at 2513 (“The underlying dispute in
this case concerns where housing for low-income persons should be constructed in Dallas, Texas—that is,
whether the housing should be built in the inner city
or in the suburbs.”). It is worth emphasizing that the
only issue before the Supreme Court in Texas v. ICP II
was “whether disparate impact claims are cognizable
under the Fair Housing Act . . . ” Id. Notably, the

150a
procedural posture was quite different from the current case: the district court had granted the plaintiff a
partial summary judgment and the remainder of the
case had been tried. Texas v. ICP I, 747 F.3d at 278–80.
Texas v. ICP II described the HUD standard4 for
assessing disparate impact liability, which our circuit
had adopted in the underlying case. 135 S. Ct. at 2514.
It affirmed our decision, which had applied the HUD
standard. Id. at 2526. Nonetheless, our sister circuits
(now joined by our circuit in the majority opinion) disagree on the applicability of the HUD standard. Compare Mhany Mgmt., Inc. v. Cty. of Nassau, 819 F.3d 581,
618 (2d Cir. 2016), with Reyes v. Waples Mobile Home
Park L.P., 903 F.3d 415, 424 n.4 (4th Cir. 2018). After
considering disparate impact cases under Title VII and
the ADEA, the Court found that recognizing disparate
impact claims under the FHA is consistent with the
FHA’s central purpose: “to eradicate discriminatory
practices within a sector of our Nation’s economy.”
Texas v. ICP II, 135 S. Ct. at 2521. Essentially, “not only
overt discrimination[,] but also practices that are fair
in form [ ] but discriminatory in operation,” are unlawful under the FHA. Id. at 2517.

4

The U.S. Department of Housing and Urban Development
(“HUD”) regulations state that a plaintiff must first prove a prima
facie case of discrimination under the FHA by showing that the
challenged practice has a discriminatory effect. See 24 C.F.R.
§ 100.500(c)(1). If a plaintiff makes a prima facie case, a defendant must show that the challenged practice is necessary to
achieve one or more of a defendant’s substantial, legitimate, nondiscriminatory interests. Id. § 100.500(c)(2).

151a
Finding that the FHA includes disparate impact
liability, the Court went on to explain the cause of action and its limitations. The “heartland” of disparate
impact liability, the Court held, includes zoning laws
and housing restrictions that “function unfairly to exclude minorities from certain neighborhoods without
sufficient justification.” Id. at 2522. Disparate impact
liability “has always been properly limited,” suggesting
that it was importing prior disparate impact-liability
caselaw into its analysis under the FHA. Id. (emphasis
added).
Contrary to the majority opinion’s view, the Supreme Court’s Texas v. ICP II opinion principally rejected liability “based solely on a showing of statistical
disparity.” Id. (emphasis added). In addition to statistical disparity, the Court required there be “artificial,
arbitrary, and unnecessary barriers”: in other words, a
policy. Id. at 2522–23 (quoting Griggs v. Duke Power
Co., 401 U.S. 424, 431 (1971)). This is what the Court
describes as a “robust causality requirement,” a statistical disparity that is caused by the defendant’s policy.5
5

The Court wrote that:
a disparate impact claim that relies on a statistical disparity must fail if the plaintiff cannot point to a defendant’s policy or policies causing that disparity. A robust
causality requirement ensures that “[r]acial imbalance
. . . does not, without more, establish a prima facie case
of disparate impact.”
Id. at 2523. The Court’s reference to a “robust causality requirement” referred to the existence of a causal connection between the
defendants’ policy and a statistical disparity. It did not add anything more.

152a
Id. at 2523. The Court observed that a decision between two developments likely would not be considered a policy, and therefore would not constitute a
prima facie case of disparate impact.
In addition to requiring more than simply a statistical disparity, the Court noted that defendants need
“leeway to state and explain the valid interest served
by their policies.” Id. at 2522. This standard highlights
that the Supreme Court in Texas v. ICP II was reviewing a case in which a partial summary judgment had
been entered for the plaintiff and a trial held on the
remainder. Thus, unsurprisingly, the Court did not
spend much time on pleading requirements. The famous Twombly and Iqbal cases went unmentioned by
the majority opinion. Ashcroft v. Iqbal, 556 U.S. 662,
679 (2009); Twombly, 550 U.S. at 570. Surely, if the
Court intended to create a brand new pleading requirement in FHA cases, it would have at least said so,
examining and contrasting those two important precedents.
Thus, the key to a disparate impact claim is a policy that creates the statistical disparity. Turning to the
facts in our case, Defendants advertised their policy of
refusing to rent to voucher holders. So, we know there
is a policy. ICP did not just reference evidence that Defendants’ apartment complexes are occupied by a disproportionately low percentage of African-American
renters with no allegation that the Defendants have a
policy causing this low-minority occupancy rate. ICP
identified Defendants’ “no vouchers” policy as causing
this discriminatory effect and submitted statistical

153a
information specifically showing how the policy operates to exclude more African-American renters than
white renters from housing at Defendants’ properties.
That information indicates that the voucher population in the Dallas area, the group affected by Defendants’ policy, is over 80% African-American and 10% or
less white. The non-voucher population in the Dallas
area, the group unaffected by Defendants’ policy, is alleged to be 19% African-American and 53% white.
Although ICP has not alleged all the data necessary to
calculate the exact statistical disparity, it has alleged
enough factual information to make its disparate impact claim plausible and to permit an inference that
ICP will ultimately be able to show the exact disparity
resulting from Defendants’ “no vouchers” policy. See
Twombly, 550 U.S. at 556 (stating that plausibility
standard “calls for enough fact[s] to raise a reasonable
expectation that discovery will reveal evidence” supporting the plaintiff ’s claim).
How, then, did ICP lose this case at the early
pleading stage? The majority opinion focused and expanded on what the Supreme Court meant by “robust
causation” in its Texas v. ICP II decision, ignoring the
Rule 12(b)(6) posture we have here.6 The majority
6

Aside from the majority opinion in this case, every federal
court to address whether a plaintiff adequately pleaded an FHA
claim where the complaint alleged both a statistical disparity and
a policy causing that disparity has held for the plaintiff. See
Reyes, 903 F.3d at 433 (finding plaintiff had made a prima facie
case for a disparate impact claim under the FHA); Nat’l Fair
Hous. All. v. Fed. Nat’l Mortg. Assn (“Fannie Mae”), 294 F. Supp.
3d 940 (N.D. Cal. 2018) (same); Nat’l Fair Hous. All. v. Travelers

154a
opinion held that Texas v. ICP II “undoubtedly announce[d] a more demanding test than that set forth
in the HUD regulation.” Lincoln, 920 F.3d at 902. Specifically, the majority opinion notes that the Supreme
Court in Texas v. ICP II instituted a “robust causality
requirement” at the prima facie stage, which “ensures
that ‘[r]acial imbalance . . . does not, without more, establish a prima facie case of disparate impact.’ ” Texas
v. ICP II, 135 S. Ct. at 2523. But the Supreme Court
stated only that the robust causality requirement
“must fail if the plaintiff cannot point to a defendant’s
policy or policies causing that disparity.” Texas v. ICP
II, 135 S. Ct. at 2523. Moreover, in Texas v. ICP II, the
Supreme Court relied on its earlier decisions in Griggs,
401 U.S. 424 (finding a disparate impact in passage of
a test, which was unrelated to the job, sufficient to
state a claim under Title VII), and Wards Cove Packing
Co. v. Atonio, 490 U.S. 642 (1989) (holding that a disparate impact alone is not enough; it must stem from
the specific employment policy being challenged), and
lit a clear path for us to follow in determining the causation standard for successfully asserting a disparate
impact claim under the FHA.
Relying on the dissenting opinion in the Fourth
Circuit’s decision in Reyes, 903 F.3d at 433–435, the
majority opinion interprets “robust causation” to require ICP to do the impossible. The majority opinion
Indent. Co., 261 F.Supp.3d 20 (D.D.C. 2017) (same); Ave. 6E Invs.,
LLC v. City of Yuma, Ariz., 217 F.Supp.3d 1040 (D. Ariz. 2017)
(same); R.I. Comm’n for Human Rights v. Graul, 120 F.Supp.3d
110 (D.R.I. 2015) (same).

155a
“imposes the burden on ICP to show that Defendants’
blanket ‘no vouchers’ policy, or any change therein,
caused black persons to be the dominant group of
voucher holders in the Dallas metro area.” Lincoln, 920
F.3d at 907. This is not the disparity that ICP alleged
the Defendants’ “no vouchers” policy caused, and it is
not the disparity ICP is required to show under any
jurisprudence.
The majority opinion incorrectly interprets “robust causation” to require a plaintiff with a disparate
impact claim to establish that the challenged policy
caused a “pre-existing” condition or that the challenged
policy was previously unenforced. Lincoln, 920 F.3d at
921. But there is no precedent to support such a construction of robust causation.
In Reyes, the Fourth Circuit held the plaintiff ’s
disparate impact claim should continue past the motion to dismiss stage. 903 F.3d at 423. The majority
opinion in the case before us states that Reyes should
be read narrowly, and a significant factor in that case
was that it addressed “a change in the defendant’s enforcement of its policy.” Lincoln, 920 F.3d at 906 (emphasis added). But Texas v. ICP II makes no such
distinction—the Supreme Court requires only a policy
or practice, not a change in enforcement. The majority
opinion then uses the Reyes dissent to support its argument. Id. The statistics ICP alleges make it plausible that, while facially neutral, Lincoln’s no voucher
policy excludes more African-American renters from
housing at Lincoln’s properties than white renters, and

156a
thus has a discriminatory effect or perpetuates segregation in violation of the FHA.
The majority opinion posits that adopting the dissenting opinion “would effectively mandate a landlord’s participation in the voucher program any time
the racial makeup of [a] multi-family rental complex
does not match the demographics of a nearby metropolitan area.” Id. at 908. This concern, however, is unfounded for several reasons. First, plaintiffs must point
to a specific policy that causes the discriminatory effect
or perpetuates segregation and a statistical discrepancy—many plaintiffs will be unable to do so. Next,
landlords face no liability from plaintiffs surviving a
motion to dismiss. Plaintiffs still must present evidence to a jury or judge, and may not survive summary
judgment. Requiring a change in enforcement to prove
disparate impact would eliminate disparate impact liability for those entities that, at the outset, institute a
policy that is artificial, arbitrary, or unnecessary, and
also causes a statistical disparity. Furthermore, the
other safeguards outlined by the Court, namely, that
defendants have an opportunity to explain the necessity of the policy for business or public policy reasons,
and the requirement that the plaintiff show that a less
discriminatory alternative is available, would prevent
liability for legitimate policies. Texas v. ICP II, 135
S. Ct. at 2518.
Footnote 9 of the majority opinion attempts to
poke holes in the statistics ICP alleges by noting one
defendant stated ICP’s statistics were “cherry-picked.”
But we must accept a plaintiff ’s plausible allegations

157a
as true at the Rule 12(b)(6) stage; technical flaws or
caveats in the statistics may be exposed at later stages
of litigation. Moreover, some of the proof the majority
opinion requires may be impossible without some form
of discovery.7 As the dissenting opinion states, requiring plaintiffs to establish the level of proof the majority
opinion advocates at this stage of litigation “would render disparate impact liability under the FHA a dead
letter” soon after the Supreme Court established disparate impact liability exists under the FHA. Lincoln,
920 F.3d at 924 (Davis, J., dissenting). We should not
heighten the standard for the pleading of a plaintiff ’s
prima facie disparate impact claim under the FHA beyond what Texas v. ICP II requires without further direction from the Supreme Court.
The majority opinion correctly notes that the
voucher program is voluntary and that property
owners are permitted to refuse to accept vouchers.
However, as that same opinion acknowledges: “the voluntary nature of landlord participation in the voucher
program does not render it immune from liability if actionable discrimination under the FHA is established.”
Id. at 901. To sum up, at this early pleading stage, ICP

7

The majority opinion states, “ICP pleads no facts showing
Dallas’s racial composition before [Lincoln] implemented their ‘no
vouchers’ policy or how that composition has changed, if at all,
since the policy was implemented.” Lincoln, 920 F.3d at 907. But
such information is likely impossible without discovery. Discovery
could reveal when a policy was put into place, when and how it
was enforced, and the degree to which racial composition and demographics have changed.

158a
has done what is necessary to state a traditional disparate impact claim.
I turn briefly to the segregative-effect claim version of a disparate impact claim. It has different
elements and requires different evidence from a traditional disparate impact claim. For a segregativeeffect claim, the plaintiff must establish that the defendant has a policy that perpetuates segregation.
Disparate impact claims require a comparison of “how
a challenged policy affects different groups, while
segregative-effect claims focus on how a challenged action affects residential segregation in the area.”8 The
data to prove a segregative-effect claim may include
census-tract data It should indicate the existing locations of the predominantly majority and predominantly minority areas of the town or city and how the
policy being challenged will continue the existing
segregation. I conclude that this additional type of
disparate impact claim has been plausibly alleged, particularly if the majority opinion’s stringent robust causation approach is adopted. No one suggests that
Defendants began the ugly path to segregated housing,
something that has been going on for decades (centuries, even). Instead, they are perpetuating and furthering it. The majority opinion’s requirement that
Plaintiff show that Defendants’ no-voucher policy
caused African-American persons to be the dominant
group of voucher holders ignores one of the main
8

Robert G. Schwemm, Segregative-Effect Claims Under the
Fair Housing Act, 20 N.Y.U. J. LEGIS. & POL’Y 709, 714 (2017)
(collecting cases).

159a
problems sought to be addressed by the FHA: the perpetuation of existing segregation.
Briefly stated, by continuing to exclude minorities
from majority-white neighborhoods, Lincoln is perpetuating and furthering existing segregation. See Anderson Group, LLC v. City of Saratoga Springs, 805 F.3d
34, 42 (2d Cir. 2015) (upholding a jury verdict for a
plaintiff that stated a defendant should incur liability
if it “actually or predictably perpetuated, continued or
maintained a segregation of African-Americans from
predominantly white areas.”) Eliminating such furtherance is part of the FHA’s purpose. “Much progress
remains to be made in our Nation’s continuing struggle
against racial isolation. . . . The court acknowledges
the Fair Housing Act’s continuing role in moving the
Nation towards a more integrated society.” Texas v. ICP
II, 135 S. Ct. at 2525-26. We should do the same.
The majority opinion takes the Supreme Court’s
“robust causality” requirement much further than it
actually went, thus hampering enforcement of the
FHA in three states that have numerous large cities,
including three of the top ten most populous cities in
the country. The impact is great. As explained in the
context of racially-discriminatory jury selection, those
who disagree with laws promoting equality try to find
ways to flout and avoid them. See Flowers v. Mississippi, 139 S. Ct. 2228, 2241–43 (2019). That is what
Lincoln is alleged to be doing here. More than 150
years after the end of the Civil War, more than 100
years after the Supreme Court found de jure residential segregation by race unlawful, Buchanan v. Warley,

160a
245 U.S. 60 (1917), and more than 50 years after the
passage of numerous civil rights laws aimed at eliminating racial and ethnic segregation and discrimination, we are still grappling with the pernicious reach of
segregation, past and present. The majority opinion in
this case moves us backwards on the pathway to equality and integration. The full court should have rectified
that error. Since it did not, I am hopeful that ICP will
seek review from the Supreme Court.

161a
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
The Inclusive
Communities Project, Inc.
Plaintiff,
v.
Lincoln Property Company,
Legacy Multifamily
North III LLC,
CPF PC Riverwalk LLC,
HLI White Rock LLC,
JIK Fields Exchange LLC &
JIK Maine Exchange LLC &
JIK McKinney LLC,
Brick Row Apartments LLC,
Defendants.

*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*

No. 3:17-cv-206

COMPLAINT
(Filed Jan. 23, 2017)
Introduction
1. The federal Housing Choice Voucher program
provides a subsidy to landlords willing to rent units to
very low income and extremely low income households
with a voucher. The subsidy pays the difference between the contract rent and the amount the voucher
households are required to pay which is between 30%
and 40% of their income. 42 U.S.C. § 1437f(o). ICP’s
voucher clients seek ICP’s assistance to find and obtain
dwelling units in safe and secure communities with

162a
higher median incomes, good schools, low poverty
rates, and adequate public and private services and facilities (high opportunity areas).
2. Defendant Lincoln Property Company is a
landlord property management company that rents
multifamily units in high opportunity areas. The other
Defendants are owners of multifamily apartment complexes managed by Lincoln Property Company and located in high opportunity areas. Defendant Lincoln
Property Company has a general policy that it will not
negotiate with or rent to households with vouchers.
Lincoln Property Company applies this policy in White
non-Hispanic areas. Lincoln Property Company applies this policy even when the combined income of the
family and the voucher subsidy meet or exceed the contract rent for the unit. This policy perpetuates racial
segregation in the voucher program in the Dallas area.
This policy makes dwelling units unavailable to a disproportionately Black or African American population.
The Lincoln Property Company policy achieves no legitimate interest and violates the disparate impact
standard for liability under the Fair Housing Act, 42
U.S.C. § 3604(a).
3. ICP made a bona fide offer to Defendants to
negotiate for and to lease units on behalf of ICP’s
voucher clients. The offer included provisions to satisfy
the alleged legitimate business concerns upon which
the refusal to lease to voucher households could be
based. Defendants refused to negotiate with ICP for
the rental of units in violation of the disparate treatment standard of liability under 42 U.S.C. § 3604(a)

163a
and 42 U.S.C. § 1982. Lincoln Property Company’s advertisements of the policy in connection with the rental
of their units perpetuates racial stereotypes and violates 42 U.S.C. § 3604(c). Lincoln Property Company’s
policy refusing to negotiate with or rent to voucher
households is because of race or color in violation of
the disparate treatment standard under 42 U.S.C.
§ 3604(a) and 42 U.S.C. § 1982.
Jurisdiction
4. The Court has jurisdiction pursuant to 42
U.S.C. § 3613(a)(1)(A) and 28 U.S.C. § 1331.
Plaintiff
5. Plaintiff The Inclusive Communities Project,
Inc. (ICP) is a fair housing focused nonprofit organization working with households seeking access to housing in predominately non-minority locations in the
Dallas area. As part of its mission, ICP provides counseling, financial assistance, and other services to Black
or African American households participating in the
Section 8 Housing Choice Voucher (HCV or voucher)
Program administered by the Dallas Housing Authority (DHA).
6. Approximately 86% of the DHA voucher participants are Black or African American. ICP assists
DHA voucher households who choose to lease dwelling
units in non-minority areas with counseling and financial assistance. ICP also operates its sublease/guarantor

164a
program for its clients. ICP’s office is located in the City
of Dallas, Dallas County, Texas. ICP’s clients are Black
or African American. ICP’s clients are predominantly
families with children.
7. ICP is organized to work for the creation and
maintenance of thriving racially and economically inclusive communities, expansion of fair and affordable
housing opportunities for low income families, and redress for policies and practices that perpetuate the
harmful effects of discrimination and segregation. ICP
operates to create and obtain affordable housing in
non-minority concentrated areas within the Dallas
metropolitan area for persons eligible for low income
housing including voucher households. This includes,
among other means, providing the counseling and
other forms of assistance to voucher households seeking to utilize their housing choice voucher to move into
those areas.
8. ICP focuses its housing mobility counseling
and financial assistance resources on helping households find housing in higher opportunity areas with
lower poverty rates, higher median family income, and
higher ranking public schools.
9. ICP’s assistance to its DHA voucher clients is
part of the remedy in the Walker v. HUD public housing desegregation case. The U.S. Court of Appeals for
the Fifth Circuit recommended a desegregation plan to
remedy the intentional segregation of public housing
and Section 8 vouchers by the Federal government, the
City of Dallas, and the Dallas Housing Authority. The

165a
plan included a housing voucher mobility program.
The Fifth Circuit held that this remedy should include
more vouchers and a vigorous mobility program that
served the Black voucher households wishing to move
out of the segregated areas. Walker v. City of Mesquite,
169 F.3d 973, 985, 987-988 (5th Cir. 1999), cert. denied,
528 U.S. 1131 (2000). The United States District Court
adopted the housing mobility program as part of the
remedy. ICP has been providing housing mobility services to its DHA voucher clients since 2005.
10. The housing mobility assistance given by ICP
to all DHA voucher participants begins with providing mobility counseling information to the voucher
participants as they attend DHA’s mandatory voucher
briefings. After the briefings, ICP provides additional
mobility assistance as requested by the households
who want to make and sustain a move to a high opportunity area. This help includes pre-move mobility
counseling and related financial assistance. The housing mobility assistance also includes negotiating with
landlords as necessary to obtain units in the eligible
areas at rents that are affordable by the voucher
households and eligible for the voucher subsidy. The financial assistance ICP provides to these households
may include the payment of application fees and security deposits to assist households moving into housing
that provides opportunities in non-predominantly minority, non-poverty concentrated areas. ICP can also
make landlord incentive bonus payments to landlords
in areas that provide housing opportunities in nonpredominantly minority, non-poverty concentrated areas

166a
who agree to participate in DHA’s voucher program.
ICP makes these payments when it determines that
such incentives are necessary to secure housing for the
voucher households. For example, ICP may provide a
reasonable bonus payment to a landlord if it is necessary to obtain a rent concession in order for a unit to
be eligible for voucher assistance at a rent affordable
to the family or if the bonus payment is necessary to
convince a landlord to participate in DHA’s voucher
program.
11. ICP also offers landlords in high opportunity
areas the option of contracting with ICP to serve either
as a guarantor for DHA voucher households or as the
sublessor for DHA voucher households. Each of these
contractual alternatives may include a landlord incentive bonus paid by ICP. These alternatives are designed by ICP in response to landlord and landlord
trade associations’ stated reasons for refusing to negotiate with or rent to voucher households.
Standing
12. ICP meets the Fair Housing Act definition of
an aggrieved person. 42 U.S.C. § 3602(i). ICP has been
injured by Defendants’ discriminatory housing practices.
13. ICP’s mission is directly connected to the provision of racially integrated housing opportunities
and the elimination of racial segregation. The creation
of racially integrated housing opportunities and the

167a
elimination of racial segregation are purposes of the
Fair Housing Act, 42 U.S.C. § 3601.
14. ICP’s ability to assist its voucher clients in
obtaining dwellings in high opportunity areas is obstructed by Defendants’ discriminatory housing practices. For each unit made unavailable by Defendants’
discrimination, ICP must use additional time and resources to find another unit for its voucher clients.
There is widespread refusal to rent to voucher households by Defendants and other multifamily landlords
with units in high opportunity areas. As a result of this
refusal, some of ICP’s clients are able to obtain single
family dwellings with ICP’s mobility counseling and financial assistance. However, even if the contract rents
for the single family dwellings are within the voucher
program rents, the security deposits paid by ICP to assist its clients in renting these houses are substantially higher than the deposits for multifamily units.
15. If ICP and the voucher client are unable to
obtain a unit in a high opportunity area, then the
household will have to seek housing in areas that include racially concentrated areas of high poverty and
that are marked by substantially unequal conditions.
When the voucher client is unable to obtain a unit outside of the racially concentrated areas of high poverty,
ICP’s resources for the mobility counseling efforts on
behalf of the voucher client have been expended without furthering ICP’s racial integration and desegregation purposes.

168a
16. ICP has a close, essentially representative
relationship with its clients. It acts as their agent in
locating integrated rental housing and negotiating
housing terms. ICP acts as the clients’ representative
in advocacy involving individual matters with the
housing authority. It also acts as the clients’ representatives in advocacy involving institutional issues such
as the amount of the fair market rent that can be paid
in the Housing Choice Voucher Program. ICP is an integral part of its clients’ exercise of their housingrelated protections under the civil rights laws. ICP’s
actions assisting its clients in obtaining racially integrated housing is within the zone of interests of the
Fair Housing Act.
Defendants
17. Defendant Lincoln Property Company owns
and manages multifamily rental projects in the Dallas
metropolitan area as well as elsewhere in the country.
18. Defendants Legacy Multifamily North III
LLC, CPF PC Riverwalk LLC, HLI White Rock LLC,
JIK Fields Exchange LLC & JIK Maine Exchange LLC
& JIK McKinney LLC, and Brick Row Apartments
LLC are the owners of multifamily rental properties in
high opportunity areas. Lincoln Property Company is
the property manager for these defendants. ICP sent
Lincoln Property Company the attached letters asking Lincoln Property Company to negotiate with ICP
for the rental of units at four of these properties. ICP
sent a letter directly to the owner. Exhibit 1. Neither

169a
Lincoln Property Company nor the other Defendants
responded to ICP’s requests.
19. Defendant Lincoln Property Company has a
general policy that it will not negotiate with, rent to, or
make units available to voucher households. Lincoln
Property Company applies this policy in White nonHispanic areas. Lincoln Property Company applies
this policy even when the combined income of the family and the voucher subsidy meet or exceed the contract
rent for the unit. Defendant Lincoln Property Company applies this policy to the multifamily units it
manages for the other Defendants.
20. Lincoln Property Company advertises its policy of refusing to negotiate with or rent to voucher
households. Lincoln Property Company places the advertisements with internet apartment locators seeking
applicants for vacant Lincoln Property Company units.
Lincoln Property Company frequently announces the
policy by stating all of the following three sentences in
the advertisement for specific units:
Our community is not authorized to accept
housing vouchers.
Our community is not authorized to accept
Section 8 housing.
Our community is not authorized to accept
ANY government subsidized rent programs.
These statements appeal to the stereotype that
because voucher tenants are Black, voucher tenants
are undesirable as tenants and that the exclusion of

170a
voucher households makes the complex a more desirable place for White non-Hispanic tenants to live.
Facts on the voucher program
21. The Housing Choice Voucher Program is the
largest national rental assistance program for low income households. The national HCV Program provided
an $18 billion subsidy to landlords for rent in 2014.
22. The United States Department of Housing
and Urban Development (HUD) sets the maximum
rents for the voucher program in the amount that
would be needed to pay the gross rent (shelter rent
plus utilities) of privately owned, decent, and safe
rental housing of a modest nature with suitable amenities. The maximum rents are typically set to make
40% of the units in each Zip Code available. In addition, all rents subsidized under the HCV Program
must meet reasonable rent standards set by the market rents for comparable units.
23. There are 30,745 voucher households in the
Dallas-Plano-Irving Metropolitan Division according
to the most recent HUD Picture of Subsidized Housing
report. Wages are a major source of household income
for 33% of the voucher households. There are persons
with a disability in 20% of the households. Households
headed by a person 62 years of age or older are 20% of
the voucher households.
24. The voucher households in the Dallas-PlanoIrving Metropolitan Division are 90% minority. 81% of

171a
the voucher households are Black or African American.
6% are Hispanic. 10% are White non-Hispanic.
25. The vouchers may be used throughout the
Dallas metropolitan area and are not limited to housing units located within the city limits of the local
agency issuing the voucher.
26. Providing opportunities for very low-income
families to obtain rental housing outside areas of poverty or minority concentration is an important goal of
the Housing Choice Voucher Program. The willingness
of landlords with units outside areas of poverty or minority concentration to rent to voucher households is a
necessary element in achieving this goal of the voucher
program.
27. The HCV Program is administered by local
public housing agencies (PHAs). Voucher participants
are responsible for finding suitable housing in the private market and must pay at least thirty percent of
their monthly adjusted gross income on rent and utilities to the landlord. The PHAs administer federal
funds that pay a subsidy to the landlord to help cover
the difference between what the tenant can afford and
the payment standard-what the PHA considers a reasonable rent.
28. The landlord decides which, if any, voucher
households will be tenants by using the landlord’s own
screening criteria. 42 U.S.C. § 1437f(o)(6)(B).

172a
Voucher households’ choices are limited by
the refusal of Defendants and the refusal of other
multifamily property management companies and
owners to rent units located in non-minority areas to voucher households.
29. Voucher households show a substantial demand for rental housing in safe areas with low crime
rates, good schools, low poverty rates, and adequate
public and private services and facilities. ICP’s voucher
clients seek ICP’s assistance to find and obtain dwelling units in these areas. These high opportunity areas
are disproportionately located in majority White nonHispanic areas.
30. The majority White non-Hispanic areas of
Dallas and the Dallas area suburban cities contain
thousands of multifamily rental units with rents that
can be paid by the voucher program in locations with
the characteristics sought by ICP’s clients. These are
properties that offer the privately owned, decent, and
safe rental housing of a modest nature with suitable
amenities that Congress intended to be available for
the voucher program. The multifamily property management companies and owners leasing these nonsubsidized units with rents that can be paid by the
voucher program in these areas disproportionately refuse to negotiate with or rent to voucher households.
Exhibit 2 Some Apartment Complexes with Voucher
Reachable Rents in Majority White Census Tracts Not
Accepting Vouchers shows the location of some multifamily projects in 50% or greater White non-Hispanic
census tracts with at least some units with rents that

173a
can be paid in the voucher program but that refuse to
rent to voucher households. Not all of the multifamily
complexes in these tracts are represented on Exhibit 2,
only those for which the commercial multifamily reporting service Enriched Data provided rents by number of bedrooms. Properties that do not provide this
information to Enriched Data are not represented on
Exhibit 2. Properties with rents higher than that could
be paid in the voucher program are not represented on
Exhibit 2.
31. Lincoln Property Company and the other
multifamily property management companies with
rental units available at voucher program rents consistently refuse to rent to voucher families. The refusal
steers those families into rental units whose owners
will negotiate with and rent to voucher households.
These units with willing landlords are disproportionately located in minority areas, as shown by the concentration of vouchers in the racially segregated, high
poverty census tracts in the City of Dallas. Exhibit 3
shows the concentration of vouchers by race of census
tract in the City of Dallas. Exhibit 4 shows the concentration of vouchers by race of census tract in Collin,
Dallas, and Denton counties. These maps are based on
the HUD Picture of Subsidized Housing for 2015 for
the HCV data by census tract.

174a
ICP’s sublease/guarantor proposal satisfies
the business reasons usually asserted as the interests served by the refusal to rent to voucher
households and eliminates the applicability of
the stated reasons not to negotiate with or rent
to voucher households.
32. The landlord trade associations that represent Lincoln Property Company and other multifamily
landlords in the Dallas area have stated the concerns
that the associations and their members claim contribute to landlords’ refusal to rent to voucher households.
The concerns as stated by the associations in legislative forums and in judicial forums include:
A. the failure of the voucher program to pay market rents for the high opportunity area locations in
which the landlords refuse to negotiate with or rent to
voucher holders;
B. the administrative delays resulting in delayed
payments or lost revenue. These delays include the
housing inspection process, the tenant and contract approval process, and requests for rent increases; and
C. HUD’s required lease provisions that differ
from the standard form lease and contain terms and
conditions that apply only to voucher tenants and not
to unassisted tenants in the property. These required
terms are in the HUD regulated lease and Housing Assistance Payment contracts. 24 C.F.R. § 982.62(a)(3).
The landlord associations assert these terms may pose
a risk of increased costs if landlords lease to voucher
households.

175a
33. The landlord associations that have raised
these concerns are the National Apartment Association, the Texas Apartment Association, the Apartment
Association of Greater Dallas, and the National Multifamily Housing Council. Defendant Lincoln Property
Company is a member of these associations. Officials
from Defendant Lincoln Property Company have held
recent leadership positions in each of these landlord
trade groups.
34. In 2014 ICP presented the Apartment Association of Greater Dallas (AAGD) with a proposal to
negotiate with ICP for agreement on a sublease/
guarantor model designed to eliminate the stated business reasons for refusing to negotiate with or rent to
voucher households. The sublease/guarantor proposal
included both financial incentives and favorable lease
concessions for the Association’s members to make
units available for voucher families in White nonHispanic areas. ICP negotiated with the leadership
of the AAGD on the terms of the sublease/guarantor
proposal. The President of the Association during the
negotiations, Mr. Michael Clark, said the sublease/
guarantor proposal has merit. Ms. Kathy Carlton, Director of Government Affairs for AAGD has encouraged AAGD members to look at the ICP sublease/
guarantor proposal. Ms. Carlton stated the AAGD had
worked with ICP to identify roadblocks to participation in the voucher program and that ICP had done a
good job addressing those roadblocks. AAGD, Rooflines,
April 2016, page 20.

176a
35. Lincoln Property Company is a member of
the AAGD and knew about the ICP sublease/guarantor
proposal. The AAGD specifically discussed ICP’s sublease/
guarantor proposals with Lincoln Property Company
in July 2015. The discussions did not result in Lincoln
Property Company negotiating with or renting to
voucher households or renting to ICP for ICP to sublease to voucher households.
36. Subsequently, ICP made written requests that
Lincoln Property Company and the other Defendants
negotiate with ICP using the ICP sublease/guarantor
proposal as ICP’s initial bona fide offer. These written
requests were made for the complexes owned by the
other defendants and managed on their behalf by Lincoln Property Company. These units were in high opportunity areas. The units offer voucher tenants decent
and safe rental housing of a modest nature with suitable amenities. The written requests to Lincoln Property Company and the other Defendants were made
during the same time that ICP was making the same
requests to the owners and management companies
operating hundreds of other multifamily complexes in
high opportunity locations in the Dallas metropolitan
area.
37. For many years, the landlord trade associations have lobbied the federal government for HUD to
change the method for setting the Fair Market Rents
for vouchers holders. The landlord associations argued
that the HUD system of setting only one Fair Market
Rent for a metropolitan area did not accurately reflect
local rental markets and needed to be changed in order

177a
to increase participation by landlords. In 2001 the National Multi Housing Council and the National Apartment Association responded to the federal government’s
Millenial Housing Commission with many recommendations. The NMHC/NAA Millenial Housing Task
Force stated:
The current system sets Fair Market Rents
(FMRs) on a metropolitan area basis on the
assumption that a single rent can be representative of market rents throughout that
area. In reality, too many markets are too
large for a single FMR to be accurate. The
practical consequence of this policy is that
FMRs are often well below actual submarket
rents. Property owners in these submarkets
where HUD FMRs are below market rents
have no incentive to accept Section 8 vouchers. . . .
Given the importance of FMRs to this and
other HUD/FHA programs, the current system must be reviewed to develop a fairer
standard. . . .
Such a reform clearly would require more
funding, but given the high cost to produce
new housing, the demand for vouchers, and
the desire to increase the owner participation
in the program, increased funding is needed
and warranted.
38. ICP obtained a change in the Fair Market
Rents in the Dallas area as a result of litigation
against HUD. For the last six years, HUD has set
voucher rents by Zip Code in the Dallas area.

178a
39. The ICP sublease/guarantor proposal is based
on the fact that the rents that can be paid in the
voucher program are adequate to pay the market rents
being charged for a significant number of the available
multifamily units in high opportunity areas. This was
possible because ICP sued HUD in 2007 to obtain
higher voucher rents for units in White non-Hispanic
areas. The suit resulted in a settlement between ICP
and HUD in 2010 that provided voucher rent maximums that were set for individual Zip Codes. These
rent maximums served to increase the number of multifamily units that were available to voucher holders
in White non-Hispanic Zip Codes. A subsequent 2014
suit by ICP against HUD resulted in a 2016 settlement
that provided higher voucher rent maximums for
many White non-Hispanic Zip Codes. The increased
Zip Code voucher rent maximums and available increased payment standards based on the rent maximums made at least some units affordable for voucher
families at the listed Lincoln Property Company properties in paragraph 54 of this complaint. By affordable,
ICP means that the gross rent for the unit is less than
the total of the tenant share of the gross rent plus the
PHA subsidy to the landlord. The higher Zip Code
rents eliminated one of the reasons for and interests
that may be asserted by Lincoln Property Company
for its policy of refusing to negotiate with or rent to
voucher households for the units available at the Zip
Code rents.
40. The ICP sublease/guarantor proposal offered
financial incentives to be paid to participating landlords

179a
in an amount equal to one month’s rent. This amount
was meant to provide a financial reason to participate.
The amount of the incentive was negotiable.
41. The ICP sublease/guarantor proposal also
provided alternatives that eliminated the business
concerns that were alleged to contribute to the refusal
to rent to voucher households. These alternatives were
based on the corporate rental model used by Lincoln
Property Company and other landlords. In that model,
corporations lease units in the corporations’ name and
then sublease or otherwise contract with employees to
reside in the units. ICP proposed that ICP rent the
units pursuant to the usual form leases and related
agreements with the right to sublease to voucher families that met the landlords’ tenant selection criteria
on credit history, rental history, criminal record checks,
and other legitimate criteria. ICP would enter into the
relevant voucher subsidy agreements including the
lease addendum and the housing assistance payment
contract addendum with the housing authority in order to make the sublease satisfy the voucher program
requirements. Under the ICP sublease/guarantor proposal, if there were housing authority administrative
delays in approving or making the voucher payments,
ICP would use its own funds to make the appropriate
payments to the landlords on a timely basis. Therefore,
ICP would incur the costs of delayed payments, not the
landlord.
42. The other alternative proposed by ICP was
modeled on the guarantor agreement used by Lincoln
Property Company and other landlords for students

180a
being subsidized by parents, tenants with irregular incomes, first time renters with no rental history, and
renters with low credit scores. LPC accepts a third
party guarantor arrangement as part of the lease
transaction with these tenants. Under ICP’s guarantor
program, ICP would guarantee the lease payments
and other financial obligations for voucher families
that met the landlords’ tenant selection criteria on
credit history, rental history, criminal record checks,
and other legitimate criteria.
43. Defendants made no response to ICP concerning the ICP requests to negotiate or rent to ICP
and ICP’s clients.
44. Three other landlords responded to ICP letters requesting their participation in the ICP sublease/guarantor proposal. One landlord has agreed to
participate in the ICP sublease program. ICP currently
subleases four units under the sublease program to
voucher households with this landlord. These units are
located in a predominantly White non-Hispanic census
tract.
45. ICP continues to seek other landlords to participate in the sublease/guarantor program.
46. ICP’s sublease/guarantor proposal satisfies
the business reasons asserted as the interests served
by the refusal to rent to voucher households. ICP’s sublease/guarantor proposal eliminates the applicability
of the reasons stated by the landlord associations not
to negotiate with or rent to voucher households.

181a
ICP made attempts to negotiate with Lincoln
Property Company.
47. After obtaining higher fair market rents
based on Zip Codes for the voucher program, ICP attempted to negotiate with Lincoln Property Company
in 2013 and in 2014 for the lease of units for voucher
holders. Ms. Ann Lott, Executive Director of an ICP
subsidiary, the Inclusive Communities Housing Development Corporation (ICHDC), contacted Ms. Sheila
Palmer, the compliance manager for Lincoln Property
Company, on December 17, 2013. Ms. Palmer stated
her owners did not want to accept vouchers except in
the low income housing tax credit complexes.
48. Ms. Lott requested a meeting with Ms. Joyce
Eldredge, a Lincoln Property Company Vice President,
on the issue of Lincoln Property Company’s refusal to
rent to voucher households at complexes other than
the low income housing tax credit complexes. The request was in a March 18, 2014 letter. Lincoln Property
Company never agreed to meet with Ms. Lott.
49. In 2015 the AAGD told ICP that the AAGD
was going to discuss ICP’s sublease/guarantor proposal with Lincoln Property Company and another
landlord. AAGD asked ICP to “back off a little.” July 1,
2015 email from Michael D. Clark, AAGD President, to
Betsy Julian, ICP President. Subsequently, AAGD
gave notice that it was “not going to be able to secure
specific commitments to participate” in ICP’s sublease
sublease/guarantor proposal. July 20, 2015 email from
Michael D. Clark to Betsy Julian.

182a
50. Subsequently ICP mailed letters requesting
that Lincoln Property Company negotiate with and
lease units at specific apartment projects to voucher
households through the ICP sublease/guarantor program. Lincoln Property Company made no response to
any of the letters. Exhibit 1.
I. The Defendants’ policy not to negotiate
with or rent to voucher households causes racially discriminatory effects and is an artificial,
arbitrary and unnecessary barrier to integrated
housing that does not serve any legitimate interests. Any substantial, legitimate, nondiscriminatory interests supporting the challenged policy
could be served by another practice that has a
less discriminatory effect. The policy violates
the disparate impact standard of liability under
42 U.S.C. § 3604(a).
51. Lincoln Property Company’s general policy is
to not negotiate with or rent to voucher households
even if the unit is available at the voucher rent.
52. Lincoln Property Company does not implement
this policy where it is prohibited by law from doing so.
For example, Lincoln Property Company negotiates
with and rents to voucher households at the low income housing tax credit complexes that it manages.
Federal and Texas law prohibit tax credit complexes
from discriminating against voucher households because
of their status as voucher program participants. 26
U.S.C. § 42(h)(6)(B)(iv); Tex. Gov’t Code § 2306.269(b).

183a
53. Lincoln Property Company’s policy to not negotiate with or rent to voucher households is implemented at its multifamily rental projects located in
majority White non-Hispanic census tracts in the Dallas
metropolitan area focusing on Collin, Dallas, Denton,
and Rockwall counties. This policy is applied even when
the combined income of the household and the voucher
subsidy meet or exceed the contract rent for the unit.
54. Lincoln Property Company’s policy to not negotiate with or rent to voucher households is implemented at the following multifamily rental projects
located in majority White non-Hispanic census tracts
in the Dallas metropolitan area with at least some
units available at rents that can be paid under the
voucher program:
LPC managed or
owned complex
Caruth at
Lincoln Park

address

city

5445 Caruth
Haven Ln

Dallas

The Caruth

5445 Caruth
Dallas
Haven Ln
3324 McKinney Ave. Dallas

75225

9191 Garland Rd

Dallas

75218

2210 Winsted Dr

Dallas

75214

1389 Ridge Rd

Rockwall 75087

McKinney
Uptown
White Rock Lake
Apartment Villas
Winsted at
White Rock Lake
Rockwall
Commons
Colonnade at
Willow Bend

1100 Meredith Ln Plano

Zip
Code
75225

75204

75093

184a
Park Central at
Flower Mound
The Gate in
the Village
The Hill in
the Village
Westside in
the Village
Riviera at
West Village

4200 Broadway
Ave
8203 Southwestern
Blvd
5787 Caruth
Haven
6541 Shady
Brook Ln
3530 Travis St

Flower
Mound
Dallas

75028
75206

Dallas

75206

Dallas

75206

Dallas

75204

Creekside
at Northlake
Corners East
in the Village
Northbridge
in The Village

8299 Small
Northlake 76262
Block Rd.
75206
8519 Southwestern Dallas
8705 Southwestern Dallas

75206

The Corners
in the Village

6310 Shady
Brook Ln

Dallas

75206

The Dakota
in the Village

6550 Shady
Brook Ln

Dallas

75206

Lasalle
Gardens
of Denton
Third Rail Lofts
The Residences
at Starwood
Northside
at Legacy
Parkside at
Legacy

18725 Dallas Pkwy Dallas
401 Ame Dr
Denton

75287
76207

1407 Main Street Dallas
6595 Lebanon Rd Frisco

75202
75034

7560 Bishop

Plano

75024

5765 Bozeman Dr Plano

75024

185a
Mockingbird Flats
St Moritz
Palencia
Mustang Park
Bend East
in the Village
The Bend
in the Village

5600 SMU BLVD
5665 Arapaho
17817 Coit Rd
4645 Plano Pkwy
5454 Amesbury

Dallas
Dallas
Dallas
Carrollton
Dallas

75206
75248
75252
75010
75206

5454 Amesbury

Dallas

75206

The Cliffs
in the Village
The Lakes
in the Village
The Meadow
in the Village

8820 Southwestern Dallas
Blvd
8610 Southwestern Dallas
Blvd
8200 Southwestern Dallas
Blvd

75206

Green II

6060 Village
Bend Dr
5349 Amesbury

Dallas

75206

Dallas

75206

5657 Amesbury

Dallas

75206

5350 Amesbury Dr Dallas

75206

5350 Amesbury

Dallas

75206

5140 Willis Ave

Dallas

75206

6080 Water St

Plano

75024

6150 Alma Rd

McKinney 75070

Park in
the Village
The Chase
in the Village
The Green
in the Village
Green in the
Village II, The
Eastbridge
Apartments
The Grand at
Legacy West
Parkside at
Craig Ranch

75206
75206

186a
Brick Row
744 Brick Row
Prairie Crossing 4000 Sigma Rd
1001 Ross

1001 Ross Ave

Richardson 75081
Farmers 75244
Branch
Dallas
75202

This list is based on information on the Lincoln
Property Company’s web site, the information reported
to the commercial compilation of multifamily rental
market information provided by Enriched Data, Inc.,
statements made by apartment listing web sites
providing information authorized by Lincoln Property
Company as advertising, and statements made by Lincoln Property Company’s employees in response to
questions whether or not the apartment units were
available to voucher households.
The Lincoln Property Company policy refusing
to negotiate with or rent to voucher households
causes the perpetuation of racial segregation.
55. The Lincoln Property Company policy refusing to negotiate with or rent to voucher households
causes the perpetuation of racial segregation by excluding a predominantly Black voucher population
from renting available multifamily units in White nonHispanic census tracts in Collin, Dallas, Denton, and
Rockwall counties (Dallas metro area).
56. The population of voucher households is predominantly Black. The HUD 2015 Picture of Subsidized
Housing for the Dallas-Plano-Irving, TX Metropolitan
Division reports that 81% of the 30,745 voucher households in that area are Black and 10% are non-minority.

187a
The Dallas Housing Authority administers the largest
number of vouchers of any single agency in the Dallas
area. DHA’s 17,000 plus voucher households are 86%
Black and 6% non-minority.
57. The voucher program in the Dallas metro
area is currently racially segregated into predominantly minority census tracts. On average, the voucher
households in the Dallas metro area are located in 74%
minority census tracts. 14,193 of the voucher households in the Dallas metro area are located in the City
of Dallas. On average, the vouchers in the City of Dallas are located in 88% minority and 33% poverty census tracts. 94% of the voucher holders in the City of
Dallas are minority. 87% of the voucher holders in the
City of Dallas are Black or African American. HUD Picture of Subsidized Housing report 2015.
58. The policy impedes integration and perpetuates racial segregation in the Dallas metro area by
making multifamily rental units in predominantly
White non-Hispanic census tracts unavailable to the
predominantly Black voucher households.
59. There are no Black renters in the small census tract block group in which the Lincoln Property
Company managed Park Central at Flower Mound
complex is located, based on the American Community
Survey 2014 5-year Estimates. There are 307 units at
the Park Central at Flower Mound apartment complex
located in the census tract block group. Lincoln Property Company’s policy is to refuse to negotiate with or
rent to voucher households for the units available at

188a
voucher rents in this complex. There were no voucher
households in the entire census tract that included this
apartment complex as of the HUD 2015 Picture of Subsidized Housing Report.
60. There are no Black renters in the small census tract block group in which the Lincoln Property
Company managed McKinney Uptown complex in the
City of Dallas is located based on the American Community Survey 2014 5-year Estimates. There are 144
units at the McKinney Uptown complex located in this
census tract block group. Lincoln Property Company’s
policy is to refuse to negotiate with or rent to voucher
households for the units available at voucher rents in
this complex. There were no voucher households in the
entire census tract that included this apartment complex as of the HUD 2015 Picture of Subsidized Housing
Report.
61. Black renters are 14% of the 630 renter occupied units in the small census tract block group in
which the Lincoln Property Company managed Parkside
at Legacy complex in Plano is located based on the
American Community Survey 2014 5-year Estimates.
There are 293 units at the Parkside at Legacy complex
in this census tract block group. Lincoln Property Company’s policy is to refuse to negotiate with or rent to
voucher households for the units available at voucher
rents in this complex. There were no voucher households in the entire census tract that included this
apartment complex as of the HUD 2015 Picture of Subsidized Housing Report.

189a
62. Black renters are 11% of the 1,022 renter occupied units in the small census tract block group in
which the Lincoln Property Company managed White
Rock Lake Apartment Villas complex in the City of
Dallas is located based on the American Community
Survey 2014 5-year Estimates. There are 296 units at
the White Rock Lake Apartment Villas in the census
tract block group. Lincoln Property Company’s policy is
to refuse to negotiate with or rent to voucher households
for the units available at voucher rents in this complex.
There were no voucher households in the entire census
tract that included this apartment complex as of the
HUD 2015 Picture of Subsidized Housing Report.
63. Black renters are 11% of the 532 renter occupied units in the small census tract block group in
which the Lincoln Property Company Brick Row complex in Richardson is located based on the American
Community Survey 2014 5-year Estimates. Lincoln
Property Company’s policy is to refuse to negotiate
with or rent to voucher households for the units available at voucher rents in this complex. There are 500
units at the Brick Row complex located in the census
tract block group. There were 45 voucher households
in the entire census tract as of the HUD 2015 Picture
of Subsidized Housing Report. The majority of the
voucher households in the census tract were in single
family or semi-detached structures.
64. The Lincoln Property Company policy of
refusing to negotiate with or rent to voucher households is the same policy followed at many of the other
privately owned, non-subsidized multifamily rental

190a
properties with units available at voucher rents located outside of the predominantly minority census
tracts in the Dallas area. Voucher households excluded
by Lincoln Property Company’s policy are also excluded by the similar policies at the other multifamily
rental properties located in the predominantly White
non-Hispanic census tracts. Exhibit 2 shows the widespread refusal to negotiate with or rent to voucher
households.
The Lincoln Property Company policy causes
disproportionate harm to Black households.
65. The Lincoln Property Company policy refusing to negotiate with or rent to voucher households
causes a disproportionate harm to Black households in
the Dallas metro area.
66. The HUD 2015 Picture of Subsidized Housing for the Dallas-Plano-Irving, TX Metropolitan Division reports that 81% of the voucher households are
Black and 10% are White non-Hispanic (non-minority).
67. Approximately 86% of the DHA voucher participants are Black or African American.
68. The households on the local housing authorities’ voucher program waiting lists are and have been
disproportionately Black households.
69. The Lincoln Property Company’s policy makes
their managed multifamily units unavailable to a population that is disproportionately Black or African American based on the percent of the voucher households in

191a
the Dallas area that are Black or African American,
81%.
70. To be eligible for the voucher program, a
household’s income may not exceed 50% of the median
income for the county or metropolitan area in which
the family chooses to live. In addition, a PHA must provide 75 percent of its vouchers to applicants whose incomes do not exceed 30 percent of the area median
income. 24 C.F.R. § 982.201(B).
71. The 2015 HUD Picture of Subsidized Household data for the Dallas-Plano-Irving, TX Metropolitan
Division reports that the average voucher household
income per year is $13,703 or 23% of local median
household income. 94% of voucher holders are very low
income (<=50%) and 73% are extremely low income
(<=30%). 81% of the voucher households in the Dallas
Metro Division are Black, 10% are non-minority.
72. The American Community Survey 2013 5-year
Estimates data shows the following for the DallasPlano-Irving, TX Metropolitan Division renter households:
• 47% of Black renter households have incomes
below 50% of area median family income.
• 27% of White non-Hispanic renter households
have incomes below 50% of area median family income.
• 29% of Black renter households have incomes
below 30% of area median family income.

192a
• 14% of White non-Hispanic renter households
have incomes below 30% of area median family income.
The data is publicly provided by HUD. See https://
www.huduser.gov/portal/datasets/cp.html#2006-2013.
73. The Lincoln Property Company policy makes
Lincoln Property Company’s managed multifamily
units unavailable to a population that is disproportionately Black or African American households based on
the percent of the Black or African American renter
households that are income eligible for vouchers compared the percent of the White population that is income eligible for vouchers.
74. The population that is excluded by the policy
is the voucher population that, although less than 30%
of area median family income, can afford the same
market rents that the non-voucher population at 80%
or greater of area median family income can afford.
The voucher population can afford the rents because of
the combination of their income and the rent subsidy
from the voucher. The 80% or greater area median family income population can afford the rents because of
their higher income. The voucher population excluded
by the policy is 81% Black and 10% White non-Hispanic.
The non-voucher, 80% or greater of area median family
income population is 19% Black and 53% White. The
policy refusing to negotiate with or rent to voucher
households excludes a disproportionately Black population and selects a disproportionately White nonHispanic population.

193a
The Defendants’ policy not to negotiate with
or rent to voucher households is an artificial, arbitrary and unnecessary barrier to integrated
housing that is not necessary to achieve any legitimate interests.
75. Lincoln Property Company has not responded on either its own behalf or on behalf of the
other Defendants to ICP’s subsequent requests for negotiation on the sublease/guarantor proposal and thus
has not stated to ICP any legitimate interests that require the policy not to negotiate with or rent to voucher
households.
76. The landlord trade associations representing
Lincoln Property Company and other landlords have
asserted various interests they claim require the refusal to negotiate with or rent to voucher households
as set out above, paragraphs 32-33. If Defendants’ interests that they rely upon include all or part of the
trade associations’ asserted interests, those interests
do not require the policy.
77. The Zip Code rents (Small Area Fair Market
Rents or SAFMRs) provide for increased rents that can
be paid under the voucher program for at least some
units in non-minority concentrated high opportunity
areas in Lincoln Property Company’s managed complexes. ICP’s sublease/guarantor program furthers the
asserted business interests without the need for the
policy. There are other existing programs including financial assistance for incentive or bonus payments
to landlords. These payments eliminate the risks of

194a
non-payment and compensate for increased costs, if
any, incurred renting to voucher households.
78. HUD sets the maximum rent and subsidy for
the voucher program as Small Area Fair Market Rents
(SAFMRs or Zip Code rents) in the HUD Dallas Fair
Market Rent Area. These SAFMRs are set to make at
least 40% of the rental units in each Zip Code available. The 2017 Small Area Fair Market Rents as well as
the 125% Walker Settlement Voucher maximum for
two bedroom units in the Zip Codes where Defendants
own or manage units are set out in Exhibit 5 to this
complaint.
79. There are currently HUD and local public
housing authority required forms and procedures that
set out separate contract terms, lease terms, and administrative procedures for voucher households that
are different from those used for non-voucher households. Some of these forms, terms, and procedures are
asserted by the landlord trade associations to cause
the loss of rent in excess of the collection losses and
vacancy losses attributable to non-voucher tenants.
These asserted costs could be covered by ICP’s or
DHA’s landlord bonus or incentive payments that can
be made even apart from the ICP sublease/guarantor
program. These bonuses or incentive payments have
been available for several thousand Dallas Housing
Authority voucher clients since 2001. ICP has been
providing bonus or incentive payments for its clients
since 2005. These payments compensate for any risks
of delayed payment or non-payment. The business interest in timely payment does not require the use of

195a
the Lincoln Property Company policy refusing to negotiate with or rent to voucher households given the
availability of this financial compensation.
80. Nationally the market-rent, non-subsidized
properties have collection losses of approximately 0.4%
to 0.6% and vacancy losses between 4.5% and 5.5% of
Gross Potential Rents. Subsidized low income tenants
have fewer choices than market rate tenants and are
less likely to move and thus cause lower vacancy
losses. The payment record for government subsidized
units and market rate units shows about the same rate
of collection losses, 0.4% to 0.6%. 2015, 2016 National
Apartment Association Survey of Operating Income &
Expenses in Rental Apartment Communities. The incentive payment from ICP or DHA of one month’s rent
exceeds the average vacancy and collection loss per
unit.
81. ICP and DHA have been paying landlord incentives as a matter of course for many years. These
payments are not restricted to the ICP sublease/guarantor proposal but are part of the housing mobility financial assistance provided on behalf of voucher
households. These payments could compensate for any
risks of delayed payment or non-payment. The business interest in timely payment does not require the
use of the Lincoln Property Company policy refusing
to negotiate with or rent to voucher households. The
landlord incentive or bonus payments are a less discriminatory alternative to the LPC policy.

196a
82. ICP’s sublease/guarantor proposal serves any
legitimate interest achieved by Lincoln Property Company’s policy refusing to negotiate with or rent to
voucher participants with a less discriminatory effect.
83. ICP’s sublease/guarantor proposal removes
any other asserted burdens on Defendants that might
be caused by complying with the HUD and local public
housing authority required forms and procedures. This
includes the HUD lease and housing assistance payment contract addenda.
84. The sublease program can be implemented
using the existing TAA lease by listing ICP as the tenant and listing the members of the voucher household
as occupants. The written consent to sublease required
by the TAA lease would be given only to ICP for purposes of ICP obtaining the voucher subsidy in order for
the voucher household to live in the unit. The program
is available for a minimal number of voucher households in each complex to avoid concentrations of assisted households. Under the sublease, ICP would
assume the role and responsibilities of a corporate entity who would mirror the all-private corporate housing model that has worked well for the apartment
industry for many years. ICP would lease a minimal
number of units in an apartment complex in a high opportunity area. ICP would assume responsibility for
finding and proposing qualified voucher residents under the landlord’s existing tenant selection criteria.
Under the sublease, ICP would pay agreed lease
amount in a timely manner, and respond to all resident
issues, including eviction if necessary. The decision to

197a
contract for any specific voucher family would still be
the landlords’ decision.
85. Incentives for the landlord to participate include financial incentives in the amount of one month’s
contract rent for each unit under contract as part of
the ICP sublease/guarantor proposal. ICP would enter
into the formal Housing Assistance Payment contract
with the housing authority for the housing authority’s
portion of the rent. If the housing authority was late or
delinquent in this payment, ICP would still make the
full rent payment due to the landlord under the lease.
ICP would enter into a lease with the voucher tenant
that would comply with the voucher program requirements and be subject to the specific lease between the
landlord and ICP for the unit. If the tenant was late or
delinquent in making a monthly payment of the tenant’s portion of the rent, ICP would still make the full
rent payment due to the landlord under the lease.
86. The ICP sublease/guarantor program is a
less discriminatory alternative to Defendants’ discriminatory housing practice. The ICP sublease/guarantor
program serves the Defendants’ business interests
with less discriminatory effect. There is no cost burden
to Defendants.
87. The Lincoln Property Company policy is not
necessary to achieve the Defendants’ interest in receiving timely payment of rents and other amounts to be
paid under the lease. Defendants rent to non-voucher
tenants that they classify as posing a higher risk of
delay in payment or non-payment of rent and other

198a
amounts due under the lease. Defendants’ standard
leasing documents provide that these risks of non-payment or delay in payment can be adequately offset by
the use of guarantor/co-signors on the lease and additional deposits. Defendants’ interest in timely payment
does not require a policy refusing to negotiate with or
rent to these non-voucher tenants classified as posing
a higher risk of non-payment.
88. Similar contractual provisions and payments
on behalf of voucher households can serve Defendants’
interest in avoiding delay in payment or nonpayment.
The use of incentive payments, additional deposits,
and a guarantor/co-signor can also be negotiated, paid,
and used on behalf of voucher households. Defendants’
refusal to negotiate with or rent to voucher households
is not justified by the risks of delay or non-payment.
89. The policy is not required because of other,
non-payment related business interests. Defendant
Lincoln Property Company manages apartment complexes in predominantly minority areas where Lincoln
Property Company does negotiate with and rent to
voucher households. These apartment complexes include complexes required by law or contract to not discriminate against voucher households because of their
status as voucher program participants. There are
voucher household tenants in these complexes. Lincoln
Property Company manages these properties in conformity with reasonable business practices without the
policy to not negotiate with or rent to voucher households.

199a
II. Defendants’ refusal to negotiate with or
enter into leases with ICP is disparate treatment
based the race and color of ICP’s voucher clients
and violates 42 U.S.C. § 3604(a) and 42 U.S.C.
§ 1982.
90. Defendants’ refusal to negotiate with or enter into leases with ICP is disparate treatment based
on the race and color of ICP’s voucher clients and violates 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982.
91. ICP’s voucher clients are predominantly Black.
ICP has Black voucher clients who are eligible under
Lincoln Property Company’s Application Criteria and
with whom ICP would have entered into subleases for
available units. The Defendants had units available in
non-minority concentrated, high opportunity areas for
which the contract rent was within the amount that
could have been paid under the voucher program. Defendants refused to either negotiate or enter into
leases pursuant to ICP’s offer. Units continue to be
available at the contract rents that could be paid under
the voucher program.
92. ICP made the offer to negotiate for units at
the Lincoln Property Company managed apartment
complexes of McKinney Uptown, Park Central at Flower
Mound, Parkside at Legacy, White Rock Lake Apartment Villas, and the Brick Row Urban Village.
93. At the time of the offers, the publicly available contract rent information for units at these apartment complexes included units that were available
for rents that were within the SAFMRs and related

200a
payment standards for the location of each apartment
complex.
94. Defendants gave no reason for their refusal
to negotiate with or rent to ICP. Defendants made no
response to ICP’s offer.
95. Any asserted reason for Defendants’ refusal
to negotiate with or rent to ICP made after the filing of
this lawsuit will be a pretext for intentional discrimination.
III. Lincoln Property Company’s advertising perpetuates racial stereotypes and violates
42 U.S.C. § 3604(c).
96. Lincoln Property Company causes the following advertisements to be made in internet web pages
by apartment locator services offering Lincoln Property Company units to prospective applicants.
97. One version of the advertisement for units at
Lincoln Property Company’s complexes uses three separate statements to say in three different ways that
vouchers will not be accepted in an entire community.
Our community is not authorized to accept
housing vouchers.
Our community is not authorized to accept
Section 8 housing.
Our community is not authorized to accept
ANY government subsidized rent programs.

201a
98. The repetition of the message in three
slightly different variations in the same advertisement
emphasizes the hostility against voucher tenants. The
advertisement gives the ordinary reader the clear impression that a voucher household should not bother
to ask for an exception to the ban. The statements discourage voucher holders from attempting to negotiate
with the landlord. The statements encourage White nonHispanic or other non-Black tenants who want to avoid
living with Black neighbors to apply for the housing.
99. Another version of the advertisements for
units at Lincoln Property Company’s complexes is “No
2nd chance leasing, and no vouchers accepted.” The
combination of the ban on bad tenants, those needing
a second chance from a landlord willing to overlook bad
behavior, along with voucher households conveys to an
ordinary reader that voucher households are also bad
tenants. The statement discourages voucher holders
from attempting to negotiate with the landlord. The
statement encourages White non-Hispanic or other
non-Black tenants who want to avoid living with Black
neighbors to apply for the housing. The voucher households in the Dallas Metropolitan Division are predominantly minority. 81% of the voucher households are
Black or African American. 6% are Hispanic. 10% are
White non-Hispanic.
100. These or similar statements are published
in online internet advertisements for specific unit vacancies at the following Lincoln Property Company’s
multifamily rental projects with units that are available at voucher program rents and are located in

202a
census tracts that are less than 30% Black or African
American:
Caruth at Lincoln Park
The Caruth
Eastbridge Apartments
The Gate in the Village
The Hill in the Village
Westside in the Village
McKinney Uptown
La Villita Apartment
Landings at Lavillita
Rockwall Commons
Gardens of Denton
Corners East in the Village
The Corners in the Village
The Dakota in the Village
Northbridge in The Village
Park Central at Flower Mound
Palencia
Colonnade at Willow Bend
2929 Wycliff Apartments
Riviera at West Village
Bend East in the Village
The Bend in the Village
The Cliffs in the Village
The Lakes in the Village
The Meadow in the Village
Winsted at White Rock Lake
The Residences at Starwood
Via Las Colinas
Third Rail Lofts
Brick Row
Prairie Crossing
Mockingbird Flats

203a
Lasalle
Alesio Urban Center
Alexan Las Colinas
Northside at Legacy
Parkside at Legacy
Metropolitan at Cityplace
2660 at Cityplace
Park in the Village
The Chase in the Village
The Green in the Village
Green in the Village II, The
Carriage Homes
Parkside at Craig Ranch
5225 Maple Ave Apartments
Oaks of Valley Ranch Apartments
Reflections at Valley Ranch
St Moritz
Westbridge
1001 Ross
Olympus At Ross
The Arches at Park Cities
Gramercy on the Park
101. These advertising statements convey that
the population of the apartment complex does not include any or many Black tenants in the apartment
complex. These statements attract White non-Hispanic
applicants and discourage Black applicants.
102. These statements appeal to the stereotype
that because voucher tenants are Black, voucher tenants are undesirable as tenants and that the exclusion
of voucher households makes the complex a more desirable place for White non-Hispanic tenants to live.
One local example of invocation of the stereotype

204a
perception is the 2015 incident involving Black guests
at a McKinney neighborhood pool. White residents
taunted the Blacks as being “Section 8” and needing to
leave the pool and the neighborhood and go back to
their “Section 8” homes.
103. The statements are disproportionately used
when advertising vacancies in Lincoln Property Company managed properties located in non-majority
Black census tracts.
104. The advertising injures ICP by perpetuating the stereotype that Black voucher households are
inferior and undesirable. ICP and ICP’s clients must
overcome the stereotype in order to convince landlords
to lease units to voucher households. Landlords accepting the stereotype will not lease units to ICP’s clients.
This increases the time and other resources ICP must
use to assist its clients to find available units in high
opportunity areas.
105. There is no basis for the application of the
stereotype to voucher households who must meet both
the voucher program eligibility requirements and the
Defendants’ own tenant screening criteria.
106. The advertising statements indicate preferences, limitations, and discrimination based on race or
color and indicate an intention to make such preferences, limitations and discrimination based on race or
color in violation of 42 U.S.C. § 3604(c).

205a
IV. Lincoln Property Company’s policy refusing to negotiate with or rent to voucher households is disparate treatment because of race or
color.
107. The Lincoln Property Company’s policy refusing to negotiate with or rent to voucher households
is disparate treatment making dwellings unavailable
because of race or color and violates 42 U.S.C. § 3604(a)
and 42 U.S.C. § 1982.
108. ICP challenges the LPC policy under the
disparate treatment, intentional discrimination standard for determining a violation of 42 U.S.C. § 3604(a).
This is in addition to ICP’s challenge to this policy under the disparate impact standard for determining a
violation of 42 U.S.C. § 3604(a). Defendants’ policy may
be challenged under both the disparate treatment and
the disparate impact standard. Department of Housing and Urban Development, 24 CFR Part 100, [Docket
No. FR–5508–F–02], Implementation of the Fair Housing Act’s Discriminatory Effects Standard, ACTION:
Final rule; 7 8 Fed. Reg. 11460, 11464, Feb. 15, 2013.
109. Lincoln Property Company implements this
policy by using advertising based on implicit racial stereotypes that discourage voucher households from attempting to negotiate with Lincoln Property Company.
The implicit racial stereotypes in the advertising encourages White non-Hispanic or other non-Black tenants who want to avoid living with Black neighbors to
apply for the housing.

206a
110. The Dallas area voucher households are
predominantly Black. There are Black voucher clients
who are eligible under Lincoln Property Company’s
Application Criteria and who would have entered into
leases for available units. The Defendants had units
available in non-minority concentrated, high opportunity areas for which the contract rent was within the
amount that could have been paid under the voucher
program. Defendants refuse to either negotiate or enter
into leases with voucher households unless required to
do so by law or other government requirement. Units
continue to be available at the contract rents that
could be paid under the voucher program.
111. Defendants give no reason for their refusal
to negotiate with or rent to voucher holders.
112. Any asserted reason for Defendants’ refusal
to negotiate with or rent to voucher holders asserted
after the filing of this lawsuit will be a pretext for intentional discrimination.
113. The facts set out in connection with the disparate impact claim, the advertising claim, and the intentional disparate impact claim based on Defendants
refusal to negotiate with or rent to ICP for sublease to
voucher households are also relevant to this claim.
114. The policy causes two discriminatory effects
as set out in paragraphs 55-74.
115. An assertion that the policy is required by
the risks of delay or non-payment caused by the administering public housing authority is pretext for

207a
discrimination. Defendants’ standard leasing documents
provide that the risk of non-payment or delay in payment can be adequately offset by the use of guarantor/
co-signors on the lease and additional deposits. The use
of incentive payments, additional deposits, and guarantor/
co-signor parties can also be negotiated, paid, and used
on behalf of voucher households. Defendants’ refusal to
negotiate with or rent to voucher households is not justified by the risks of delay or non-payment.
116. The assertion that the Defendants’ policy is
required because of other, non-payment related business
reasons is a pretext for discrimination. Defendant Lincoln Property Company manages apartment complexes
in predominantly minority areas where Lincoln Property Company does negotiate with and rent to voucher
households. These apartment complexes include complexes required by law or contract to not discriminate
against voucher households because of their status
as voucher program participants. There are voucher
household tenants in these complexes. All of these
LIHTC or other deed restricted low income complexes
managed by Lincoln Property Company are located in
predominantly minority census tracts. Lincoln Property Company manages these properties in conformity
with reasonable business practices and without the
policy to not negotiate with or rent to voucher households.

208a
Claims for relief.
117. The Defendants’ policy not to negotiate with
or rent to voucher households causes racially discriminatory effects and is an artificial, arbitrary and unnecessary barrier to integrated housing that does not
serve any legitimate interests. Any substantial, legitimate, nondiscriminatory interests supporting the challenged policy could be achieved by other practices that
have a less discriminatory effect. The policy violates
the disparate impact standard of liability under 42
U.S.C. § 3604(a).
118. The Defendants’ refusal to negotiate with
or enter into leases with ICP is disparate treatment
based the race and color of ICP’s voucher clients and
violates 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982.
119. Lincoln Property Company’s advertising of
its policy perpetuates racial stereotypes and violates
42 U.S.C. § 3604(c).
120. Lincoln Property Company’s policy refusing
to negotiate with or rent to voucher households is disparate treatment because of race or color and violates
42 U.S.C. § 3604(a) and 42 U.S.C. § 1982.
Prayer for relief
Plaintiff seeks the following relief including injunctive relief against the practices and such other

209a
affirmative action as may be appropriate under 42
U.S.C. § 3613(c)(1):
a) a permanent injunction enjoining Defendants
from engaging in the policy of refusing to negotiate
with or rent to voucher households;
b) an order enjoining Defendants from refusing
to negotiate with ICP concerning leasing units to ICP
using the ICP sublease/guarantor program;
c) a permanent injunction enjoining Defendants
from advertising its policy in connection with the leasing of dwelling units;
d) a declaratory judgment that Defendants’ policy refusing to negotiate with or rent to voucher households violates 42 U.S.C. § 3604(a) and 42 U.S.C. § 1982;
e) a declaratory judgment that Defendants’ policy refusing to negotiate with or rent to ICP pursuant to sublease/guarantor contractual arrangement to
make units available to voucher households violates 42
U.S.C. § 3604(a) and 42 U.S.C. § 1982;
f ) an award of attorney fees, litigation expenses,
and court costs; and

210a
g) any other relief appropriate under the facts
and law.
Respectfully Submitted,
/s/ Michael M. Daniel
Michael M. Daniel
State Bar No. 05360500
DANIEL & BESHARA, P.C.
3301 Elm Street
Dallas, Texas 75226-1637
214-939-9230
Fax 214-741-3596
E-mail: daniel.michael@att.net
Attorney for Plaintiff
Laura B. Beshara
State Bar No. 02261750
DANIEL & BESHARA, P.C.
3301 Elm Street
Dallas, Texas 75226-1637
214-939-9230
Fax 214-741-3596
E-mail: laurabeshara@swbell.net
Attorney for Plaintiff

211a
EXHIBIT 1
[LOGO]
Inclusive Communities Project
3301 Elm Street, Dallas, Texas 75226 ❊ office 214.939.9239
❊ fax 214.939.9229 ❊ www.inclusivecommunities.net
February 22, 2016
Mr. Tim Byrne
President and
Chief Executive Officer
Lincoln Property Company Commercial, Inc.
2000 McKinney Avenue Suite 1000
Dallas, TX 75201
RE: Parkside at Legacy (5765 Bozeman Dr, Plano
75023)
Dear Mr. Byrne:
The Inclusive Communities Project, Inc. (ICP) is a local
non-profit entity that works with families using a
housing voucher to rent housing in high opportunity
areas of the Dallas Metroplex. By “high opportunity”
we mean safe and secure communities with higher median incomes, good schools and low poverty.
Your above-listed apartment complexes are in such areas. We understand the complexes have represented
that they do not accept families as tenants if they use
federal housing choice vouchers (HCVs). However, we
are writing to encourage you to reconsider that position. The new zip code maximum rents and other elements of the voucher program will allow a family to
afford the rents for at least some of the units in your
complexes.

212a
The maximum gross rents that can be paid under the
voucher program are now set by HUD on a Zip Code by
Zip Code basis. For example, the 2016 maximum gross
rents that can be paid in Zip Code 75023, the location
of your Parkside at Legacy apartment complex is $920
for 1 bedroom units, $1140 for 2 bedroom units, and
$1550 for 3 bedroom units. These maximum gross
rents appear to be high enough to make units at your
complex available under the voucher program. DHA
can also make 110% of these maximum gross rents
available if needed.
ICP has two proposals to encourage your participation
in the voucher program for a small number of families
in your high opportunity area apartments. One is to
accept ICP as a third party guarantor for these families to enable them to get housing in your complexes.
The other proposal is for a sublease with ICP patterned on the corporate lease model. Both proposals
would include an incentive payment.
Summary of the Third Party Guarantor proposal
To assist those families in obtaining housing in good
areas, ICP is willing to serve as a Third Party Guarantor for its voucher families and provide economic benefits to the landlord to enter into such a guarantor
arrangement. The Lease Contract Guaranty is used by
many apartments in this region and state to allow students and others to rent units with a lease that includes a lease contract guaranty signed by a guarantor

213a
who guarantees the rent and security deposit. Under
ICP’s proposal, ICP would serve as the Third Party
Guarantor using the standard Texas Apartment Association Lease Contract Guaranty form. ICP is willing
to add provisions to the Lease Contract Guaranty form
to cover any losses to the owner due to possible housing
authority delays in processing the voucher. ICP is not
asking any owner to accept more than three to five
voucher families at any single apartment complex under such a guarantor arrangement. Prospective voucher
families would be referred by ICP to the owner. The
owner would apply its own usual tenant selection criteria to any prospective tenants and make its own tenant selection decisions. An owner would of course have
no obligation to accept a tenant who did not meet its
screening criteria. In addition, ICP will make an incentive payment of one month’s rent for each voucher tenant selected with a guarantor arrangement with ICP.
ICP is available to assist with the processing of the
voucher should there be any issues with the housing
authority issuing the voucher.
Summary of the Sublease Program
The alternative program we are proposing is the sublease program. It is based on ICP’s ten years of experience in working with tenants, landlords and the Dallas
Housing Authority to provide housing opportunities
for ICP’s clients. In fact, ICP has its own experience as
a landlord dealing with Dallas Housing Authority and
other voucher agencies in the area and understands
some of the concerns. However we believe, based on

214a
that experience, that such concerns can be effectively
addressed in a way that works for everyone involved.
As you may know, ICP brought this proposal to the attention of Apartment Association of Greater Dallas.
The President of the Association, Mike Clark, says the
proposal has merit and has offered to work with ICP to
educate owners about the program.
The program would be available for up to five voucher
families in each complex. Under the sub-lease, ICP
would assume the role and responsibilities of a corporate entity who would mirror the all-private corporate
housing model that has worked well for the apartment
industry for many years. ICP would lease three to five
(3-5) units in an apartment community. ICP would assume responsibility for finding and proposing qualified
voucher residents for your consideration under your
existing tenant selection criteria. Under the sublease,
ICP would pay agreed lease amount in a timely manner, and respond to all resident issues, including eviction if necessary in a business-like fashion. Of course,
the decision to contract for any specific voucher family
would still be your decision alone. Incentives for the
landlord to participate include financial incentives in
the amount of one month’s contract rent for each unit
under contract, and other financial and related benefits outlined below.
ICP would then enter into the formal Housing Assistance Payment contract with the housing authority for
the housing authority’s portion of the rent. If the housing authority was late or delinquent in this payment,
ICP would still make the full rent payment due to you

215a
under the contract. ICP would enter into a lease with
the voucher tenant that would comply with the voucher
program requirements and be subject to the master
lease or a specific lease for the unit. If the tenant was
late or delinquent in making a monthly payment of the
tenant’s portion of the rent, ICP would still make the
full rent payment due to you under the contract.
Suggested master lease provisions:
• The term of the master lease would be jointly
agreed upon.
• The number of units covered by the master
lease would not be more than five (5) per complex.
• ICP would be solely responsible for the complete rental cost, including tenant payment, utilities and any other legitimate fees.
• ICP would make the above-mentioned incentive payments in addition to the actual rent for
participation in the program.
• ICP would not request any additional voucher
units during the term of the contract.
• Tenant selection would be subject to the landlord’s approval based on existing selection criteria.
• ICP would assume responsibility for all damages and costs of repair beyond normal wear and
tear.
• The master lease could end for one or more
units after notice by either party equal to the
greater of either thirty (30) days or the remaining
term of the HAP for the unit.

216a
Please let me know when we can meet to discuss your
possible participation with ICP in what we hope would
be a collaborative initiative to expand housing opportunities for families participating in the Housing
Choice Voucher program. Even if you have no interest
in either of these programs, ICP would still request a
meeting to discuss any alternative terms or conditions
upon which you might be willing to rent to voucher
families.
Sincerely,
/s/ Demetria L. McCain
Demetria L. McCain
Vice President & Deputy Director
dmccain@inclusivecommunities.net
(214) 939-9239
Enclosure: ICP Brochure
cc: Michael D. Clark, President, Executive Committee Board of Directors, AAGD
Kin Oldham, Executive Director, AAGD
Kathy Carlton, Director of Government Affairs,
AAGD
Elizabeth K. Julian, President, ICP

217a
[LOGO]
Inclusive Communities Project
3301 Elm Street, Dallas, Texas 75226 ❊ office 214.939.9239
❊ fax 214.939.9229 ❊ www.inclusivecommunities.net
August 28, 2015
Mr. Thomas G. Fleming
Cornerstone Real Estate Advisors
One Financial Plaza
Hartford, CT 06103
RE: Park Central at Flower Mound
Dear Mr. Fleming:
The Inclusive Communities Project, Inc. (ICP) is a local
non-profit entity that works with families using a
housing voucher to rent housing in high opportunity
areas of the Dallas Metroplex. By “high opportunity”
we mean safe and secure communities with higher median incomes, good schools and low poverty.
Your apartment complex, Park Central at Flower
Mound, at 4200 Broadway Drive (75028) is in such an
area. We understand the complex has represented that
it does not accept families as tenants if they use federal
housing choice vouchers (HCVs). However, we are writing to encourage you to reconsider that position. The
new zip code maximum rents and other elements of the
voucher program will allow a family to afford the rents
for at least some of the units in your complex.
To assist those families in obtaining good housing in
good areas, ICP has developed a proposal for a sublease, patterned after the corporate lease model, in an
effort to make it easy and convenient for a landlord to

218a
participate. The program we are proposing is based on
ICP’s ten years of experience in working with tenants,
landlords and the Dallas Housing Authority to provide
housing opportunities for ICP’s clients. In fact, ICP has
its own experience as a landlord dealing with Dallas
Housing Authority and other voucher agencies in the
area and understands some of the concerns. However
we believe, based on that experience, that such concerns can be effectively addressed in a way that works
for everyone involved. As you may know, ICP brought
this proposal to the attention of Apartment Association
of Greater Dallas. The President of the Association,
Mike Clark, says the proposal has merit and has offered to work with ICP to educate owners about the
program.
Summary of the Sublease Program
The program would be available for up to five
voucher families. Under the sub-lease, ICP would
assume the role and responsibilities of a corporate
entity who would mirror the all-private corporate
housing model that has worked well for the apartment industry for many years. ICP would lease
three to five (3-5) units in an apartment community. Utilizing criteria approved by both parties,
ICP would assume responsibility for finding and
screening qualified voucher residents, pay agreed
lease amount in a timely manner, and respond to
all resident issues, including eviction if necessary
in a business-like fashion. Incentives for the landlord to participate include financial incentives in
the amount of one month’s contract rent for each

219a
unit under contract, and other financial and related benefits outlined below.
Suggested master lease provisions
•

The term of the master lease would be jointly
agreed upon.

•

The number of units covered by the master
lease would not be more than five (5).

•

ICP would be solely responsible for the complete rental cost, including tenant payment,
utilities and any other legitimate fees.

•

ICP would make the above-mentioned incentive payments in addition to the actual rent
for participation in the program.

•

ICP would not request any additional voucher
units during the term of the contract.

•

Tenant selection would be subject to the landlord’s approval based on existing selection criteria.

•

ICP would assume responsibility for all damages and costs of repair beyond normal wear
and tear.

•

The master lease could end for one or more
units after notice by either party equal to the
greater of either thirty (30) days or the remaining term of the HAP for the unit.

We think the sublease proposal is a good one. But if
you are not interested in that approach, ICP is also
willing to act as a third party guarantor for these

220a
families to enable them to get housing in your complex.
ICP’s program for the guarantor model would be an adaptation of the Texas Apartment Association Lease
Contract Guaranty. The advantage to this approach
is that it would avoid ICP acting as an intermediary
between you and the tenant, while offering financial
assurances. ICP would also provide assistance with resolving issues that may arise in dealing with the Dallas Housing Authority.
Please let me know when we can meet to discuss your
possible participation with ICP in what we hope would
be a collaborative initiative to expand housing opportunities for families participating in the Housing
Choice Voucher program.
Sincerely,
/s/ Demetria L. McCain
Demetria L. McCain
Vice President & Deputy Director
dmccain@inclusivecommunities.net
Enclosure: ICP Brochure

221a
[LOGO]
Inclusive Communities Project
3301 Elm Street, Dallas, Texas 75226 ❊ office 214.939.9239
❊ fax 214.939.9229 ❊ www.inclusivecommunities.net
May 19, 2016
Mr. Tim Byrne
President and
Chief Executive Officer
Lincoln Property Company
2000 McKinney Avenue, Suite 1000
Dallas, TX 75201
RE: White Rock Lake Apartment Villas (9191 Garland Rd, Dallas 75218)
Dear Mr. Byrne:
The Inclusive Communities Project, Inc. (ICP) is a local
non-profit entity that works with families using a
housing voucher to rent housing in high opportunity
areas of the Dallas Metroplex. By “high opportunity”
we mean safe and secure communities with higher median incomes, good schools and low poverty.
Your above-listed apartment complexes are in such
areas. We understand the complexes have represented
that they do not accept families as tenants if they use
federal housing choice vouchers (HCVs). However, we
are writing to encourage you to reconsider that position. The new zip code maximum rents and other elements of the voucher program will allow a family to
afford the rents for at least some of the units in your
complexes.

222a
The maximum gross rents that can be paid under the
voucher program are now set by HUD on a Zip Code by
Zip Code basis. For example, the 2016 maximum gross
rents that can be paid in Zip Code 75218, the location
of your White Rock Lake Apartment Villas apartment
complex is $880 for 1 bedroom units, $1,090 for 2 bedroom units, and $1,480 for 3 bedroom units. These
maximum gross rents appear to be high enough to
make units at your complex available under the
voucher program. DHA can also make 110% of these
maximum gross rents available if needed.
ICP has two proposals to encourage your participation
in the voucher program for a small number of families
in your high opportunity area apartments. One is to
accept ICP as a third party guarantor for these families to enable them to get housing in your complexes.
The other proposal is for a sublease with ICP patterned on the corporate lease model. Both proposals
would include an incentive payment. Ms. Kathy Carlton, Director of Government Affairs AAGD, encourages
AAGD members to look at the ICP offer to see if it can
work with their business model.1 ICP asks you to look
at this offer and negotiate with ICP on the terms of
either or both proposals.
Summary of the Third Party Guarantor proposal
To assist those families in obtaining housing in good
areas, ICP is willing to serve as a Third Party Guarantor
1

AAGD, Roof lines, April 2016, page 20.

223a
for its voucher families and provide economic benefits
to the landlord to enter into such a guarantor arrangement. The Lease Contract Guaranty is used by many
apartments in this region and state to allow students
and others to rent units with a lease that includes a
lease contract guaranty signed by a guarantor who
guarantees the rent and security deposit. Under ICP’s
proposal, ICP would serve as the Third Party Guarantor using the standard Texas Apartment Association
Lease Contract Guaranty form. ICP is willing to add
provisions to the Lease Contract Guaranty form to
cover any losses to the owner due to possible housing
authority delays in processing the voucher. ICP is not
asking any owner to accept more than three to five
voucher families at any single apartment complex under such a guarantor arrangement. Prospective voucher
families would be referred by ICP to the owner. The
owner would apply its own usual tenant selection criteria to any prospective tenants and make its own tenant selection decisions. An owner would of course have
no obligation to accept a tenant who did not meet its
screening criteria. In addition, ICP will make an incentive payment of one month’s rent for each voucher tenant selected with a guarantor arrangement with ICP.
ICP is available to assist with the processing of the
voucher should there be any issues with the housing
authority issuing the voucher.
Summary of the Sublease Program
The alternative program we are proposing is the sublease program. It is based on ICP’s ten years of experience

224a
in working with tenants, landlords and the Dallas
Housing Authority to provide housing opportunities
for ICP’s clients. In fact, ICP has its own experience as
a landlord dealing with Dallas Housing Authority and
other voucher agencies in the area and understands
some of the concerns. However we believe, based on
that experience, that such concerns can be effectively
addressed in a way that works for everyone involved.
As you may know, ICP brought this proposal to the attention of Apartment Association of Greater Dallas.
The President of the Association, Mike Clark, says the
proposal has merit and has offered to work with ICP to
educate owners about the program.
The sublease program can be implemented using the
existing TAA lease by listing ICP as the tenant and
listing the members of the voucher household as occupants. The written consent to sublease required by the
TAA lease would be given only to ICP for purposes of
ICP obtaining the voucher subsidy. The program would
be available for up to five voucher families in each complex. Under the sub-lease, ICP would assume the role
and responsibilities of a corporate entity who would
mirror the all-private corporate housing model that
has worked well for the apartment industry for many
years. ICP would lease three to five (3-5) units in an
apartment community. ICP would assume responsibility for finding and proposing qualified voucher residents for your consideration under your existing tenant
selection criteria. Under the sublease, ICP would pay
agreed lease amount in a timely manner, and respond
to all resident issues, including eviction if necessary in

225a
a business-like fashion. Of course, the decision to contract for any specific voucher family would still be your
decision alone. Incentives for the landlord to participate include financial incentives in the amount of one
month’s contract rent for each unit under contract, and
other financial and related benefits outlined below.
ICP would then enter into the formal Housing Assistance Payment contract with the housing authority for
the housing authority’s portion of the rent. If the housing authority was late or delinquent in this payment,
ICP would still make the full rent payment due to
you under the contract. ICP would enter into a lease
with the voucher tenant that would comply with the
voucher program requirements and be subject to the
specific lease between you and ICP for the unit. If the
tenant was late or delinquent in making a monthly
payment of the tenant’s portion of the rent, ICP would
still make the full rent payment due to you under the
contract.
ICP is willing to enter into a master lease with you if
that is preferable to just using the TAA form lease with
consent to sublease. The master lease would be consistent with the obligations of the TAA lease but could
include any additional terms needed to make the offer
work for you.
Please let me know when we can meet to negotiate
your possible participation with ICP in an agreement
to make housing opportunities available for families
participating in the Housing Choice Voucher program. Even if you have no interest in either of these

226a
programs, ICP still requests a meeting to negotiate on
any terms or conditions upon which you might be willing to rent to voucher families.
Sincerely,
/s/ Demetria L. McCain
Demetria L. McCain
President
dmccain@inclusivecommunities.net
(214) 939-9239
Enclosure: ICP Brochure
cc: Michael D. Clark, President, Executive Committee
Board of Directors, AAGD
Kin Oldham, Executive Director, AAGD
Kathy Carlton, Director of Government Affairs,
AAGD
Elizabeth K. Julian, Founder/Senior Counsel, ICP

227a
[LOGO]
Inclusive Communities Project
3301 Elm Street, Dallas, Texas 75226 ❊ office 214.939.9239
❊ fax 214.939.9229 ❊ www.inclusivecommunities.net
February 2, 2016
Mr. Tim Byrne
President & Chief Executive Officer
Lincoln Property Company
Commercial, Inc.
2000 McKinney Avenue
Suite 1000
Dallas, TX 75201
RE: McKinney Uptown (3324 McKinney Ave, Dallas 75204)
Dear Mr. Byrne:
The Inclusive Communities Project, Inc. (ICP) is a
local non-profit entity that works with families using a
housing voucher to rent housing in high opportunity
areas of the Dallas Metroplex. By “high opportunity”
we mean safe and secure communities with higher median incomes, good schools and low poverty.
Your above-listed apartment complexes are in
such areas. We understand the complexes have represented that they do not accept families as tenants if
they use federal housing choice vouchers (HCVs). However, we are writing to encourage you to reconsider
that position. The new zip code maximum rents and
other elements of the voucher program will allow a
family to afford the rents for at least some of the units
in your complexes.

228a
The maximum gross rents that can be paid under
the voucher program are now set by HUD on a Zip
Code by Zip Code basis. For example, the 2016 maximum gross rents that can be paid in Zip Code 75204,
the location of your McKinney Uptown apartment complex is $1170 for 1 bedroom units, $1450 for 2 bedroom
units, and $1970 for 3 bedroom units. These maximum
gross rents appear to be high enough to make units at
your complex available under the voucher program.
DHA can also make 110% of these maximum gross
rents available if needed.
ICP has two proposals to encourage your participation in the voucher program for a small number of
families in your high opportunity area apartments.
One is to accept ICP as a third party guarantor for
these families to enable them to get housing in your
complexes. The other proposal is for a sublease with
ICP patterned on the corporate lease model. Both proposals would include am incentive payment.
Summary of the Third Party Guarantor proposal
To assist those families in obtaining housing in
good areas, ICP is willing to serve as a Third Party
Guarantor for its voucher families and provide economic benefits to the landlord to enter into such a
guarantor arrangement. The Lease Contract Guaranty
is used by many apartments in this region and state to
allow students and others to rent units with a lease
that includes a lease contract guaranty signed by a

229a
guarantor who guarantees the rent and security deposit. Under ICP’s proposal, ICP would serve as the
Third Party Guarantor using the standard Texas
Apartment Association Lease Contract Guaranty form.
ICP is willing to add provisions to the Lease Contract
Guaranty form to cover any losses to the owner due to
possible housing authority delays in processing the
voucher. ICP is not asking any owner to accept more
than three to five voucher families at any single apartment complex under such a guarantor arrangement.
Prospective voucher families would be referred by ICP
to the owner. The owner would apply its own usual tenant selection criteria to any prospective tenants and
make its own tenant selection decisions. An owner
would of course have no obligation to accept a tenant
who did not meet its screening criteria. In addition,
ICP will make an incentive payment of one month’s
rent for each voucher tenant selected with a guarantor
arrangement with ICP. ICP is available to assist with
the processing of the voucher should there be any issues with the housing authority issuing the voucher.
Summary of the Sublease Program
The alternative program we are proposing is the
sublease program. It is based on ICP’s ten years of experience in working with tenants, landlords and the
Dallas Housing Authority to provide housing opportunities for ICP’s clients. In fact, ICP has its own experience as a landlord dealing with Dallas Housing
Authority and other voucher agencies in the area and
understands some of the concerns. However we believe,

230a
based on that experience, that such concerns can be effectively addressed in a way that works for everyone
involved. As you may know, ICP brought this proposal
to the attention of Apartment Association of Greater
Dallas. The President of the Association, Mike Clark,
says the proposal has merit and has offered to work
with ICP to educate owners about the program.
The program would be available for up to five
voucher families in each complex. Under the sub-lease,
ICP would assume the role and responsibilities of a
corporate entity who would mirror the all-private corporate housing model that has worked well for the
apartment industry for many years. ICP would lease
three to five (3-5) units in an apartment community.
ICP would assume responsibility for finding and proposing qualified voucher residents for your consideration under your existing tenant selection criteria.
Under the sublease, ICP would pay agreed lease
amount in a timely manner, and respond to all resident
issues, including eviction if necessary in a businesslike fashion. Of course, the decision to contract for any
specific voucher family would still be your decision
alone. Incentives for the landlord to participate include
financial incentives in the amount of one month’s contract rent for each unit under contract, and other financial and related benefits outlined below.
ICP would then enter into the formal Housing Assistance Payment contract with the housing authority
for the housing authority’s portion of the rent. If the
housing authority was late or delinquent in this payment, ICP would still make the full rent payment due

231a
to you under the contract. ICP would enter into a lease
with the voucher tenant that would comply with the
voucher program requirements and be subject to the
master lease or a specific lease for the unit. If the tenant was late or delinquent in making a monthly payment of the tenant’s portion of the rent, ICP would still
make the full rent payment due to you under the contract.
Suggested master lease provisions:
• The term of the master lease would be
jointly agreed upon.
• The number of units covered by the master lease would not be more than five (5) per
complex.
• ICP would be solely responsible for the
complete rental cost, including tenant payment, utilities and any other legitimate fees.
• ICP would make the above-mentioned incentive payments in addition to the actual
rent for participation in the program.
• ICP would not request any additional
voucher units during the term of the contract.
• Tenant selection would be subject to the
landlord’s approval based on existing selection criteria.
• ICP would assume responsibility for all
damages and costs of repair beyond normal
wear and tear.

232a
• The master lease could end for one or more
units after notice by either party equal to the
greater of either thirty (30) days or the remaining term of the HAP for the unit.
Please let me know when we can meet to discuss
your possible participation with ICP in what we hope
would be a collaborative initiative to expand housing
opportunities for families participating in the Housing
Choice Voucher program. Even if you have no interest
in either of these programs, ICP would still request a
meeting to discuss any alternative terms or conditions
upon which you might be willing to rent to voucher
families.
Sincerely,
/s/ Demetria L. McCain
Demetria L. McCain
Vice President & Deputy Director
dmccain@inclusivecommunities.net
(214) 939-9239
Enclosure: ICP Brochure
cc: Michael D. Clark, President, Executive Committee Board of Directors, AAGD
Kin Oldham, Executive Director, AAGD
Kathy Carlton, Director of Government Affairs,
AAGD
Elizabeth K. Julian, President, ICP

233a
[LOGO]
Inclusive Communities Project
3301 Elm Street, Dallas, Texas 75226 ❊ office 214.939.9239
❊ fax 214.939.9229 ❊ www.inclusivecommunities.net
March 21, 2016
Mr. Tim Byrne
President & Chief
Executive Officer
Lincoln Property Company
2000 McKinney Ave., Suite 1000
Dallas, TX 75201
RE: Brick Row Urban Village (744 Brick Row, Richardson 75081)
Dear Mr. Byrne:
The Inclusive Communities Project, Inc. (ICP) is a local
non-profit entity that works with families using a
housing voucher to rent housing in high opportunity
areas of the Dallas Metroplex. By “high opportunity”
we mean safe and secure communities with higher median incomes, good schools and low poverty.
Your above-listed apartment complexes are in such
areas. We understand the complexes have represented
that they do not accept families as tenants if they use
federal housing choice vouchers (HCVs). However, we
are writing to encourage you to reconsider that position. The new zip code maximum rents and other elements of the voucher program will allow a family to
afford the rents for at least some of the units in your
complexes.

234a
The maximum gross rents that can be paid under the
voucher program are now set by HUD on a Zip Code by
Zip Code basis. For example, the 2016 maximum gross
rents that can be paid in Zip Code 75081, the location
of your Brick Row Urban Village apartment complex is
$920 for 1 bedroom units, $1140 for 2 bedroom units,
and $1550 for 3 bedroom units. These maximum gross
rents appear to be high enough to make units at your
complex available under the voucher program. DHA
can also make 110% of these maximum gross rents
available if needed.
ICP has two proposals to encourage your participation
in the voucher program for a small number of families
in your high opportunity area apartments. One is to
accept ICP as a third party guarantor for these families to enable them to get housing in your complexes.
The other proposal is for a sublease with ICP patterned on the corporate lease model. Both proposals
would include an incentive payment.
Summary of the Third Party Guarantor proposal
To assist those families in obtaining housing in good
areas, ICP is willing to serve as a Third Party Guarantor for its voucher families and provide economic benefits to the landlord to enter into such a guarantor
arrangement. The Lease Contract Guaranty is used by
many apartments in this region and state to allow students and others to rent units with a lease that includes a lease contract guaranty signed by a guarantor

235a
who guarantees the rent and security deposit. Under
ICP’s proposal, ICP would serve as the Third Party
Guarantor using the standard Texas Apartment Association Lease Contract Guaranty form. ICP is willing
to add provisions to the Lease Contract Guaranty form
to cover any losses to the owner due to possible housing
authority delays in processing the voucher. ICP is not
asking any owner to accept more than three to five
voucher families at any single apartment complex under such a guarantor arrangement. Prospective voucher
families would be referred by ICP to the owner. The
owner would apply its own usual tenant selection criteria to any prospective tenants and make its own tenant selection decisions. An owner would of course have
no obligation to accept a tenant who did not meet its
screening criteria. In addition, ICP will make an incentive payment of one month’s rent for each voucher tenant selected with a guarantor arrangement with ICP.
ICP is available to assist with the processing of the
voucher should there be any issues with the housing
authority issuing the voucher.
Summary of the Sublease Program
The alternative program we are proposing is the sublease program. It is based on ICP’s ten years of experience in working with tenants, landlords and the Dallas
Housing Authority to provide housing opportunities
for ICP’s clients. In fact, ICP has its own experience as
a landlord dealing with Dallas Housing Authority and
other voucher agencies in the area and understands
some of the concerns. However we believe, based on

236a
that experience, that such concerns can be effectively
addressed in a way that works for everyone involved.
As you may know, ICP brought this proposal to the attention of Apartment Association of Greater Dallas.
The President of the Association, Mike Clark, says the
proposal has merit and has offered to work with ICP to
educate owners about the program.
The program would be available for up to five voucher
families in each complex. Under the sub-lease, ICP
would assume the role and responsibilities of a corporate entity who would mirror the all-private corporate
housing model that has worked well for the apartment
industry for many years. ICP would lease three to five
(3-5) units in an apartment community. ICP would assume responsibility for finding and proposing qualified
voucher residents for your consideration under your
existing tenant selection criteria. Under the sublease,
ICP would pay agreed lease amount in a timely manner, and respond to all resident issues, including eviction if necessary in a business-like fashion. Of course,
the decision to contract for any specific voucher family
would still be your decision alone. Incentives for the
landlord to participate include financial incentives in
the amount of one month’s contract rent for each unit
under contract, and other financial and related benefits outlined below.
ICP would then enter into the formal Housing Assistance Payment contract with the housing authority for
the housing authority’s portion of the rent. If the housing authority was late or delinquent in this payment,
ICP would still make the full rent payment due to you

237a
under the contract. ICP would enter into a lease with
the voucher tenant that would comply with the voucher
program requirements and be subject to the master
lease or a specific lease for the unit. If the tenant was
late or delinquent in making a monthly payment of the
tenant’s portion of the rent, ICP would still make the
full rent payment due to you under the contract.
Suggested master lease provisions:
• The term of the master lease would be jointly
agreed upon.
• The number of units covered by the master
lease would not be more than five (5) per complex.
• ICP would be solely responsible for the complete rental cost, including tenant payment, utilities and any other legitimate fees.
• ICP would make the above-mentioned incentive payments in addition to the actual rent for
participation in the program.
• ICP would not request any additional voucher
units during the term of the contract.
• Tenant selection would be subject to the landlord’s approval based on existing selection criteria.
• ICP would assume responsibility for all damages and costs of repair beyond normal wear and
tear.
• The master lease could end for one or more
units after notice by either party equal to the
greater of either thirty (30) days or the remaining
term of the HAP for the unit.

238a
Please let me know when we can meet to discuss your
possible participation with ICP in what we hope would
be a collaborative initiative to expand housing opportunities for families participating in the Housing
Choice Voucher program. Even if you have no interest
in either of these programs, ICP would still request a
meeting to discuss any alternative terms or conditions
upon which you might be willing to rent to voucher
families.
Sincerely,
/s/ Demetria L. McCain
Demetria L. McCain
Vice President & Deputy Director
dmccain@inclusivecommunities.net
(214) 939-9239
Enclosure: ICP Brochure
cc: Michael D. Clark, President, Executive Committee Board of Directors, AAGD
Kin Oldham, Executive Director, AAGD
Kathy Carlton, Director of Government Affairs,
AAGD
Elizabeth K. Julian, President, ICP

239a

Exhibit 2 - Page 1

Some Apartment Complexes with Voucher Reachable Rents in Majority White Census Tracts Not Accepting Vouchers
3

3

1

1

3

4

3

2

1

1

1

1

2

1

2

1
2

Numbers indicate some of the apartment
complexes in majority White not Hispanic
census tracts with rents reachable by voucher
rents and not accepting vouchers.
Percent White not Hispanic by Census Tract

51% - 75%

3

1

2

1
4

1

1

1

1

5

6

2

1

8

1 2

1

2

1

1

1

2

1

2

1

1

2

1

1

2

2

1

1
1

2

1

1

2

1

1

1

2

3

3

1

1
3

2
5

1

2

2

3

1

1

ACS 2014 5-year Estimates

2
2

2

26% - 50%

1

2
2

0% - 25%

1

2

2

1

2

1

2

1
4

1 8 3
5 5 2
2
1

2

1

3 5

2

3 2 1

1 1 1
1

11

2

2

3

1
1
1
1

76% - 100%
Sources: Census 2010 Tracts; American Community Survey 2014 5-year Estimates, Table B03002; HUD 2016 SAFMRs; Enriched Data Report; ICP Apartment Survey.

4

*

33

10

90

140

City of Dallas

151

108

79

173

25

87

98

*

*
* *

28

73
*

365

*

*

37

*

84

117

156

*

*

35

*

24

*

2014 ACS Percent White not Hispanic

33

18

20

*
14 *

11
*

93

11

37
*

30

12

21

94

20

10 97

79

91

* *

167

51

15

132

42

16

104

*
29 58

*
* *
*
31

28

* 31 *

265

*

12

14

91

39

71
44

*

34 22

17

*

25

309

461

130

194

10

14

396

11

11

31

34

28

63

17

93

245

17

39

14

40

54

19

32

For census tracts that are partially in the City of Dallas,
the number of HCVs in the tract may not all be located
in the City of Dallas. There are 14,193 HCVs in the
City of Dallas.

* <10 HCVs per Census Tract
10-99 HCVs per Census Tract
100+ HCVs per Census Tract

342

117

19

257

158

*

28
25

54

168

138

40

16

47

36

167

52

*

91

20

*

15

22

53

26

55

151

52

10

*

25

*

*

Sources: Census 2010 Tracts, Places, and Block Groups; American Community Survey 2014 5-year Estimates, Table B03002; HUD Picture
of Subsidized Households 2015.

Note: Tract 141.27 is located in both Dallas and Irving. The 28 HCVs in the tract are located in Irving. For this map, the tract has been
replaced by block group 1 of tract 141.27, which is primarily in the City of Dallas.

76% - 100%

51% - 75%

26% - 50%

0% - 25%

*

46

42 159

676

577 43

76

*

*

10

*
15

*

*

23

*

81 *
418
48 28
72
* 23 231 116 96
* 130
*
*
213 21
89
156
108
320
151
16
12
104 * 79
28
272
*
38
175
21
112
45
28
74
330 44
*
20 17
*
218
*
129

*

14

233 92 39

11

* 83

*

19

24

*

17

*

*

12

*

* 13

*

55

11

18 *
* 10

62

163 305 *

*

14

209 169

*
*
*

*

*
19 * *

154

*

*

*
*

Census 2010 Tracts in the City of Dallas

13

64

24

129

*

*

20

*
27 * *

*

*

21 * 96 *

105

Housing Choice Vouchers in City of Dallas Census Tracts as of December 2015

Exhibit 3 - Page 1

240a

35 14

* *

17

*

*

14

24

60

* *

*

*

246

20
* 66

93

*

28

*

*

*

*

*

*

21

28

*

*
*

*

154

*

*

*

19 * *

14

*

*

*

*

*

*

*

*

27 *

*

* *

* 22

20

*

*

*

35

*

*

14

*

*

19

24

17

*

24

*

*

*

* 13

*

20

19

*

*

11

14
45

58
93

11

*

37

79

* *
*

49
91

167

51

132

42

16

104 15

17

*

11

31

*

29

461

*

* *

28

* 31 *

15

*

10

130 14

*

*

*

*

10
11

33

14

30

12

21

94

20

29

*

12

*

39

23

21

*

49

48

51

17
19

14

184

195
167

14 52

23

38

41 10

71
44

*

24

*

44 18

21 16

*

34 22

17

*

25

18

60

30

28

80

10

34

51

69

201

57 16 66

42

10

32

72

40

53

71

19

*

*

33

151

76

16

103

167

71

90

*

14

25

209 169

33

84

77

90

31

56

81

62

41

146 164

100+ HCVs per Census Tract

* <10 HCVs per Census Tract
10-99 HCVs per Census Tract

76% - 100%

51% - 75%

26% - 50%

0% - 25%

ACS 2014 Percent White not Hispanic

68

*

111

13

171

86

342

117

211

309 138

43
166 141 156 577
42 159
106
65
676
117

Census 2010 Tracts

13

*

Sources: Census 2010 Tracts; American
Community Survey 2014 5-year Estimates,
Table B03002; HUD Picture of Subsidized
Households 2015.

73

14

34

14

*

17

10 97
33
81 *
418 72
48 28
* 23 231 116 96
171 57 17
213
25
* *
83 12
21
289
37
89
156
108
320
*
151 16
*
365
141 329
12
104
*
79
*
28
*
272 47
*
73
38
175
21
45
*
25
*
98
28 112
*
38
74
65
330 44 56
*
*
*
*
36
52
20 17
18 * *
*
218
*
28
115
129
34
91
55
*
36
* 10
129
*
47
23 33
*
11
87
*
11
79
*
46
*
31
89
245
*
* 83
16
115 76
55
*
166
168
10
396
158
34 24
*
173 163 305 *
63
49
54
11
28
194
93
97 73
257
40
84
62
140
92
25
233
39
39
69 64
28
19
19
10
76 18
108
130

*

13

28

17
10 63 127
63 23 *

*

*

*

*

54

68

91

20

*

15

22

Housing Choice Vouchers in Dallas County Census Tracts as of December 2015

Exhibit 4 - Page 1

53

30

151

52

97

26

55

241a

*

26

*

*

*

23

20

*

17

*

*

*

*

*

*

*

*

*

*

*

*

*

90

57

*

*

*

10

27

43

53

16

*

27

*

93

15

*

*

*

34

24

*

13

*

39

14

*

Sources: Census 2010 Tracts; American
Community Survey 2014 5-year Estimates,
Table B03002; HUD Picture of Subsidized
Households 2015.

100+ HCVs per Census Tract

10-99 HCVs per Census Tract

* <10 HCVs per Census Tract

76% - 100%

51% - 75%

26% - 50%

0% - 25%

*

*

*

*

117

25

ACS 2014 Percent White not Hispanic

*

*

*

*

*

10

*

*

*

177 83

14

*

*

*

*

* 17 12
11

*

*

*

*

12

Census 2010 Tracts

12

55 *

* 11

*

*

31

*

*

24

*

*
*

*

67

11
44
*

*

10

*

*

*

*

*

*

*

Housing Choice Vouchers in Collin County Census Tracts as of December 2015

Exhibit 4 - Page 2

242a

*

*

*

42

Sources: Census 2010 Tracts; American
Community Survey 2014 5-year Estimates,
Table B03002; HUD Picture of Subsidized
Households 2015.

100+ HCVs per Census Tract

* <10 HCVs per Census Tract
10-99 HCVs per Census Tract

76% - 100%

51% - 75%

26% - 50%

0% - 25%

ACS 2014 Percent White not Hispanic

Census 2010 Tracts

*

*

*

12

10

*
*

*
*

*

*

17

28

*

10

62

68

87

14
*

*

*

*

*

287

53

*

*

62

*

*

*

*
*

10

*

*

*

114

*

*

*

20

*

*

16

22 * 13
* 32

*
44 39

*
*

*

*

16

13

10

*

*

34

*

48

*

*

*

*

*

*

58

*

105

*

21 * 96 *

*

*
*

*

33
24 18
61

23 *

136

31

19

13

36

*

Housing Choice Vouchers in Denton County Census Tracts as of December 2015

Exhibit 4 - Page 3

243a

244a
EXHIBIT 5
2 BR 2017
SAFMR
2 BR
125% WSV
2017
maximum
LPC managed or owned complex SAFMR payment
Caruth at Lincoln Park
$1,550 $1,938
The Caruth
$1,550 $1,938
McKinney Uptown
$1,550 $1,938
White Rock Lake Apartment Villas
$1,110 $1,388
Winsted at White Rock Lake
$1,050 $1,313
Rockwall Commons
$1,280 $1,600
Colonnade at Willow Bend
$1,360 $1,700
Park Central at Flower Mound
$1,490 $1,863
The Gate in the Village
$1,300 $1,625
The Hill in the Village
$1,300 $1,625
Westside in the Village
$1,300 $1,625
Riviera at West Village
$1,550 $1,938
Creekside at Northlake
$1,180 $1,475
Corners East in the Village
$1,300 $1,625
The Corners in the Village
$1,300 $1,625
The Dakota in the Village
$1,300 $1,625
Northbridge in The Village
$1,300 $1,625
Lasalle
$1,130 $1,413
Emerson Square
$1,070 $1,338
Gardens of Denton
$1,070 $1,338
Third Rail Lofts
$1,550 $1,938
The Residences at Starwood
$1,280 $1,600
Northside at Legacy
$1,530 $1,913
Parkside at Legacy
$1,530 $1,913
Mockingbird Flats
$1,300 $1,625
St Moritz
$1,250 $1,563
Palencia
$1,210 $1,513
Mustang Park
$1,370 $1,713

245a
Bend East in the Village
The Bend in the Village
The Cliffs in the Village
The Lakes in the Village
The Meadow in the Village
Park in the Village
The Chase in the Village
The Green in the Village
Green in the Village II, The
Green II
Eastbridge Apartments
The Grand at Legacy West
Ashmore
Parkside at Craig Ranch
Brick Row
Prairie Crossing
1001 Ross

$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,300
$1,530
$1,130
$1,420
$1,250
$1,400
$1,550

$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,625
$1,913
$1,413
$1,775
$1,563
$1,750
$1,938

